<html>
<title> - HEALTHY MARRIAGE: WHAT IS IT AND WHY SHOULD WE PROMOTE IT?</title>
<body><pre>[Senate Hearing 108-830]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-830

       HEALTHY MARRIAGE: WHAT IS IT AND WHY SHOULD WE PROMOTE IT?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON



 EXAMINING HOW TO PROMOTE A HEALTHY MARRIAGE, FOCUSING ON THE HEALTHY 
    MARRIAGE INITIATIVE, THE TEMPORARY ASSISTANCE TO NEEDY FAMILIES 
                PROGRAM, AND DISCOURAGING TEEN PREGNANCY

                               __________

                             APRIL 28, 2004

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


                    U.S. GOVERNMENT PRINTING OFFICE
93-523                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman
BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY GRAHAM, South Carolina       JOHN EDWARDS, North Carolina
JOHN WARNER, Virginia                HILLARY RODHAM CLINTON, New York
                   Sharon Soderstrom, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel
                                 ------                                

                 Subcommittee on Children and Families

                  LAMAR ALEXANDER, Tennessee, Chairman
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York
                   Marguerite Sallee, Staff Director
                 Grace A. Reef, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                               STATEMENTS
                        THURSDAY, APRIL 28, 2004

                                                                   Page

Sessions, Hon. Jeff, a U.S. Senator From the State of Alabama, 
  opening statement..............................................     1
Enzi, Hon. Michael B., a U.S. Senator From the State of Alabama, 
  prepared statement.............................................     2
Horn, Wade, Assistant Secretary for Children and Families, 
  Department of Health and Human Services........................     4
    Prepared statement...........................................     6
Whitehead, Barbara DaFoe, Co-Director, National Marriage Project, 
  Rutgers University, Piscataway, NJ; Roland C. Warren, 
  President, National Fatherhood Initiative, Germantown, MD; Hon. 
  Frank Keating, Former governor of Oklahoma, and President and 
  Chief Executive Office, American Council of Life Insurers, 
  McLean, VA; and Stan E. Weed, President, The Institute for 
  Research and Evaluation, Salt Lake City, UT....................    18
    Prepared statements of:
        Ms. Whitehead............................................    21
        Mr. Warren...............................................    29
        Governor Keating.........................................    37
        Mr. Weed.................................................    44

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Stop Family Violence, Welfare Reform and Marriage 
      Initiatives--Marriage Diaries..............................    60
    Legal Momemtum
        Welfare Reform and Marriage Initiatives..................    69
        Recent Marriage Promotion Studies........................    76



  

 
       HEALTHY MARRIAGE: WHAT IS IT AND WHY SHOULD WE PROMOTE IT?

                              ----------                              


                       WEDNESDAY, APRIL 28, 2004

                                       U.S. Senate,
Subcommittee on Children and Families, of the Committee on 
                    Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room SD-430, Dirksen Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Present: Senators Sessions, Bond, and Allard.

                 Opening Statement of Senator Sessions

    Senator Sessions. I think we will go ahead and get started. 
I know a number of members plan to attend and I know that there 
are conflicts. At this moment there is a conference going on on 
the Republican side, but I thought we would go ahead and get 
started. I welcome all of you to this hearing.
    Marriage is unquestionably one of the fundamental 
institutions in our society. There was a time when it would 
have been difficult to imagine that such a pillar of 
civilization could be threatened. Yet today some say marriage 
is outdated and unimportant. We hear this from certain 
academics, the popular media, the secular left. The issue is 
driven home with emphasis when high courts declare that the 
traditional definition of marriage is unconstitutional.
    I believe that it is important that we carefully examine 
this institution. Let me begin by emphasizing that while 
discussing the value of marriage to individuals and to society, 
I do not mean to in any way disparage single-parent families. 
Certainly there is no doubt that many children who grow up in 
single-parent households develop quite well. However, we are 
here to discuss what our scientific information will tell us 
and what the numbers say. We want to determine what the optimal 
arrangement for families might be.
    By looking at marriage, we need to answer three fundamental 
questions, it seems to me. First, is marriage good for 
individuals and for society? Second, if marriage is good for 
individuals and society, should Government be involved in 
supporting and promoting it? And finally, if Government is 
involved, can it make a positive difference?
    I believe that after listening to our distinguished group 
of witnesses today we will determine that the answers to these 
questions are yes, based on the remarkable and excellent 
presentations that I have read. First, the evidence will show 
that marriage is a social good. Marriage certainly contributes 
to the physical, emotional and economic health of men, women, 
and children, and therefore is beneficial to the country as a 
whole. A plethora of social science evidence demonstrates that 
children do best when they grow up with both married biological 
parents.
    The answer to the second question is also yes, Government 
should be involved both in supporting and promoting marriage. 
The Government frequently advances policies to promote the 
general welfare. For example, we provide incentives for 
homeownership, something I believe strongly in, because we know 
that communities with high levels of homeownership are safer, 
more stable, and families are stronger where homeownership is 
common. There are also tax breaks for charitable giving; 
grants, loans and tax breaks for educational advancement; and 
incentives for preventive health care. All of these are 
examples of Government supporting and promoting a social good.
    Additionally, Government involvement can be justified 
because divorce and unwed childbearing create substantial 
public costs borne by the taxpayers. When both adults and 
children are members of a family led by a married man and 
woman, they suffer from lower rates of crime, drug abuse, 
education failure, chronic illness, child abuse, domestic 
violence, poverty, and other social problems. These families do 
not require as many programs covered by tax dollars such as 
welfare expenditures, remedial and special education expenses, 
daycare subsidies, child support collection costs, 
administrative costs, and social program cost. Therefore, 
Government has a very real interest in promoting marriage.
    Finally, I would answer the third question by arguing that 
Government can make a very real difference by promoting and 
supporting marriage. Today we will hear about a recent study 
which demonstrates that policies supporting marriage in 
communities have led to a decrease in the number of divorces in 
those communities. We are going to hear about the Oklahoma 
marriage initiative, an innovative program to promote and 
support marriage that is serving as a model to other States and 
communities.
    I do not believe that we have to continue down the same 
path that Europe is presently on. It is not inevitable that we 
will have 60 percent of our children born to unmarried parents 
as they are in Denmark. We do not have to allow other countries 
or our own activist courts to tell us that traditional marriage 
is outdated. It is not and we will let the facts speak for 
themselves today. In fact we will serve our Nation and the 
world if we study the issue objectively and take steps to 
reverse the trends and prove that the marriage of one man and 
one woman is and will always be the most ideal framework for a 
family.
    At this time I would like to submit a statement from 
Senator Enzi for the record.
    [The prepared statement from Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you, Mr. Chairman, for agreeing to hold this hearing 
on healthy marriages. This is not only a vital topic for this 
committee, but an issue of great concern to our constituents 
across the Nation.
    Almost every day, if you pick up the paper or read one of 
the weekly magazines you will see a spirited debate on the 
topic of marriage going on all over the country. Today's 
hearing will examine some of the arguments that have been made 
about marriage and send an important message to a wide audience 
that will make clear what the ramifications are of this issue 
and how they may have an impact on our work in Congress, as 
well as the policies we pursue on the local, State and national 
level.
    I believe a healthy marriage isn't all that difficult to 
define. It starts with a heartfelt commitment to a spouse. 
Speaking from my own experience, I have often noted the Enzi 
tradition of ``overmarriage.'' Simply put, my son and I, along 
with many other male Enzis in the past have been blessed to 
find that special someone in our lives who helped us to set 
goals in our lives and worked with us to achieve them.
    One of the most important of those goals has been the care 
and nurturing of our children our next generation of leaders. I 
have often heard it said that the most important job we have as 
a society is raising our children and if we don't do a good job 
of that, nothing else we do will matter very much. It's a 
philosophy I support and promote in my household and in my 
life. It's also the philosophy behind a healthy marriage. I 
have recently become a grandfather, so that has added another 
dimension to my belief about healthy marriages and the fruits 
that continue to be produced by the shared commitment of a man 
and woman to their future together.
    Yes, you can put me down as a strong believer in the 
importance of a healthy marriage to our society because I have 
been the beneficiary of it, so I may be biased. Fortunately, 
you don't have to take my word for it. There is plenty of 
objective evidence to prove that marriage is no longer a moral 
issue that has no place in the policy realm. We now realize 
that the institution of marriage has a significant impact on 
health policies, economic prosperity and the prospects for 
child development. Research by several different organizations 
and individuals has shown that marriage is a significant part 
of the equation to reduce child and family poverty. It is a 
major factor in the mental health and development of children, 
and it also has an impact on their civic involvement. That 
shouldn't come as a surprise to us, because we know that 
children learn from their parents as each parent becomes a role 
model for their future relationships, including their own 
marriage.
    Several years' worth of research has demonstrated that 
children from stable two-parent homes are much more likely to 
succeed in school and in life than their peers. As some of the 
witnesses have suggested in their testimony, a healthy marriage 
is among the most important indicators of future success, even 
to the point that it is a stronger indicator than socioeconomic 
factors. Children from stable two-parent homes are also more 
likely to marry and stay married themselves.
    In economic terms, two-parent families are less likely to 
need full-time child care services. The Federal Government 
spends billions of dollars each year on child care, but we 
spend next to nothing on programs that would encourage 
marriage. I have often expressed my concern that Congress is in 
the habit of treating symptoms rather than pursuing cures, and 
child care is one instance where promoting healthy marriages 
would help make the most of the Federal commitment to child 
care, by helping to focus that assistance to the families and 
single parents that need it most.
    In most instances, if someone were to testify that a 
specific behavior could practically guarantee lower poverty 
rates, higher school achievement, lower participation in high-
risk behaviors and significantly improve opportunities for 
long-term success in life, it would be embraced by every Member 
of Congress without reservation. Unfortunately, when marriage 
is identified as the behavior that would produce those 
benefits, the support for the policy doesn't materialize the 
way it should.
    The benefits of marriage should not be excluded from the 
discussion when Congress considers major policy decisions. We 
should be considering the reauthorization of the Temporary 
Assistance for Needy Families (TANF) program and supporting the 
institution of marriage should be a critical component of that 
reauthorization.
    There is no question that the great institutions of our 
society serve as teachers to our children and the younger 
generation. The institution of marriage certainly qualifies for 
that distinction. Healthy marriages teach our children about 
long range goals and opportunities, about keeping our word and 
our promises, and about the role they will someday play in 
life. Marriage is more than the legal bond that recognizes the 
union of a man and a woman, it is a heartfelt commitment to the 
future of our Nation, our way of life, and ultimately, to our 
family and all our children.
    Senator Sessions. I look forward to hearing from our 
distinguished witnesses today and I think each of you who will 
be listening to this hearing will conclude that we have some 
extraordinary witnesses and their message is very important to 
us.
    Dr. Wade Horn is the Assistant Secretary for Children and 
Families with the Department of Health and Human Services. It 
is appropriate we lead off with you, Dr. Horn. Prior to his 
appointment as Assistant Secretary in 2001, Dr. Horn was the 
president of the National Fatherhood Initiative and has a 
history that demonstrates a commitment to children and 
families, including Commissioner for Children, Youth, and 
Families and as Chief of the Children's Bureau in the 
Administration on Children, Youth, and Families. He is the 
author of numerous articles and books on children and family 
issues. He received his Ph.D. in clinical child psychology from 
Southern Illinois University in 1981.
    Dr. Horn, we are delighted to have you with us and are 
interested in hearing your thoughts on this important subject.

 STATEMENT OF WADE HORN, ASSISTANT SECRETARY FOR CHILDREN AND 
       FAMILIES, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Horn. Thank you very much, Mr. Chairman. I want to 
thank you for calling this afternoon's hearing on marriage and 
for giving me the opportunity to share the Administration's 
work on this very important issue.
    It is a credit that you and other members of the 
subcommittee are focused on family formation and healthy 
marriages with a very important purpose in mind, to enhance the 
well-being of children.
    Why should government be in the business of supporting the 
formation and stability of healthy marriages? Because the 
research literature is now replete with studies showing that 
children raised in stable, healthy marriages are less at risk 
for a host of negative developmental outcomes compared to 
children raised in unstable, unhealthy and dysfunctional 
households.
    It is not just children who benefit from healthy marriages. 
Research shows that adults in healthy marriages are happier, 
healthier and accumulate more wealth compared to those who are 
not. And communities, as you note, with high rates of healthy 
marriages evidence less pathology, such as crime and welfare 
dependency, compared to those with low rates of healthy 
marriages.
    The good news is that in a remarkably short period of time 
we have moved past the question of whether government ought to 
be involved in supporting healthy marriages to the question of 
how. There are many problems worth attending to, but strong and 
healthy marriages are the bedrock of strong and healthy 
societies, without which we will forever be seeking new 
programs and services to cope with the ever-increasing social 
problems that result from their absence.
    One of the most important lessons that we have learned when 
explaining the government's role in promoting and strengthening 
healthy marriages is to first talk about what government ought 
not to do.
    First, government ought not to force anyone to get married. 
One very important American tradition is the belief in a 
limited government. One of the areas in which government ought 
to be limited is the decision about whether or not a person 
should be married. That decision should remain completely up to 
the individual couple. Government ought not to get into the 
business of interfering with that personal decisionmaking.
    Second, government ought not, intentionally or otherwise, 
to implement policies that will encourage anyone to get into an 
abusive relationship. In all that we do in this area we should 
always have a mindful eye toward ensuring that we do not 
increase the risk of domestic violence for anyone as a 
consequence of our work.
    Third, government ought not to promote marriage by 
withdrawing support for single-parent families.
    And finally, government ought not to promote marriage by 
being afraid to mention its name. There is something unique 
about marital relationships that distinguish it from other 
types of relationships. Preparing couples for marriage is 
different from preparing them for other types of relationship 
arrangements.
    What then should government do? Here are three principles 
that we believe should underlie government's role in supporting 
marriage.
    First, we ought to make it clear that government is in the 
business of promoting healthy marriages, not just marriage per 
se. The fact is that healthy marriages are good for children. 
Dysfunctional and abusive marriages are not.
    Second, government should not merely seek to be neutral 
about marriage. Government is not neutral about lots of things, 
as you have noted, things like homeownership and charitable 
giving, precisely because it can be shown that homeownership 
and charitable giving contribute to the common good. In much 
the same way, government, while not forcing anyone to marry, 
can and should provide support for healthy marriages precisely 
because it can be shown that healthy marriages contribute to 
the common good. As such, removing disincentives for marriage 
is fine. But that would only achieve neutrality.
    Third, while we do not know as much as we would like to 
know about supporting healthy marriages, that should not be 
used as an excuse to do nothing. We do know, for example, that 
what separates stable and healthy marriages from unstable and 
unhealthy ones is not the frequency of conflict but how the 
couple manages conflict. The good news is that through marriage 
education we can help teach couples how to manage conflict in 
healthy ways.
    With these three principles in mind, the Bush 
Administration is undertaking the following bold initiatives to 
support the formation and stability of healthy marriages.
    First, the President has proposed increased funding for 
marriage education services as part of the reauthorization of 
the Temporary Assistance for Needy Families program known as 
TANF. With these funds, organizations could conduct public 
education campaigns about how marriage education can help 
couples build healthy marriages, offer premarital education and 
marriage enrichment programs, and provide targeted outreach to 
troubled marriages so that couples do not have to view divorce 
as the only alternative when they experience marital distress.
    Second, we are already working to integrate support for 
healthy marriages into our existing array of social service 
programs. We have, for example, begun to integrate marriage 
education programs into our child welfare system, providing 
marriage education to couples as a way to reduce the risk of 
child abuse and neglect. We have also begun to integrate 
support for healthy marriages into services currently being 
offered through the child support enforcement system, and we 
have added marriage education to the range of social services 
we offer to couples who come to America as refugees.
    The reason we have come so far in promoting healthy 
marriage in America in such a short time is because of the 
leadership and commitment of President Bush. During his first 
year in office President Bush said, ``My Administration is 
committed to strengthening the American family. Many one-parent 
families are also a source of comfort and reassurance. Yet a 
family with a mom and a dad who are committed to marriage and 
devote themselves to their children helps provide children a 
sound foundation for success. Government can support families 
by promoting policies that help strengthen the institution of 
marriage and help parents rear their children in positive and 
healthy environments.''
    Mr. Chairman, I could not have said it better myself. Thank 
you.
    [The prepared statement of Mr. Horn follows:]

                   Prepared Statement of Wade F. Horn

    Mr. Chairman and members of the subcommittee, thank you for calling 
this afternoon's hearing on the president's healthy marriage initiative 
and for giving me the opportunity to share the Administration's work on 
this very important issue. I appreciate the subcommittee's interest in 
promoting healthy marriages and your continued efforts to improve the 
health and well-being of children and families throughout our Nation.
    For thousands of years, healthy marriages have been the legacy of 
healthy families. President Bush, like members of the subcommittee, has 
focused on family formation and healthy marriages with an important 
purpose in mind: to enhance the well-being of children. As the 
President has stated: ``My Administration is committed to strengthening 
the American family. Many one-parent families are also a source of 
comfort and reassurance, yet a family with a mom and dad who are 
committed to marriage and devote themselves to their children helps 
provide children a sound foundation for success. Government can support 
families by promoting policies that help strengthen the institution of 
marriage and help parents rear their children in positive and healthy 
environments.''
    Why should government be in the business of supporting the 
formation and stability of healthy marriages? Because the research 
literature is now replete with studies showing that children raised in 
stable, healthy marriages are less at risk for a host of negative 
developmental outcomes compared to children raised in unstable, 
unhealthy and dysfunctional married households. We know, for example, 
that children raised in healthy married households are less likely to 
be poor, less likely to fail at school, and less likely to have an 
emotional or behavioral problem requiring psychiatric treatment, 
compared to those who are not. Moreover, as adolescents, they are less 
likely to commit crime, develop substance abuse problems or to commit 
suicide. Healthy marriages, it appears, are the best environment for 
rearing healthy children.
    And it is not just children who benefit from healthy marriages. 
Research shows that adults in healthy marriages are happier, healthier, 
and accumulate more wealth compared to those who are not. And 
communities with high rates of healthy marriages evidence fewer social 
pathologies, such as crime and welfare dependency, compared to those 
with low rates of healthy marriages.
    Unfortunately, too many children today are growing up without the 
benefit of parents and grandparents in healthy, stable marriages. 
Indeed, more than half of all children today will spend some or all of 
their childhood in homes without a mom and dad in a healthy, stable 
marriage.

                    THE HEALTHY MARRIAGE INITIATIVE

    That is why President Bush proposed his healthy marriage 
initiative. He, like so many others, sees the good that often comes 
from healthy marriages. The President recognizes the importance of 
helping couples who choose marriage for themselves access services, on 
a voluntary basis, where they can develop the skills and knowledge 
necessary to form and sustain healthy marriages for the benefit of 
children, adults, and society.
    The good news is that in a remarkably short period of time, we have 
moved past the question of whether government ought to be involved in 
supporting healthy marriages to the question of how government should 
be involved in supporting healthy marriages. This shift from the 
question of ``whether'' to the question of ``how'' is an exceedingly 
important one--for it is not possible to seek solutions to a problem 
until, and unless, that problem is called by its correct name. Yes, 
there are many problems worth attending to. But strong and healthy 
marriages are as good as bedrock for strong and healthy societies. 
There are few things I know for certain, but here is one: A critical 
mass of healthy marriages help all societies to function well, and 
without that critical mass, they will forever be seeking new programs 
and services to cope with the ever increasing social problems that 
result from its absence.

                    WHAT GOVERNMENT OUGHT NOT TO DO

    One of the most important lessons we've learned when explaining the 
government's role in promoting and strengthening healthy marriages is 
to first talk about what the government ought not to do.
    First, government ought not to force anyone to get married. One 
very important American tradition is the belief in limited government. 
One of the areas in which government ought to be limited is the 
decision about whether or not a person should get married. That 
decision should remain completely up to the individual, ideally in 
consultation with the individual's family. Government ought not to get 
into the business of interfering with that personal decisionmaking.
    Second, government ought not--intentionally or otherwise--implement 
policies that will trap anyone in an abusive relationship. Domestic 
violence is, tragically, a terrible reality for far too many couples 
today. Marriage does not cure domestic violence. All too often, it 
exacerbates it. Whatever policies we implement, none of them should--
either directly or indirectly--contribute in any way to this terrible 
problem.
    Third, government ought not to promote marriage by withdrawing 
supports for single-parent families. I know of no evidence that says 
that child well-being is improved by withdrawing supports for single 
parents. Promoting healthy marriage ought to be about affirming healthy 
marriage, not denigrating single people. President Bush has said 
``Single mothers do amazing work in difficult circumstances, succeeding 
at a job far harder than most of us can possibly imagine. They deserve 
our respect and they deserve our support.'' He's right. Supporting 
healthy marriages cannot come at the expense of supporting children 
living in other family structures. All children are unique gifts from 
God, and each one--every one--deserves our support and encouragement, 
no matter what their family arrangement.
    Finally, government ought not to promote marriage by being afraid 
to mention its name. There is something unique about the marital 
relationship that distinguishes it from other types of relationships. 
Preparing couples for marriage, therefore, is different from preparing 
them for other types of relationship arrangements. Relationship 
education, for example, is a good thing, and I support it. I would 
certainly favor helping individuals develop all sorts of good 
relationship skills. But marriage is fundamentally different from other 
types of relationships. As such, we ought not to shy away from using 
the word ``marriage'' if it is, indeed, marriage we seek to promote.

                      WHAT GOVERNMENT OUGHT TO DO

    What, then, should government do? Here are three principles that I 
believe should underlie government's role in supporting marriage.
    First, we ought to make it clear that government is in the business 
of promoting healthy marriages. The fact is healthy marriages are good 
for children; dysfunctional and abusive marriages are not. Hence, 
government, as a strategy for improving the well being of children, 
ought to be in the business of promoting healthy marriages.
    Second, government should not merely seek to be neutral about 
marriage. Governments are--and should be--neutral about lots of things. 
Take ice cream preference, for example. Government has no business 
promoting one flavor of ice cream over another because there is no 
evidence that individuals, couples, children, families or communities 
benefit from the choice of one flavor of ice cream over another. Hence, 
government is neutral when it comes to a personal preference for 
vanilla or strawberry ice cream.
    But government is not neutral about lots of things--like home 
ownership or charitable giving--precisely because it can be shown that 
home ownership and charitable giving contribute to the common good. 
Hence, government provides incentives--primarily in the way of tax 
incentives--for home ownership and charitable giving. In much the same 
way, government, while not forcing anyone to marry, can--and should--
provide support for healthy marriages precisely because it can be shown 
that healthy marriages contribute to the common good. As such, removing 
disincentives for marriage is fine--but that would only achieve 
neutrality. When it comes to something as important to society as 
healthy marriages, government cannot afford to simply be neutral.
    Third, while we don't know as much as we would like to know about 
how to promote healthy marriages, that shouldn't be used as an excuse 
to do nothing. While it is true that we don't have perfect knowledge 
when it comes to designing initiatives to support healthy marriages, we 
do know something. We do know, for example, that what separates stable 
and healthy marriages from unstable and unhealthy ones is not the 
frequency of conflict, but how couples manage conflict. Couples who are 
able to listen to each other with respect, communicate effectively and 
problem-solve conflict in healthy ways, report higher levels of marital 
satisfaction and are less likely to divorce than those who are not able 
to do so. The good news is that through marriage education, we can 
teach these skills and in so doing, increase the odds that couples will 
form and sustain healthy marriages--to the benefit of their children, 
themselves, and society.
    And new research is constantly shedding more light on our path. For 
example, research is dispelling the myth that couples--and especially 
low-income couples--no longer are interested in marriage as a life 
goal. Survey after survey shows that most young people continue to 
aspire to healthy, stable marriage. Even unmarried parents continue to 
aspire to marriage. According to researchers at Princeton and Columbia 
Universities, more than half of unmarried parents when asked at the 
time their child is born out-of-wedlock indicate that they are actively 
considering marriage--not some time to somebody, but to each other. 
Yes, we have much to learn--but government ought not to be paralyzed by 
imperfect knowledge. For in the words of the Russian novelist Ivan 
Turgenev: ``If we wait for the moment when everything, absolutely 
everything is ready, we shall never begin.''

                 WHAT THE BUSH ADMINISTRATION IS DOING

    With these three principles in mind, the Bush Administration has 
undertaken the following bold initiatives to support the formation and 
stability of healthy marriages.
    First, President Bush has proposed increased funding for marriage 
education services as part of the reauthorization of the Temporary 
Assistance to Needy Families (TANF) program. Specifically, the 
President has requested spending $240 million annually to support 
innovative efforts to integrate supports for healthy marriage into 
existing government-sponsored welfare programs. Half of the money--$120 
million--would be for a competitive matching grant program where 
States, territories, and federally recognized tribes could develop 
innovative approaches to support healthy marriages. Expenditures would 
be matched dollar-for-dollar and Federal TANF funds could be used to 
meet the matching requirement.
    With these funds, States, territories, federally recognized tribes 
and tribal organizations, local governments, and community and faith-
based organizations could conduct public education campaigns about the 
benefits of healthy marriages and how marriage education can help 
couples build healthy marriages; offer pre-marital education and 
marriage enrichment programs to help couples, on a voluntary basis, 
develop the skills and knowledge necessary to form and sustain healthy 
marriages; and provide targeted outreach to troubled marriages so that 
couples do not have to view divorce as the only alternative when they 
experience marital distress. The goal in all of these efforts will be 
on increasing the number of children growing up in healthy married 
households. Why? Because healthy marriages are good for kids, unhealthy 
marriages are not.
    The other half of the money--another $120 million per year--would 
be available for research, demonstrations and technical assistance 
efforts focused primarily on healthy marriages and family formation.
    Second, we are working to integrate support for healthy marriages 
into our existing array of social service programs. We have, for 
example, begun to integrate marriage education programs into our child 
welfare system, providing marriage education to couples as a way to 
reduce the risk of child abuse and neglect, for example, as well as 
providing marriage education to couples who adopt to help ensure the 
success of that adoption. We also have provided funding for the 
development of curriculums that include effective ways of the promoting 
of healthy marriages for schools that teach social work. And we've 
begun to integrate support for healthy marriages into services 
currently being offered through the child support enforcement system.
    When it comes to promoting healthy marriages, we don't believe in a 
``one-size-fits-all'' approach. Different groups of people need 
different types of help. That's why we also are targeting funds to help 
particularly vulnerable populations form and sustain healthy marriages. 
For example, we have added marriage education to the range of social 
services we offer to couples who come to America as refugees.
    Each of these initiatives is not about subtraction--but addition. 
They are about adding supports for healthy marriages into our publicly 
financed service delivery system--a system that for far too long has 
been afraid to even speak the word ``marriage.''
    Finally, we also are seeking to integrate messages about the 
importance of healthy marriages into programs that seek to discourage 
teen pregnancy. The good news is that teen pregnancy is down in 
America. The not-so-good news is that the rate of out-of-wedlock 
childbearing for women in their 20's is increasing. While we have given 
the clear message that, all things being equal, teenagers should avoid 
becoming fathers and mothers, we are less clear about telling them that 
they also should avoid becoming a mother or father until after they are 
married. We need to help our young better understand not just the value 
of waiting until they are ``older'' before becoming a parent, but also 
the value of waiting until they are married.
    Of course, if our young people are going to avoid becoming parents 
before marriage, the best way for them to accomplish that is to be 
sexually abstinent until marriage. That is why President Bush also has 
proposed dramatic increases in funding for abstinence education 
programs. For as the President has said, ``When our children face a 
choice between self-restraint and self-destruction, government should 
not be neutral. Government should not sell children short by assuming 
they are incapable of acting responsibly. We must promote good 
choices.'' He's right, of course. Good choices early on pave the way 
for healthy families in the future. If we succeed in implementing this 
vision, we will succeed in strengthening marriages and families for 
years to come.
    But, some critics ask, is this really the function of government? 
Isn't supporting healthy marriages too intrusive a role for advocates 
of limited government to propose? Good question and we have a good 
answer. To the extent to which we are successful in promoting healthy 
marriages, we will be successful in reducing the risk of many of the 
social ills that impede the healthy development of children, families, 
and, indeed nations. And if we are successful in preventing many of the 
social ills that impede the healthy development of children and 
families, we will also obviate the need for other more costly--and more 
intrusive--interventions.
    We know, for example, that children who grow up in unhealthy 
marriages and experience family breakup are more likely to be abused 
and neglected. A compassionate society doesn't stand idly by and 
tolerate children being abused and neglected, so we have a child 
welfare system, including the investigation of reports of abuse and 
neglect, and a foster care system to take care of children who are 
abused and neglected. But if we are successful in helping couples form 
and sustain healthy marriages, fewer children will be abused or 
neglected, and as a result there will be less need for child welfare 
services in the first place.
    Indeed, as Assistant Secretary for Children and Families, I oversee 
65 different social programs at a cost of nearly $47 billion dollars 
each year. Go down the list of these programs--child welfare, child 
support enforcement, programs for runaway youth, anti-poverty 
programs--the need for each of these programs is either created or 
exacerbated by the breakup of families and marriages. If we are ever 
going to prevent the need for these services, we must begin preventing 
these problems from happening in the first place. One way to accomplish 
that is to help couples form and sustain healthy marriages.

                      THE IMPORTANCE OF LEADERSHIP

    The reason we have come so far in promoting healthy marriage in 
America is because of the leadership and commitment of President Bush. 
The President understands that the cry of the hearts of so many 
children is for their families and for the important role fathers can 
play in their lives. And he understands that the one important way to 
answer that cry is to become serious about renewing marriage.
    During his first year in office, President Bush said this about the 
need to renew fatherhood by strengthening families:
    ``None of us is perfect. And so no marriage and no family is 
perfect. After all, we all are human. Yet, we need fathers and families 
precisely because we are human. We all live, it is said, in the shelter 
of one another. And our urgent hope is that one of the oldest hopes of 
humanity is this, to turn the hearts of children toward their parents, 
and the hearts of parents toward their young.''
    Turning the hearts of children to their parents, and the parents to 
their young is, indeed, the great hope of our efforts to strengthen 
marriages in America. I know it is the great hope of members of this 
subcommittee as well. Thank you.

    Senator Sessions. Thank you, Dr. Horn. We appreciate your 
comments and leadership. You have worked steadfast. You have 
had an open door to listen to all issues, and I believe you 
have won the respect of people throughout the country who deal 
with these issues.
    Tell me about the situation in a country like Australia. I 
understand they may do even more than we do to nurture 
families.
    Mr. Horn. Australia has had an interesting policy in place 
for a decade or more in which their Federal Government provides 
funding for marriage education services to couples who choose 
marriage for themselves and want to access those services on a 
voluntary basis.
    Senator Sessions. Would this be before they are married?
    Mr. Horn. It is both available before but also after they 
are married and is very similar to the kinds of things that we 
are proposing. They have been doing it for a good decade and-a-
half or more without much controversy in the country of 
Australia. That is because they have structured it in such a 
way that it is clearly noncoercive. It is clearly voluntary. It 
clearly has a sensitivity to issues related to domestic 
violence. These are exactly the same kinds of attributes that 
we would like to see a marriage initiative here in the United 
States incorporate.
    Senator Sessions. I know many ministers and churches insist 
on premarital counseling. Some very excellent and detailed 
counseling before marriage. Other programs offer that. Would 
this encourage that kind of premarital counseling--to prepare a 
couple for the inevitable stresses and problems that occur in 
marriage?
    Mr. Horn. Yes. One of the services that we are particularly 
interested in supporting is premarital education, for a variety 
of reasons. First of all, as I said in my opening statement, 
the research is very clear that what separates stable and 
healthy marriages from unstable and unhealthy marriages is not 
the frequency of conflict--and as someone who has been married 
for 26 years it is somewhat reassuring to know it is not the 
frequency of conflict--but how the couples manage conflict. If 
couples when faced with conflict either avoid it or escalate 
it, that is associated with high levels of marital 
dissatisfaction, high levels of divorce. But if they are able 
to listen to each other with respect, if they can communicate 
effectively, if they can problem-solve conflict in healthy 
ways, that is associated with high levels of marital 
satisfaction and lower levels of divorce.
    The very good news is that we also have research that says 
we can teach those skills. We can teach couples how to listen 
effectively to each other, how to communicate well, how to 
problem-solve conflict, through marriage education. When we do 
that, couples report that they are able to implement these 
skills in their lives. And when they do, they report higher 
levels of marital satisfaction. There is even some evidence to 
suggest that 5 years out there are lower rates of divorce. So 
the good news is we can teach those kinds of skills through 
premarital education.
    But there is another benefit to premarital education. That 
is that through that process one can identify some couples for 
which marriage may not in fact be the best choice, either 
because they are completely unprepared for the responsibilities 
of marriage, or even worse, there is violence in the dating 
relationship. I know of no evidence that would suggest the cure 
for violence in a dating relationship is to get married. It 
only increases the opportunity for more violence.
    So through premarital education we can identify high-risk 
couples and divert them away from marriage, particularly where 
violence is part of the dating relationship. Doing so may in 
fact prevent a bad marriage from happening in the first place, 
and in the case of violence, protecting the victim. So we are 
particularly interested in premarital education as a service 
both to help couples who do get married build skills, but also 
as an intervention point for those couples where violence might 
be part of their relationship.
    Senator Sessions. Now will the present proposal provide 
counseling or other assistance in the case of an existing 
marriage when the couple would like assistance?
    Mr. Horn. The answer is yes. We also know that couples, 
after they are married, often experience challenges, and if 
those couples are equipped with good skills, listening skills, 
communication skills, problem-solving skills and so forth, they 
also are less likely to experience marital breakup and in fact 
are more likely to report high levels of marital satisfaction. 
So it is both about intervening before the marriage but also 
after the marriage.
    And finally, our efforts address outreach to troubled 
marriages. In today's world, unfortunately, we tend to present 
only two options to couples who experience marital distress. We 
say either stay married and stay miserable or get divorced. The 
fact of the matter is, there is a third option, for not all but 
for many couples, and that option is to enter into counseling 
to learn how to relate better, resolve your conflicts, and 
resolve your difficulties. Research shows that many troubled 
marriages in fact can be saved and the couples can fall more 
deeply in love with each other, sometimes even more than on the 
day they were married.
    When faced with three options, if you are in a troubled 
marriage, one, stay married, stay miserable, two, get divorced, 
or three, go into marriage education and marriage counseling 
and fall back in love with each other and emerge on the other 
side with a healthy marriage, I think a lot more couples will 
pick the third option.
    Senator Sessions. At this time in which there is no longer 
a social stigma of any significance on divorce--there was 
probably too strong a stigma at one point in our history--it is 
more important it seems to me, and would you agree, that we 
advertise and make clear to the public the good things that 
come from a stable marriage?
    Mr. Horn. I think it is important for us to get the 
research out there that shows that there are benefits of 
healthy marriages to children, to adults, and to society. I 
think, and research and surveys bear this out, one of the 
reasons why some in the younger generation are attracted to 
cohabitation is not so much because they are fearful of 
marriage and a marital commitment, but because they are fearful 
of divorce. The evidence of that is that a lot of their 
friends, or perhaps themselves, grew up in a household where 
divorce occurred. So, what surveys tell us is, a lot of young 
couples choose cohabitation, not because they do not want to 
get married but because they are fearful of divorce. They use 
cohabitation as kind of a trial marriage, a way of determining 
whether this person that they are cohabiting with would make a 
good marital partner.
    The difficulty is, research shows that cohabitation prior 
to marriage, and particularly if one or both of the couple had 
more than one cohabitation prior to marriage, actually 
increases, not decreases, subsequent divorce rates. It is a 
little bit like knowing your house is on fire but not knowing 
it is better to put water on it than gasoline. So one of the 
things we need to do is help our young know this information 
and understand it.
    It is not government's role to tell people they ought not 
to cohabitate or they have to get married, but it is 
government's role, it seems to me, to give people good 
information so they can make good decisions.
    Senator Sessions. I do too, and some of the witnesses we 
will hear later on just drive home some of the positive aspects 
of it.
    Senator Allard, thank you for the leadership on this issue 
and I would be glad to recognize you at this time for any 
comments or questions.
    Senator Allard. Thank you, Mr. Chairman. I want to thank 
you for holding this hearing. I think this is really important 
and this is a very important subject, not only at this point in 
time but I think for the whole country, for the world. I think 
we need to fully understand what leads to a healthy marriage.
    Dr. Horn, if you have covered this, I apologize, but what 
are the things that are going to mean that you are most likely 
to have a healthy marriage exist between two people?
    Mr. Horn. What the research suggests is a couple of things. 
First of all, research suggests that, marriage is to some 
degree a matter of luck and chance. But also to a very large 
extent--and this is the piece that a lot of people do not 
know--it is also about skills. It is about the ability to be 
able to manage conflict well.
    Again, one of the good pieces of news is that we are able 
to teach good conflict resolution skills, listening skills, 
communication skills, and so forth. And that couples when 
taught these things, report that they in fact can apply them, 
and when they apply them they have higher levels of marital 
satisfaction.
    We also know though that an understanding and a commitment 
to the ideal of healthy, stable marriages also helps couples 
achieve healthy and stable marriages because the commitment to 
that ideal is what helps motivate them to actually apply the 
skills that they learn.
    Senator Allard. What conditions exist that would drive a 
couple to meet that goal of a healthy marriage?
    Mr. Horn. First of all, I think every couple that walks 
down the aisle on their wedding day is committed to the ideal 
of healthy, stable marriages. I do not know of any couples that 
say, this is what we would like, let's get married today and 
have 2 years of a pretty happy marriage, 3 years of fighting 
and bickering constantly, a really messy divorce, and then 15 
years of fighting over custody of the kids. I do not think 
couples think that way. I think they get married with the 
aspiration of this marriage being a healthy and lifelong 
marriage. I do not think we have to sell the American people on 
the idea that marriage is generally, as an ideal, ought to be 
one that is about being healthy and lifelong.
    Senator Allard. Let me rephrase the question. What are the 
factors? Do you see more healthy marriages when somebody is 16 
marrying a 45-year-old, or maybe somebody has a high school 
education, another one has a college education, maybe 
somebody--what are the factors that make individuals be able to 
apply those skills with a common understanding? What makes that 
marriage succeed?
    Mr. Horn. Certainly we know, for example, that younger 
marriage, marriage at a younger age----
    Senator Allard. Now we are getting into some of the 
specifics I would like to hear.
    Mr. Horn [continuing].----does increase the probability of 
instability. We also know that poverty presents challenges for 
marriages and that you have higher divorce rates in lower 
income households. We also know that couples who grew up in a 
household where there was a divorce have higher rates of 
divorce, and couples that do not have the skills that I have 
mentioned also have higher rates of divorce.
    So if we are going to help people achieve stable marriages 
we have to do a variety of things. One, we have got to help 
young people understand it is not only a good idea to wait till 
you are older to become a parent, but also to wait till you are 
married to become a parent. We also have to continue to work to 
eradicate poverty in America so we reduce the stress on low-
income households so that they can achieve stable, lifelong 
marriages. And we also have to do a better job of providing 
increased access to marriage education services.
    Senator Allard. If we have two people marry of the same 
sex, has that got a higher likelihood of success than not?
    Mr. Horn. In America two people of the same sex at the 
moment are not legally able to get married, so there is no 
research on this.
    Senator Allard. But we do have other countries that have 
allowed that. Do we have any data from those that would help us 
evaluate the effect it would have on the rearing of children 
and a healthy family?
    Mr. Horn. I am not familiar with that research so I would 
not be competent to give an answer to that.
    Senator Allard. Has there been research done? That is my 
question.
    Mr. Horn. I do not know. I would have to check into that 
and get back to you for the record.
    Senator Allard. My understanding is there is not a lot of 
research that has been done on that, and probably one area that 
would have some interest, I think, concerning some of the 
issues now facing this country.
    Mr. Chairman, thank you.
    Senator Sessions. Thank you, Senator Allard.
    Senator Bond, a senior member of this committee, we are 
glad that you are here. Thank you for your participation and 
support of these issues. I asked my Democratic colleagues, and 
Senator Gregg said we could have this committee hearing, if 
they had any witnesses who would like to provide any 
information to the committee as we go forward. They did not 
provide any, did not suggest any witnesses. But I think we have 
an outstanding group. Certainly, I guess, there are not many 
that want to come and testify that marriage is not a healthy 
institution.
    Dr. Horn, one more question. My home State of Alabama is 
confronting the question on divorce, as Governor Keating did in 
Oklahoma. They have a project called Family Connections in 
Alabama. It was funded through a grant from your department. It 
focused on marriage-strengthening skills and family stability, 
particularly for lower income families. The Alabama Children's 
Trust Fund in cooperation with Auburn University coordinated 
this project at four different sites and the evaluation showed 
positive program impact in several areas, including an 
increased level of trust and happiness in relationships, 
problem-solving as a team, several individual empowerment 
areas, and verbal aggression in couples decreased.
    There is a problem with lack of funding. They would like to 
continue that. Do you think this healthy marriage initiative 
that the President has proposed might provide funding that will 
allow them to continue such a program?
    Mr. Horn. Certainly if we ever manage to get TANF 
reauthorized and if the Healthy Marriage Initiative is part of 
that, which seems to have broad bipartisan support, there would 
be an influx of new funds to the tune of up to $240 million a 
year in Federal funds to help support efforts like the one in 
Alabama. About half that money would be used in a competitive 
State grant process, so States would be the eligible applicant, 
and about half of it would be used for community-based 
organizations and faith-based organizations as well as State 
and local government to compete to provide exactly the kinds of 
services that the Children's Trust Fund in Alabama provided.
    One of the things that we are in the process of doing is 
funding evaluation contracts. But I think it is important for 
us to keep in mind that while we do know some things, we don't 
know everything about how to help couples form and sustain 
healthy marriages, and we ought to have a little bit of a 
skeptical eye that would encourage us to evaluate what works 
and then find out also what doesn't work.
    So we will be prepared, if and when the Congress acts and 
authorizes those funds, to not only implement the programs, but 
also to evaluate them.
    Senator Sessions. Thank you very much. I do believe that we 
have got to be rigorous in analysis and we will find some 
things work and some things we will be surprised to learn are 
not as effective as we thought.
    Senator Bond?
    Senator Bond. Thank you very much, Mr. Chairman. I 
apologize. I have got four meetings going on at one time, two 
of them in Intelligence, but this one is so important I wanted 
to come join you and I thank the chairman for calling this very 
important hearing on the President's Healthy Marriage 
Initiative, because I really do believe that government can and 
should support families by promoting policies that strengthen 
the institution of marriage and help parents raise their 
children in a safe and healthy environment.
    There have been times in the near past when we discouraged 
marriage by saying you would cut off your welfare payment if 
you had a man in the house. We have had a marriage penalty in 
the tax code that put a tax penalty on getting married.
    But I think years of research in the fields of sociology, 
economics, medicine, psychology, has really shown a strong 
association between marriage and child well-being, because I 
think children raised in healthy, stable marriages are much 
less likely to experience poverty, abuse, behavioral and 
emotional problems, and more likely to achieve in school, less 
likely to commit crimes and develop substance abuse problems.
    I want to talk a little bit about how healthy marriages not 
only benefit children, but the adults themselves and the 
communities, as well. I have had a lot of people anecdotally 
suggest that marriage is the best thing that has happened to 
me----
    Senator Sessions. You look real good.
    [Laughter.]
    Senator Bond. My wife said, ``Honey, we ought to go on the 
Atkins diet.'' She didn't, but I did, so that has helped me in 
a lot of ways.
    But seriously, benefiting adults and getting stable 
marriages benefit communities, and I think both of those things 
are vitally important for the proper environment to bring up 
children. I am sure you have, and can you share with us some of 
the information statistics you have on the benefits to adults 
themselves and communities which lead to the benefits for 
children?
    Mr. Horn. We know that, for example, that adults in healthy 
marriages report higher levels of life satisfaction. They are 
less likely to be depressed. They are more likely to accumulate 
wealth. And they also are more likely to live longer. And if 
that weren't enough, we also know that married adults report 
more satisfying sex lives, so it has a lot to recommend itself.
    Senator Bond. I am sure you can say a lot more about it 
than that, but that is good enough to start.
    [Laughter.]
    How does that impact child rearing, those benefits to the 
adults? Obviously, more wealth in the family is going to 
provide more benefits to the child.
    Mr. Horn. We know, for example, that children who grow up 
in married households are five times less likely to be poor 
than those who do not. But even after you account for 
economics, we also know that kids in healthy married households 
are less likely to develop educational problems, less likely to 
drop out of school. They are less likely to develop emotional 
and behavioral problems requiring psychiatric treatment as 
adolescents. They are less likely to develop substance abuse 
problems. They are less likely to get in trouble with the law. 
And perhaps more beneficial of all, they are less likely to 
commit suicide as adolescents if they grow up in a healthy 
married household.
    So there is a great deal of evidence in support of the 
proposition that children who are reared in healthy married 
households have advantages. That doesn't mean that children in 
single-parent households are doomed to educational failure and 
becoming juvenile delinquents and so forth. It is not true. 
Most kids in single-parent families do fine.
    But there is an elevated risk of poor outcomes for kids in 
nonmarried households, and if we can lower that elevated risk 
by encouraging and supporting couples on a voluntary basis 
forming and sustaining healthy marriages, it seems to me that 
that would be good for children.
    And as a child psychologist, that is why I am in this. You 
know, I am in this because I believe that support for healthy 
marriages is an effective strategy for improving the well-being 
of children. If I didn't believe that, if I didn't think the 
evidence suggested that, I would be looking elsewhere for 
strategies. And certainly it is not the only strategy to 
achieve that goal, but it is an important one.
    Senator Bond. Thank you very much, Dr. Horn, and Mr. 
Chairman, thank you again for calling the hearing to highlight 
the need to support the institution of marriage and help 
parents build strong families.
    Senator Sessions. Thank you.
    Dr. Horn, I know you had to rearrange your schedule. I know 
you have a flight out. So we thank you very much for your 
excellent testimony and particularly for your leadership on 
this issue. There are few in this country that understand it 
better or who have better skills in bringing people together to 
make progress. Thank you a lot.
    Mr. Horn. Thank you, Mr. Chairman.
    Senator Sessions. Our next panel, if you will step forward, 
we have the name tags we can put out. I will just be sharing 
the introduction while they do that.
    First will be Dr. Barbara Dafoe Whitehead. She is the Co-
Director of the National Marriage Project at Rutgers 
University. Dr. Whitehead speaks and writes about family and 
child well-being for professional, scholarly, and popular 
sciences. She has written numerous books, essays, and articles 
for a wide variety of publications and has made multiple media 
appearances on national programs. She wrote the script for the 
award-winning PBS documentary, ``Marriage: Just a Piece of 
Paper?'' Additionally, her 1993 Atlantic Monthly cover story, 
``Dan Quayle Was Right,'' was named one of the 10 most 
influential articles of the late 20th century by Policy Review.
    Dr. Whitehead earned her B.A. from the University of 
Wisconsin, studied at Columbia University as a Woodrow Wilson 
Fellow, earned an M.A. and Ph.D. in American social history at 
the University of Chicago and lives in Amherst, MA. Thank you, 
Dr. Whitehead.
    Roland C. Warren is the President of the National 
Fatherhood Initiative. He joined the board of the Fatherhood 
Initiative in 1997, was elected President 5 years later. He has 
represented the NFI in many national media appearances.
    He has an M.B.A. from the Wharton School of the University 
of Pennsylvania. I guess that means you can count your money, 
Mr. Warren. It is a good school. He received an undergraduate 
degree from Princeton University. Prior to coming to NFI, Mr. 
Warren worked for Goldman Sachs and Company, a leading global 
investment banking firm. He has also held management positions 
for both IBM and PepsiCo and was an Associate Director of 
Development at Princeton University, Kit Bond's alma mater, 
where I think----
    Senator Bond. I don't emphasize that.
    Senator Sessions. Well, do you emphasize you were number 
one in your class?
    Senator Bond. Move it along.
    Senator Sessions. That is the truth, too.
    Governor Frank Keating took over as President and CEO of 
the American Council of Life Insurers the morning after leaving 
office as Oklahoma's 25th Governor. He received his Bachelor's 
degree in history from Georgetown University, his law degree 
from the University of Oklahoma College of Law.
    Governor Keating was elected Governor of Oklahoma in 1993 
and again in 1998, becoming only the second Governor of 
Oklahoma to serve two consecutive terms. In his 1999 inaugural, 
Governor Keating established a series of goals for Oklahoma, 
including reductions in divorce, out-of-wedlock births, 
substance abuse, and child abuse. With First Lady Cathy 
Keating, he organized a statewide initiative designed to 
strengthen marriage, enlisting government, community groups, 
and the faith-based community. We would like to hear how that 
is going, Frank.
    I notice they left out you were United States Attorney for 
Oklahoma. We served together. He was elected by his fellow 
United States Attorneys as President of the, what do you call 
it----
    Mr. Keating. The Advisory Council.
    Senator Sessions [continuing].----the Advisory Council. 
That was such an important group, I can't remember the name of 
it, but I had the honor to serve on that.
    [Laughter.]
    Dr. Stan Weed is the President of the Institute for 
Research and Evaluation at Salt Lake City, UT. The Institute is 
a nonprofit corporation focused on application of research 
methodology to address important social issues and policies 
related to adolescents.
    Dr. Weed completed his graduate work at the University of 
Washington in the field of social psychology. Much of his 
recent interest and research has focused on the social problems 
and programs related to marriage and divorce dynamics. He 
recently completed a national study of community marriage 
policies in 122 cities. Dr. Weed, we are glad to have you here.
    Mr. Weed. Thank you.
    Senator Sessions. I think you can see we have an 
extraordinary panel who both can share insights into the 
scientific data concerning marriage, the difficulties of 
marriage, and what we can do as a government to improve 
marriage.
    Dr. Whitehead, I would be delighted to hear your statement 
at this time.

 STATEMENTS OF BARBARA DAFOE WHITEHEAD, CO-DIRECTOR, NATIONAL 
MARRIAGE PROJECT, RUTGERS UNIVERSITY, PISCATAWAY, NJ; ROLAND C. 
WARREN, PRESIDENT, NATIONAL FATHERHOOD INITIATIVE, GERMANTOWN, 
   MD; HON. FRANK KEATING, FORMER GOVERNOR OF OKLAHOMA, AND 
PRESIDENT AND CHIEF EXECUTIVE OFFICER, AMERICAN COUNCIL OF LIFE 
    INSURERS, McLEAN, VA; AND STAN E. WEED, PRESIDENT, THE 
   INSTITUTE FOR RESEARCH AND EVALUATION, SALT LAKE CITY, UT

    Ms. Whitehead. Thank you, Mr. Chairman. I am delighted and 
grateful for the opportunity to be here today. As you 
mentioned, I am Co-Director of the National Marriage Project, a 
research organization based at Rutgers, and my colleagues and I 
conduct research on social trends affecting the institution of 
marriage.
    My testimony today addresses three questions. What is 
marriage? What do we know about the benefits of marriage? And 
do people marry because they are better off, or does marriage 
itself make people better off?
    First of all, what is marriage? Marriage is a universal 
human institution. It is a workhorse institution which performs 
a number of necessary social functions. Marriage organizes 
kinship, establishes family identities, regulates sexual 
behavior, attaches fathers to their offspring, supports child 
rearing, channels the flow of economic resources and mutual 
caregiving between the generations, and situates individuals 
within families, kin groups, and communities. Marriage enjoys 
social approval and public recognition. It confers positive 
status on men and women and a new social identity.
    Well, what does the social science research tell us about 
the benefits of marriage? And here, I apologize if I am 
redundant and repetitive. Dr. Horn said some of this, but I 
will go through it quickly. We now have a substantial body of 
research on marriage and its effects, so let me just offer a 
quick summary of some of these findings.
    First, and in my mind foremost, marriage is good for 
children. Again, to repeat, researchers now agree and there is 
strong, strong research consensus on this, that excepting cases 
where parents are in high conflict, children who grow up in 
households with their married mother and father do better on a 
wide range of economic, social, educational, and emotional 
measures than do children in other kinds of families. This used 
to be disputed and now there is a lot of agreement based on the 
research.
    They are significantly more likely to earn 4-year college 
degrees, an important source of individual capital and social 
advantage, and to do better occupationally than children from 
divorced or single-parent families. They have better emotional 
health. And interestingly enough, in their adult lives, 
children from intact families are more likely to be married and 
stay married than others. In fact, some researchers now argue 
that growing up with both married parents in a low-conflict 
marriage is so important to child well-being that it is 
replacing race, class, and neighborhood as the greatest source 
of difference in child outcomes.
    Marriage is also good for adults. Again, married people are 
happier, healthier, wealthier, enjoy longer lives, and report 
greater sexual satisfaction than single, divorced, or 
cohabiting individuals. Married men earn more money than single 
men with similar education and job histories. Indeed, for men, 
marriage reaps as many benefits as education, largely because 
they get the help and support of their wives. Some people call 
this the nagging factor.
    [Laughter.]
    Married women benefit economically, as well. Although they 
often leave the workforce to care for children, they are 
still--women who are married are still economically better off 
than divorced, cohabiting, or never married women, and that is 
true even among the most economically vulnerable women, that 
is, mothers with low levels of educational achievement or low 
income.
    Finally, marriage is good for the society. Marriage is not 
simply a contractual relationship between two people or a 
government-sanctioned form of intimate partnership. It is also 
a central institution in the civil society, and as such, 
marriage performs certain valuable social tasks and produces 
certain social goods that are far harder to attain through such 
alternatives as individual action, private enterprise, public 
programs, or any other kind of alternative we might dream up.
    Let me give three quick examples of how marriage benefits 
society. First of all, marriage benefits society as a child-
rearing institution. Marriage joins a father and a mother 
together in the shared work of bringing up children, helps to 
create a more equitable distribution of family responsibilities 
between the genders, and boosts the level of parental, and 
especially paternal, investment in the children's households. 
We have not yet found, though I think we have tried, 
substitutes for marriage that can provide equivalent levels of 
voluntary and sustained economic and emotional investments in 
children over what is now a prolonged period of youthful 
dependency.
    Again, this was mentioned previously. Marriage benefits 
society as a wealth-creating institution, and that is because 
of economies of scale, access to work-related benefits that a 
couple might share. Marriage promotes savings. And importantly, 
it generates help from kin because two groups of kin come 
together and the community. On the verge of retirement, one 
study found married couples' net worth is more than twice that 
in other households, and that, of course, in an aging society 
is something we have to pay attention to.
    Marriage benefits society also as a source of what 
sociologists call social capital, that is, the advantages that 
are generated through relationships of mutual aid, obligation, 
and caregiving. Married people not only are more likely to be 
involved with their own communities, to vote, and to be 
involved in civic life, but they also serve as positive role 
models for other children whose fathers, for example, might be 
absent from their lives, or in households where there is a very 
hard-working single parent who benefits from this help and 
support of married people in her neighborhood.
    Now, my final question, very quickly, because this comes up 
a lot in research discussions, are the benefits of marriage 
simply due to the characteristics of people who marry? I mean, 
are those people better off to begin with, or does marriage 
itself create certain intangible and tangible benefits?
    Well, the answer is both. People who are better off 
economically and educationally, who are religiously observant, 
and who grew up in married parent families themselves are more 
likely to marry and stay married than others. But at the same 
time, marriage itself has a transforming effect on people's 
attitudes and behaviors. Being married changes people's 
lifestyles, habits, associations, and obligations in ways that 
are socially and personally beneficial, and this transformation 
is especially pronounced for men.
    So let me conclude with a word of caution about the 
implications of these amassed findings. Marriage is not a magic 
bullet solution to problems of poverty, disadvantage, crime, 
and discrimination. And in my opinion, government promotion of 
healthy marriage, though I think a very important initiative, 
should not be used as a reason for reducing or limiting other 
forms of government support for low-income families, such as 
child care, health care, education, job training, and other 
supports.
    Nor, finally, should we expect marriage, even if everyone 
is happily married, to bring heaven on earth. Like all human 
institutions, marriage is far from perfect, and getting married 
does not turn people into saints.
    Yet the fact remains, despite all its imperfections, 
marriage remains an indispensable source of social goods, 
individual benefits, mutual caregiving, parental cooperation 
and investment, affectionate attachments, and long-term 
commitments, and people who are married, though not saints, 
tend to behave in ways that benefit themselves, their children, 
and their communities.
    So given these advantages, Mr. Chairman, I would say that, 
really, it does make a lot of sense to think about marriage 
promotion activities both by the public sector and the private 
sector to help build these strengths and benefits within our 
Nation and communities. Thank you.
    Senator Sessions. Thank you, and thank you for your 
remarkable remarks that you have made a part of the record. We 
will make your complete remarks a part of the record because 
they are comprehensive. I think they distill the best known 
science that we have.
    [The prepared statement of Ms. Whitehead follows:]

             Prepared Statement of Barbara Dafoe Whitehead

       BENEFITS OF MARRIAGE FOR CHILDREN, ADULTS, AND THE SOCIETY

    Marriage is a universal human institution. It performs a number of 
key functions in virtually every known society. Marriage organizes 
kinship, establishes family identities, regulates sexual behavior, 
attaches fathers to their offspring, supports childrearing, channels 
the flow of economic resources and mutual caregiving between 
generations, and situates individuals within families, kin groups and 
communities.
    In contemporary American society, marriage is the central 
institution of the family. It establishes a family household, typically 
organized around the spousal couple and their dependent children. In 
this system, marriage plays a key role in fostering the social, 
economic and emotional bonds between husband and wife, parents and 
children, and the family and larger community. It prescribes a set of 
norms, responsibilities and binding obligations for its members. It 
shapes family identity, creates a context for intimacy and builds a 
sense of belonging among its members. Finally, marriage enjoys social 
approval and public recognition. It confers positive social status and 
a new social identity on men and women.
    When marriage is low-conflict and, ideally, long-lasting, it is 
good for children. It brings together under one roof the mother and 
father who have brought the child into the world through birth or 
adoption and who share a mutual interest in the child's well-being. It 
gives children a chance to know, associate with, and develop close 
bonds with both parents. Marriage provides for regular paternal 
involvement and investment in children's family households. Indeed, 
more than any other family arrangement, marriage reliably connects kids 
to their dads and fathers to the mothers of their children.
    Marriage contributes to the physical, emotional and economic well-
being of individual adults as well. It provides an efficient way to 
pool resources, combine individual talents, and recruit kin support for 
the purposes of fostering the well-being of the family. It encourages 
wealth production and limits material hardship and want. Marriage 
unites mothers and fathers in the common work of childrearing and 
family life and helps to create a more equitable distribution of family 
responsibilities between the genders.
    Marriage is also good for the society. Within the civil society, 
marriage fosters social connectedness, civic and religious involvement, 
and charitable giving. This is especially true for men. More than any 
other family arrangement, marriage connects men to the larger community 
and encourages personal responsibility, family commitment, community 
voluntarism and social altruism.

  WHAT SOCIAL SCIENCE RESEARCH TELLS US ABOUT THE BENEFITS OF MARRIAGE

    Today, thanks to resurgent scholarly interest in family structure, 
we have a large body of social science research on marriage and its 
effects. Overall, the available research evidence persuasively 
demonstrates the advantages of marriage for children, adults and the 
society. Though it is impossible to cover the entire scope of the 
research in this limited space, let me summarize key findings.

                         BENEFITS FOR CHILDREN

    Marriage--especially if it is low-conflict and long-lasting--is a 
source of economic, educational and social advantage for most children. 
Researchers now agree that, except in cases of high and unremitting 
parental conflict, children who grow up in households with their 
married mother and father do better on a wide range of economic, 
social, educational, and emotional measures than do children in other 
kinds of family arrangements.\1\ According to some researchers, growing 
up with both married parents in a low-conflict marriage is so important 
to child well-being that it is replacing race, class, and neighborhood 
as the greatest source of difference in child outcomes.
---------------------------------------------------------------------------
    \1\ For a recent summary of relevant research, see Mary Parke, Are 
Married Parents Really Better for Children?, Center for Law and Social 
Policy, May 2003. www.clasp.org. See also Why Marriage Matters: Twenty-
One Conclusions from the Social Sciences (NY: Institute for American 
Values, 2002) http://www.marriagemovement.org.
---------------------------------------------------------------------------
                           ECONOMIC BENEFITS

    Children from intact families are far less likely to be poor or to 
experience persistent economic insecurity. In fact, if it were not for 
the demographic shift from married parent families to other kinds of 
family structures in recent decades, the child poverty rate would be 
significantly lower. For example, according to one study, if family 
structure had not changed between 1960-1998, the black child poverty 
rate in 1998 would have been 28.4 percent rather than 45.6 percent, and 
the white child poverty rate would have been 11.4 percent rather than 
15.4 percent.\2\ Children who grow up in married parent families are 
shielded from the economic effects of parental divorce. Estimates 
suggest that children experience a 70 percent drop in their household 
income in the immediate aftermath of divorce and, unless there is a 
remarriage, the income is still 40-45 percent lower 6 years later than 
for children in intact families.\3\
---------------------------------------------------------------------------
    \2\ Adam Thomas and Isabel Sawhill, For Richer or For Poorer: 
Marriage As an Antipoverty Strategy, Journal of Policy Analysis and 
Management, 21:4, 2002.
    \3\ Parke, Are Married Parents Really Better for Children, 7.
---------------------------------------------------------------------------
                          EDUCATIONAL BENEFITS

    Children from intact married parent families are more likely to 
stay in school. According to a 1994 research review by Sara McLanahan 
and Gary Sandefur, the risk of high school dropout for a child from 
two-parent biological families is substantially less than that for 
those from single parent or stepfamilies.\4\ Children from married 
parent families also have fewer behavioral or school attendance 
problems and higher levels of educational attainment. They are better 
able to withstand pressures to engage in early sexual activity and to 
avoid unwed teen parenthood, behaviors that can derail educational 
achievement and attainment. They are significantly more likely to earn 
4-year college degrees or better and to do better occupationally than 
children from divorced or single parent families.
---------------------------------------------------------------------------
    \4\ The risk for an average white child in a two parent family was 
11 percent compared to 28 percent for a child in a single or step-
parent family. For an average African American child in a two parent 
family, it was 17 percent compared to 30 percent in a single or step-
parent family. For an average Hispanic child from a two-parent family, 
the risk was 25 percent compared to 49 percent for single or stepparent 
families. Cited in Parke, Are Married Parents Really Better for 
Children?, 2-3.
---------------------------------------------------------------------------

                           EMOTIONAL BENEFITS

    Warm, responsive, firm and fair parenting helps to promote healthy 
emotional development and to foster emotional resilience in children. 
Parents, stepparents and grandparents in all kinds of family 
arrangements can, and do, manage to establish emotionally warm and 
secure environments, often against daunting odds. However, parents in 
long-lasting, low-conflict marriages are more likely to have the time, 
resources, relational and residential stability to coparent 
effectively. On average, children reared in married parent families are 
less vulnerable to serious emotional illness, depression and suicide 
than children in nonintact families. Further, because parental divorce 
is such a commonplace childhood experience, with close to four out of 
ten American children going through a parental divorce, it is an 
advantage to grow up in a low-conflict married parent household 
undisrupted by divorce. As the American Academy of Pediatrics notes, 
the effect of divorce on children is more than a set of discrete 
symptoms. It can be a ``long searing experience.'' \5\
---------------------------------------------------------------------------
    \5\ State of Our Unions (Piscataway, NJ: The National Marriage 
Project), 2003. Available at http://marriage.rutgers.edu.
---------------------------------------------------------------------------
    Finally, in their own future dating and marriage relationships, 
children benefit from the models set by their married parents. Children 
from married parent families have more satisfying dating relationships, 
more positive attitudes toward future marriage and greater success in 
forming lasting marriages. According to a nationally representative 
survey of young men, ages 25-34, commissioned by Rutgers' National 
Marriage Project in 2004, young men from married parent families are 
less likely to be divorced and more likely to be married. Among the 
never-married young men surveyed, those from married parent families 
were more likely to express readiness to be married than young men from 
other kinds of family backgrounds. In addition, young men from married 
parent households have more positive attitudes toward women, children 
and family life than men who grew up in nonintact families.\6\
---------------------------------------------------------------------------
    \6\ The Marrying Kind: Men Who Marry and Why, State of Our Unions 
2004, (Piscataway, NJ: The National Marriage Project), forthcoming June 
2004.
---------------------------------------------------------------------------
                    BENEFITS OF MARRIAGE FOR ADULTS

    Married people are better off than those who are not married in a 
number of ways. On average, they are happier, healthier, wealthier, 
enjoy longer lives, and report greater sexual satisfaction than single, 
divorced or cohabiting individuals.\7\ Married people are less likely 
to take moral or mortal risks, and are even less inclined to risk-
taking when they have children. They have better health habits and 
receive more regular health care. They are less likely to attempt or to 
commit suicide. They are also more likely to enjoy close and supportive 
relationships with their close relatives and to have a wider social 
support network. They are better equipped to cope with major life 
crises, such as severe illness, job loss, and extraordinary care needs 
of sick children or aging parents.
---------------------------------------------------------------------------
    \7\ A comprehensive summary of research evidence on the benefits of 
marriage for adults may be found in Linda J. Waite and Maggie 
Gallagher, The Case for Marriage (NY: Doubleday, 2000).
---------------------------------------------------------------------------
    Married parents are significantly less likely to be poor. For 
example, according to a study by economist Robert Lerman, poverty rates 
for married couples are half those of cohabiting couple parents and 
one-third that of noncohabiting single parents in households with other 
adults.\8\ Even poor parents who marry gain economic advantage from 
marriage. Though marriage itself may not lift a family out of poverty, 
it may reduce economic hardship. This effect occurs because marriage, 
especially if it is long-lasting, allows couples to pool earnings, to 
recruit support from a larger social network of family, friends, and 
community members, to share risks, and to mitigate the disruptions of 
job loss, loss of job benefits, or loss of earnings due to absenteeism, 
illness, reduced hours on the job, or lay-offs.
---------------------------------------------------------------------------
    \8\ See Robert I. Lerman, How Do Marriage, Cohabitation and Single 
Parenthood Affect the Material Hardships of Families With Children?, 
July 2002; see also Robert I. Lerman, Married and Unmarried Parenthood 
and Economic Well-Being: A Dynamic Analysis of a Recent Cohort, July 
2002. Available at http://www.urban.org/expert.cfm?ID=RobertILerman.
---------------------------------------------------------------------------
                            BENEFITS TO MEN

    Marriage promotes better health habits and greater longevity among 
men, largely due to the care, attention and monitoring by their wives. 
In fact, men appear to reap the most physical health benefits from 
marriage and suffer the greatest health consequences when they divorce. 
Once married, men are also less likely to hang out with male friends, 
to spend time at bars, to abuse alcohol or drugs or to engage in 
illegal activities. They are more likely than unmarried men to attend 
religious services regularly, to join faith groups, and to spend time 
with relatives. In brief, men settle down when they get married.
    Married men earn more money than do single men with similar 
education and job histories. Indeed, for men, marriage reaps as many 
benefits as education.\9\ The causes for this are not entirely clear. 
However, it is likely that married men benefit from specialization 
within marriage and from the emotional support they receive from their 
wives. It is also likely that married men's domestic routines and 
health habits reduce job absenteeism, quit rates, and sick days. And it 
may be that men's role obligation to provide for others gives them a 
greater sense of purpose and intensifies their commitment to work.
---------------------------------------------------------------------------
    \9\ See Robert I. Lerman, Marriage and the Economic Well-Being of 
Families With Children: A Review of the Literature, 2002. Available at 
http://www.urban.org/expert.cfm?ID=RobertILerman.
---------------------------------------------------------------------------
    Marriage strengthens the bonds between fathers and their children. 
Married men are more involved and have better relationships with their 
children than unwed or divorced fathers. In part, this is because 
married fathers share the same residence with their children. But it is 
also because the role of husband encourages men to voluntarily take 
responsibility for their own children. Paternity by itself does not 
seem to accomplish the same transformation in men's lives.\10\
---------------------------------------------------------------------------
    \10\ Steven Nock, Marriage in Men's Lives (N.Y.: Oxford University 
Press, 1998); David Popenoe, Life Without Father: Compelling New 
Evidence That Fatherhood and Marriage Are Indispensable for the Good of 
Children and Society (NY: The Free Press, 1996).
---------------------------------------------------------------------------
                           BENEFITS TO WOMEN

    Women gain financially from marriage. Although married women often 
leave the workforce to care for children or other relatives, on 
average, they are still economically better off than divorced, 
cohabiting or never-married women. Even among the most at-risk women 
(minority mothers, mothers with low levels of educational achievement 
or low income), marriage has significant economic benefits.\11\ Married 
women also enjoy their sex lives more than sexually active single or 
cohabiting women, a finding that researchers attribute to women's 
greater trust and expectation of marital monogamy and permanence. In 
addition, marriage makes for happier mothers. Compared to cohabiting 
mothers or single mothers, married mothers are more likely to receive 
the cooperation, hands-on help, emotional support, and positive 
involvement from their child's father and his kin. Having practical and 
emotional support reduces maternal stress, anxiety and depression and 
enhances a mother's ability to parent effectively.
---------------------------------------------------------------------------
    \11\ Lerman, Married and Unmarried Parenthood, 2002.
---------------------------------------------------------------------------
                       INTERGENERATIONAL BENEFITS

    Marriage creates a new and expanded set of binding obligations 
between spouses; between parents and children; and between the married 
couple and their combined kin groups. Such obligations are encoded 
within the social norms of marriage and are assumed voluntarily as part 
of the status of ``being married.''
    Consequently, marriage generates higher levels of help, support and 
care from families than other kinds of family arrangements. Though 
single parents receive significant family support, they lose the 
benefits of sustained help and support from the estranged or absent 
biological parent's side of the family. Close to 17 percent of married 
parents report support from father's kin whereas just 2 percent of 
single mothers and no unwed mothers got financial support from 
relatives of the father.\12\ At the same time that married couples 
receive more help from family, they are also better able to give help 
to elderly parents and relatives, an important benefit in an aging 
society.
---------------------------------------------------------------------------
    \12\ Waite and Gallaher, Case for Marriage; Lingxin Hao, ``Family 
Structure, Private Transfers, and the Economic Well-Being of Families 
with Children,'' Social Forces 75, 1996, 269-92.
---------------------------------------------------------------------------
               BENEFITS OF MARRIAGE FOR THE CIVIL SOCIETY

    Marriage is not simply a contractual relationship between two 
people or a government-sanctioned form of intimate partnership. It is 
also a central institution in the civil society. As such, marriage 
performs certain critical social tasks and produces certain social 
goods that are valuable to the community and far harder to achieve 
through individual action, private enterprise, public programs or 
through alternative institutions.

                 MARRIAGE IS A CHILDREARING INSTITUTION

    Though not all married people are parents, the institution of 
marriage reliably creates the social, economic and affective conditions 
for effective parenting. Of course, in fulfilling the task of rearing 
competent, healthy children, some married parents fail miserably while 
some single parents succeed brilliantly. Yet in general, marriage 
promotes parental investment and mother/father cooperation during what 
has become an increasingly prolonged period of youthful dependency. 
When marriages break up or fail to form, the task of rearing children 
becomes harder, lonelier and more stressful for parents, especially for 
those who are lone parents. When parents divorce or never marry, the 
State becomes more involved in requiring and regulating childrearing 
obligations that married parents assume voluntarily. Paternity 
establishment, child support, child custody, children's living 
arrangements, and even their school, sports and religious activities 
become matters for government oversight and enforcement. Moreover, from 
a child's standpoint, publicly sponsored alternatives for childrearing 
such as foster care, group homes or child support enforcement cannot 
easily replicate the advantages of growing up in a home with one's own 
married mother and father.

                        MARRIAGE PRODUCES WEALTH

    Marriage provides economies of scale, encourages specialization and 
cooperation, provides access to work-related benefits such as 
retirement savings, pensions and life insurance, promotes saving, and 
generates help and support from kin and community. On the verge of 
retirement, one study found, married couples' net worth is more than 
twice that in other households. Because the accumulation of wealth 
usually requires time, the wealth-generating effects of marriage are 
strongest among those whose marriages are long-lasting. A study of 
retirement data from 1992 by Purdue University sociologists found that 
``individuals who are not continuously married have significantly lower 
wealth than those who remain married throughout the life course.'' 
Further, compared to those who are currently married, the researchers 
found a 63 percent reduction in total wealth. The study concluded that 
``participating in the social institution of marriage can lead to 
cumulative advantage'' while not participating or interrupting 
participation can ``set the stage for negative outcomes later in 
life.'' \13\
---------------------------------------------------------------------------
    \13\ Janet Wilmoth and Gregor Koso, ``Does Marital History Matter? 
Marital Status and Wealth Outcomes Among Preretirement Adults,'' 
Journal of Marriage and the Family 64: 2002, 254-68.
---------------------------------------------------------------------------
            MARRIAGE IS A ``SEEDBED'' OF PROSOCIAL BEHAVIOR

    Social scientists have long debated this question: Are the benefits 
and advantages of marriage due to the characteristics of people who 
marry and stay married (the so-called ``selection effect'') or does 
marriage itself--and the status of being a married person--create 
certain advantages? The answer is: both. People who are economically 
and educationally advantaged, who are religiously observant, and who 
grew up in married parent families themselves are more likely to marry 
and to stay married than others. However, marriage itself has a 
transformative effect on attitudes and behavior. Being married changes 
people's lifestyles, habits, associations, and obligations in ways that 
are personally and socially beneficial.

                   MARRIAGE GENERATES SOCIAL CAPITAL

    Sociologist James Coleman introduced the concept of social capital 
to refer to goods that are produced through relationships among 
people.\14\ Unlike physical capital (machines, tools, productive 
equipment) and individual capital (skills, capacities, competencies), 
social capital is generated through relational bonds of mutual trust, 
dependability, commitment, shared values, and obligation. Social 
capital is not ``acquired,'' as one might acquire a computer or a 
college degree. It is generated as a byproduct of social relations.\15\
---------------------------------------------------------------------------
    \14\ James S. Coleman, Social Capital in the Creation of Human 
Capital, American Journal of Sociology 1988,94:S95-S120.
    \15\ One illustration of social capital: During the deadly 1995 
heat wave in Chicago, poor elderly residents who had regular social 
contacts with neighbors, shopkeepers, churches and who lived in 
neighborhoods with a bustling street life were far less likely to die 
than poor elderly residents who lacked these social contacts. Those who 
survived were drawn to familiar, safe, air-conditioned stores in their 
neighborhoods whereas those who suffered or died were unaware of, or 
reluctant to go to, special city ``cooling centers'' established during 
the crisis. Thus, for these elderly Chicagoans, the presence or absence 
of ``social capital'' made a life or death difference. See Eric 
Klinenberg, Heat Wave: A Social Autopsy of Disaster in Chicago 
(Chicago: University of Chicago Press, 2002).
---------------------------------------------------------------------------
    As the primary social institution governing familial and kinship 
relationships, marriage is a source of social capital. The social bonds 
created through marriage yield benefits not just for family members but 
for others as well. For example, married parents are more likely to 
vote and to be involved in community, religious and civic activities. 
Because marriage embeds people within larger social networks, married 
parents are better able to connect with other parents, including those 
who are working single parents, and to recruit help, friendship and 
emotional support in the community. Marriage gets men involved with 
others. Married fathers serve as important role models, not only for 
their own children but also for other people's children. Their example 
and mentorship can be an especially valuable social resource in 
communities where there are too few married fathers and too many 
children who lack responsible fathers or positive male role models.

                          CONCLUDING COMMENTS

    Let me conclude with a word of caution about the implications of 
these findings. Marriage is not a magic bullet solution to problems of 
poverty, disadvantage, crime, and discrimination. Nor should the 
existence of government funding for the promotion of healthy marriage 
be used as a reason for reducing or limiting other forms of government 
support for low-income families, such as childcare, healthcare, 
education, job training and other supports. Nor should marriage 
promotion be used as a substitute for other effective anti-poverty 
strategies such as reducing the incidence of unwed teen parenthood. Nor 
should the advantages of marriage be used to pressure everyone to get 
married.
    Like all human institutions, marriage is far from perfect. And 
getting married does not turn people into saints. Yet the fact remains: 
despite its acknowledged problems and imperfections, marriage remains 
an indispensable source of social goods, individual benefits, mutual 
caregiving, affectionate attachments, and long-term commitments. And 
people who are married, though not saints, tend to behave in ways that 
benefit themselves, their children, families and communities.
    Given these advantages, it makes good sense for the public and 
private sector to explore ways to reduce the barriers to healthy 
marriage and to make it possible for more parents to form strong and 
lasting marital unions. Even a relatively modest increase in healthy 
marriage formation and duration would reduce levels of child poverty, 
increase parental income and promote higher levels of child well-being 
among families with children.

    Senator Sessions. Mr. Warren?
    Mr. Warren. Thank you. Good afternoon, Mr. Chairman and the 
members of the committee, subcommittee. Thank you for allowing 
me to be a part of this session.
    My name is Roland Warren. I am President of the National 
Fatherhood Initiative, an organization that was founded in 1994 
to really confront what I view as one of the most consequential 
social problems of our time, widespread father absence. NFI's 
mission is to improve the well-being of children by increasing 
the proportion that grow up with involved, responsible, and 
committed fathers in their lives.
    Before joining NFI, I was employed in the world of business 
and finance, working in management for PepsiCo and Goldman 
Sachs and IBM. I left that world because I felt there was no 
greater issue for our country than connecting the hearts of 
fathers to their kids. Like many of the kids, too many of our 
kids today, I grew up without my father. I can say with 
confidence that kids have a hole in the soul in the shape of 
their dads. To this day, it still bothers me, and it is one of 
the reasons that I am motivated to do this work and why I am so 
committed to it.
    That said, when you look at the statistics today, about 24 
million kids live in homes absent their biological fathers. 
That is one out of every three kids in this country. In the 
African American community, in my community, it is about two 
out of every three kids, so it is the norm.
    When you compare this to 1960, we had about 8 million 
children living apart from their fathers, and in the past 40 
years, we have seen just an explosion in father-absent 
communities. And frankly, we have some neighborhoods that are 
father-absent.
    There are two factors that really contribute to father 
absence. One is the high level of divorce, and a number of 
folks have spoken about that here today. And the other is out-
of-wedlock childbearing. Currently in America, about 40 to 50 
percent of all marriages end in separation or divorce. That 
affects about a million kids. But when you look at the 
statistics on out-of-wedlock pregnancy, they are even greater, 
about one out of three kids and about 1.3 million kids every 
year are affected in this way.
    So this epidemic of fatherlessness is important and it has 
consequences. On just about every measure of child well-being, 
kids who grow up without fathers are worse off, on average, 
than kids who grow up with fathers. The children from father-
absent homes are more likely to be poor, five times so. In TANF 
homes, about seven out of ten children live with single 
parents, according to the most recent data, as opposed to about 
one in ten from two-parent families. When you look at kids 
living with both parents compared to those living in single-
parent households, living in a single-parent household doubles 
the risk that you will suffer physical, emotional, or 
educational neglect.
    Violent criminals are overwhelmingly males who grew up in 
father-absent homes--60 percent of rapists, 70 percent of 
adolescents charged with murder, 70 percent of juveniles in 
State reform institutions. No matter what their gender, age, 
family income, race, or ethnicity, adolescents not living with 
both parents, biological and adoptive, that is, are 50 to 150 
times more likely to be involved in drugs and to use drugs. And 
the list can go on.
    Now, the statistics are compelling, and there has been a 
growing consensus around the notion that kids need their 
fathers and that kids who have them do better across every 
economic, social, educational, and behavioral measurement of 
child well-being. It is not only that father absence is, on 
average, bad for kids, but we know that involved, responsible, 
and committed fathers, on average, help kids. In other words, 
fathers are not just another set of hands. They play a unique 
and irreplaceable role.
    And more and more research is discovering the unique 
benefits that children enjoy, even from infancy, when they have 
involved fathers. Six-month-old babies whose fathers are 
involved test higher on cognitive ability and motor 
development. When you look at what happens to kids in schools, 
the children whose fathers are highly involved in their schools 
are much more likely to do well academically, to participate in 
extracurricular activities, to enjoy school, and are less 
likely to repeat a grade or be expelled than kids who have less 
involved fathers.
    And let me just note that I am not saying this in any way 
to demean single mothers. After all, I was raised by a single 
mother, whom I love, and my mother and many single mothers are 
doing heroic work to raise their children alone, sometimes 
against difficult odds, and we should applaud them. But we 
would really be doing our children a grave injustice if we do 
not accept the reality that children need, and frankly deserve, 
involved, responsible, and committed fathers in their lives.
    Given the weight of the evidence that father involvement 
benefits children, the challenge for all of us is to really 
figure out the best way to ensure that fathers and children are 
connected heart to heart. Of all the institutions our culture 
has available, marriage is the one that provides the best 
pathway to involved, responsible, and committed fatherhood.
    When you look at the research on nonmarital cohabitation, 
it presents some significant challenges to long-term father-
child bonds. Cohabiting relationships are more likely to end, 
and more likely to end quickly, and when we have situations 
with noncustodial fathers, there are a number of barriers that 
prevent them from being as involved. In fact, about 40 percent 
of kids in father-absent homes haven't seen their fathers at 
all in the last year.
    As Dr. Whitehead said, marriage, although not perfect, is 
really the best environment in which men can fulfill their 
roles as committed fathers. I think one of the best predictors 
of the quality of the relationship a father is going to have 
with his children is the quality of the relationship that he 
has with the mother of his children.
    I experienced that in my own life, that once my parents got 
divorced, over time, I saw less and less of my father. He 
became involved in other things. He had another family. My 
connection to my father after my parents were no longer married 
just slowly vanished.
    This is an important link, this link between marriage and 
fatherhood, that really needs to be addressed. As the President 
of the National Fatherhood Initiative, I consistently see how 
discussions about responsible fatherhood evolve into 
discussions about marriage, and I am not surprised at that 
because I believe that the best societal glue that connects 
kids to their dads is marriage. And, in fact, even in 
communities where marriage rates are low, responsible 
fatherhood acts as a bridge to healthy discussions about 
marriage.
    Once you start talking about the effectiveness of involved 
fatherhood in increasing child well-being, it becomes difficult 
to not talk about marriage, because if involved fatherhood is a 
good thing, then we want fathers as connected as possible, and 
good marriages have the unique ability to align the interests 
of mothers and fathers in the best interests of their children.
    I would like to actually submit three NFI studies, to the 
record. One is a study we did in collaboration with others, 
``Can government Strengthen Marriage?'' The other two are 
focused specifically on fatherhood, and they look at family 
structure, father closeness, related to delinquency, and also 
related to drug abuse. What you will find in these studies is 
that father involvement matters and that kids that have more 
involved fathers, even when the fathers are noncustodial, do 
better on average.
    To confront the problem of father absence, NFI really 
started some aggressive work about 10 years ago and over the 
last decade, we have really developed a comprehensive strategy, 
not only to reduce father absence, but also to help fathers who 
are present engage more fully in the lives of their children. I 
call it our ``Three-E'' strategy--educating, equipping, and 
engaging the culture around this issue, and through this 
strategy, we really work to mobilize the three basic pillars of 
culture, the government community, the faith community, and the 
business community.
    The first ``E'' is our education strategy. We do quite a 
bit in the area of public education awareness. We are part of 
the Ad Council's portfolio of campaigns and we do compelling 
PSAs around father involvement. To date, we have generated over 
$320 million of donated media against this, one of the most 
successful campaigns that they have, and it really speaks to 
how important this issue is and how ubiquitous it is.
    The second ``E'' is equipping, and the focus here is to get 
people from inspiration to implementation. You see a PSA. You 
hear someone talk about it. Your neighbor talks to you about 
it. But you want to be a better dad. How do you do that? 
Frankly, there are not a lot of places where dads can learn how 
to be great dads. So we set out to set up a National Fatherhood 
Clearinghouse and Resource Center to do that work.
    And the last ``E'' is really engaging, engaging every 
sector of society in alliances and partnerships to encourage 
them to add fatherhood programming to the important work that 
they already do, and we are very aggressive and, frankly, very 
creative in terms of doing that work.
    So social science over the last 25 years has strongly 
suggested that kids do best with involved, responsible, and 
committed fathers, and people from across different political 
perspectives and ideologies have come together around this 
issue, largely because the weight of the evidence suggests that 
it is important. Additionally, when you look at the abundant 
research about marriage, it suggests that kids who grow up with 
married parents are better off and have the best chance at 
success.
    And if we want what is best for children, then we should 
ensure that more children grow up with married mothers and 
fathers, as Wade Horn is fond of saying, real, live, in-the-
home, love-the-mother, married fathers. And since the well-
being of children is at stake and a litany of social ills 
correlates with the breakdown of married fatherhood, the 
government has to play a very important and active role in this 
regard.
    There are a number of pieces of legislation on the Hill now 
that talk about this. I think one of the best is the 
legislation by Senator Bayh and Senator Santorum, the 
Responsible Fatherhood Act, S. 604, which is a real good 
bipartisan piece of legislation that talks about the link 
between marriage and responsible fatherhood.
    In closing, I just want to read an e-mail that I received 
not long ago from a young girl. It was a 16-year-old girl and 
her e-mail address is ``Always--Flirting''. She said, ``I just 
wanted to say thanks. What you all are doing is great. Fathers 
should be involved in their children's lives, but sadly, many 
aren't. I'm 16 years old and my father acts like he wants 
nothing to do with me or my brother, and it hurts sometimes, 
but I get over it. So yeah, I just wanted to say thanks and 
that I'm glad someone out there cares about the kids, even if 
their fathers don't.''
    I tell you, at the end of the day, that is what it is all 
about. I suspect that she is always flirting because she is 
looking for that dad who is not connected to her. I can tell 
you personally that this is an important issue and certainly 
government and the weight of government is an important player 
in terms of making sure that kids are connected to their dads 
heart to heart. Thank you.
    Senator Sessions. Thank you, Mr. Warren, for those powerful 
remarks, and we thank you for your leadership at the National 
Fatherhood Initiative. It is a great organization.
    [The prepared statement of Mr. Warren follows:]

                 Prepared Statement of Roland C. Warren

    My name is Roland Warren, and I am the President of the National 
Fatherhood Initiative (NFI), an organization founded in 1994 to 
confront the most consequential social problem of our time--the 
widespread absence of fathers from children's lives. NFI's mission is 
to improve the well-being of children by increasing the proportion of 
children who grow up with involved, responsible, and committed fathers 
in their lives.
    Before joining NFI, I was employed in the world of business and 
finance, working in management for firms such as Pepsi, Goldman Sachs, 
and IBM. But I left that world because I knew how important this issue 
is for our Nation's children.
    I grew up without my father, so I can say with confidence that 
every child has a hole in their soul in the shape of their dad, and to 
this day, I still experience a longing in my heart for what should have 
been. I left Goldman Sachs so that I can help ensure that fewer and 
fewer children will grow up with the hole in their soul left empty.
    So, I greatly appreciate this opportunity to testify today about 
the importance of marriage and fatherhood.

                      THE FACTS OF FATHER ABSENCE

    Today, 24 million children in America live in a home in which their 
biological father does not live.\1\ That is one out of every three 
children in our country. In the African American community, father 
absence is the norm--two out of every three African American children 
live in father-absent homes.\2\
    Compare this to 1960, when only 8 million children lived in father-
absent homes.\3\ The past 40 years have seen the birth of not only the 
father-absent home, but also the father-absent community.
    There are two factors that contribute to a majority of the father 
absence in our country. One is the high divorce rate. The other is out-
of-wedlock childbearing.
    The divorce rate nearly tripled between 1960 and 1980.\4\ Currently 
in America, an estimated 40-50 percent of all marriages end in 
separation or divorce, affecting over 1 million children per year.\5\ 
Our country has the highest divorce rate of all industrialized nations 
in the world.\6\
    In 1960, about 5 percent of all births occurred out of wedlock. 
That number increased to 10.7 percent in 1970, 18.4 percent in 1980, 28 
percent in 1990, and today that number is nearly 33 percent.\7\ About 
1.3 million children are born to unmarried women each year.\8\
    This epidemic of fatherlessness has consequences.
    On just about every measure of child well-being, children who grow 
up without fathers are worse off, on average, than children who grow up 
with their fathers.
    Children from father absent homes are 5 times more likely to live 
in poverty than children whose fathers are in the home. Forty-two 
percent of children in female-householder families lived in poverty in 
1999, compared to only 8 percent of children in married couple 
families.\9\ Additionally, of children living in TANF households, more 
than 7 out of 10 lived with a single parent in 1998, while fewer than 1 
in 10 lived with two parents.\10\
    Compared to living with both parents, living in a single-parent 
household doubles the risk that a child will suffer physical, 
emotional, or educational neglect.\11\
    Children growing up with absent fathers are especially likely to 
experience violence. Violent criminals are overwhelmingly males who 
grew up without fathers, including up to 60 percent of rapists,\12\ 72 
percent of adolescents charged with murder,\13\ and 70 percent of 
juveniles in State reform institutions.\14\
    No matter what their gender, age, family income, race or ethnicity, 
adolescents not living with both parents (biological or adoptive) are 
50 to 150 percent more likely to use drugs, be dependent on drugs, and 
to need illicit drug abuse treatment than adolescents living with two 
biological or adoptive parents.\15\
    In studies involving over 25,000 children using nationally 
representative data sets, children who lived with only one parent had 
lower grade point averages, lower college aspirations, poorer 
attendance records, and higher drop out rates than students who lived 
with both parents.\16\ Fatherless children are twice as likely to drop 
out of school.\17\
    The National Longitudinal Survey of Youth found that children who 
live in single parent families have more behavior problems compared to 
those who live in two-parent households.\18\
    In a longitudinal study of more than 10,000 families, researchers 
found that toddlers living in single-parent families were more likely 
to suffer a burn, have a bad fall, or be scarred from an accident 
compared to kids living with both of their biological parents.\19\
    Infant mortality rates are 1.8 times higher for infants of 
unmarried mothers than for married mothers.\20\
    Teenage girls who grow up without their fathers tend to have sex 
earlier than girls who grow up with both parents. A 15-year-old who has 
lived only with her mother is three times more likely to lose her 
virginity before her 16th birthday as one who has lived with both 
parents.\21\
    The weight of the statistical evidence is compelling, and that is 
why there has been a growing consensus around the notion that children 
who grow up without dads are economically, physically, psychologically, 
behaviorally, and educationally disadvantaged compared to children 
whose mothers and fathers are both in the picture.
    And not only is father absence bad for children, but father 
presence is good for children. In other words, fathers are not just 
another set of hands. They play a unique and irreplaceable role in the 
upbringing of children. They are not just ``nice to have around.'' More 
and more research is discovering the unique benefits children enjoy, 
even from infancy, from having consistent contact with their father.
    Even 6-month old babies whose fathers are involved score higher on 
tests of cognitive ability and motor development.\22\ Preschoolers with 
involved fathers display higher levels of empathy and cooperation with 
peers.\23\ When boys and girls are reared with engaged fathers they 
demonstrate a greater ability to take initiative and display self 
control.\24\ Adolescents with involved fathers display higher levels of 
self-esteem.\25\ When adolescents rate their dads high on things like 
nurturance, they are less likely to engage in deviant social behavior, 
including drug use, truancy, and stealing.\26\
    Children whose fathers are highly involved in their schools are 
more likely to do well academically, to participate in extracurricular 
activities, to enjoy school, and are less likely to have ever repeated 
a grade or been expelled compared to children with less involved 
fathers.\27\
    Let me just note that none of what I am saying is meant to be 
demeaning to single mothers. After all, I was raised by a single mom, 
and my mother and many single mothers are doing heroic work to raise 
their children alone, sometimes against difficult odds, and we should 
applaud them. But we would be doing our children a grave injustice if 
we do not accept the reality that children need and, frankly, deserve 
to have involved, responsible, and committed fathers in their lives who 
are physically, emotionally, and spiritually connected to their 
children. Simply put, kids do better when dad is around.

                        MARRIAGE AND FATHERHOOD

    Given the weight of the evidence that father involvement benefits 
children, the challenge is for all of us to figure out the best way to 
ensure that fathers and children are connected, heart to heart. Of all 
the institutions our culture has available, marriage is the one that 
provides the best pathway to involved, responsible, and committed 
fatherhood.
    Research has suggested that there are significant challenges for 
non-marital cohabitation in ensuring long-term father-child bonds. 
Cohabiting relationships are more likely to end, and to end quickly, 
than married relationships. Non-custodial fathers also face various 
issues that prevent long-term, frequent contact with their children. 
Forty percent of children in father-absent homes have not seen their 
father in at least a year. Of the remaining 60 percent, only one in 
five sleeps even one night per month in the father's home. Overall, 
only one in six sees their father an average of once or more per 
week.\28\ More than half of all children who don't live with their 
fathers have never even been in their father's home.\29\
    Marriage, although not perfect, is the best environment in which 
men can fulfill their roles as involved, responsible, and committed 
fathers. One of the best predictors of the quality of the relationship 
a father has with his children is the quality of the relationship he 
has with the mother of his children. I experienced this in my own life. 
When my parents got divorced, over time I saw less and less of my 
father. He became involved in other things. He had another family. The 
connection between my father and I, after my parents were no longer 
married, slowly vanished.
    Some would like to keep the issues of responsible fatherhood and 
healthy marriages separate. But they are hard pressed to do so. As 
President of the National Fatherhood Initiative, I have consistently 
seen how discussions about responsible fatherhood inevitably evolve 
into discussions about marriage. I am not surprised that this happens 
because I believe that the best societal glue to connect kids to their 
fathers physically, emotionally, and spiritually is marriage. In fact, 
even in communities where marriage rates are low, responsible 
fatherhood acts as a bridge to healthy discussions about marriage.
    Once you start talking about the well-being of children and the 
effectiveness of father involvement in increasing child well-being, it 
becomes unavoidable to talk about the advantages marriage has over any 
other family arrangement in terms of connecting both mothers and 
fathers to their children. Several studies that we have released 
demonstrate this clearly.
    National Fatherhood Initiative just released two studies entitled, 
Family Structure, Father Closeness, and Drug Abuse and Family 
Structure, Father Closeness, and Delinquency. One of the things these 
studies measured was the levels of both mother and father ``closeness'' 
in different family structures, as determined by adolescents' answers 
to survey questions about their relationships with their parents. The 
studies found that levels of both mother and father closeness to 
adolescents are highest in two-parent married families, lower in 
stepfamilies, lower still in single parent families, and lowest in no-
parent families where a mother or father substitute was named.\30\
    Adolescents are closer to both their mothers and fathers when their 
parents are married. This occurs because marriage aligns the interests 
of mothers and fathers in the best interest of their children. In fact, 
studies have found that homes in which both mothers and fathers live 
are more child-centered than other homes.\31\ And this is why marriage 
is such an important institution--it allows children to benefit from 
the unique and irreplaceable contributions of mothers and the unique 
and irreplaceable contributions of fathers.

             PURPOSE OF THE NATIONAL FATHERHOOD INITIATIVE

    To confront, head on, the problem of father absence, National 
Fatherhood Initiative has worked for the last 10 years to connect 
fathers to their children, heart to heart. As I said earlier, our 
mission is to improve the well being of children by increasing the 
proportion of children who grow up with involved, responsible, and 
committed fathers in their lives.
    As NFI has evolved over the last decade, we have developed a 
comprehensive strategy for not only reducing father absence, but also 
for helping all fathers become more physically, emotionally, and 
spiritually involved in their children's lives. It is our ``Three-E'' 
strategy of educating, equipping, and engaging the culture on the issue 
of father absence. Through our strategy we work to mobilize the ``three 
pillars'' of culture--the business, faith, and government communities--
to address an issue that effects people and institutions in all sectors 
of society. Any social movement that has had any success has been able 
to effectively mobilize the three pillars. The American Revolution did 
it. The Civil Rights Movement did it. NFI seeks to do it as well.
    The first ``e'' of our strategy is educate. If you can't change 
people's minds, you can't change anything. Since 1996, NFI has 
partnered with the Ad Council to create and disseminate a comprehensive 
public service announcement campaign to raise awareness about the 
problem of father absence and to provide inspiration for fathers to 
connect with their children. Since the campaign's inception, it has 
garnered over $320 million in donated advertising on television, radio, 
print, outdoor, and Internet media.
    Respected individuals and celebrities such as Tiger Woods, Tom 
Selleck, James Earl Jones, Tim McGraw, and Ossie Davis have lent their 
talents to this unique campaign.
    Millward Brown polling that tracks the effectiveness of the ads has 
found that Americans' attitudes about important fatherhood issues have 
shifted in a positive direction over the past few years. African 
Americans especially are experiencing dramatic shifts in the way they 
view the institution of fatherhood and its importance to children and 
communities.
    In addition to the public service announcements, NFI provides 
research and other resources to educate the culture about the 
importance of fatherhood.
    The second ``e'' of our strategy is equip. At NFI we are very 
focused on moving people from inspiration to implementation. We have 
established a National Fatherhood Clearinghouse and Resource Center 
(NFCRC) to provide a comprehensive collection of books, brochures, 
curricula, videos, CD-ROMS, and other resources for both individual 
fathers and for organizations throughout the country that are serving 
fathers. The NFCRC provides training institutes, workshops, and 
technical assistance to help grassroots organizations in implementing 
fatherhood programs in their communities. Through our online bookstore, 
we reach thousands of fathers every day with resources that cover a 
wide array of pertinent fatherhood topics.
    The third ``e'' of our strategy is engage. NFI works to engage in 
strategic alliances and partnerships with organizations that are at the 
nexus of children and families. In order to confront, in totality, the 
problem of father absence, we cannot just talk to and work with men. We 
have to engage the culture as a whole to embrace the importance of 
connecting fathers to their children. We have to work with women to get 
them involved in the fight to end father absence. This is not a men's 
issue, it is a people issue. Accordingly, NFI works with organizations 
from all sectors of society--business, faith, and government--to find 
intersections in our work so that we can assist them in integrating 
fatherhood programming into the work they are already doing. For 
example, we are working with the Greater Pittsburgh YMCA to open 
fatherhood resource centers in the 14 YMCAs in that area. I like to 
call it the ``Willy Sutton strategy.'' That bank robber from the 1930's 
was asked why he robbed banks and he responded simply ``that's where 
the money is.'' Well, we try to go where the fathers are. When men 
enter these YMCAs to play basketball or learn judo, they will also be 
able to get resources and training on being involved, responsible, and 
committed dads.
    Each year, NFI's National Summit on Fatherhood educates, equips, 
and engages 500 people from across the country on the latest issues 
relevant to the responsible fatherhood movement. It is our way of 
allowing folks from the public and private sectors to gather together 
to share ideas and get the very best training and inspiration for 
successfully creating, marketing, and maintaining fatherhood 
programming in their communities.
    NFI also engages the popular culture with our annual Fatherhood 
Awards Gala and Golden Dads Campaign. The Fatherhood Awards recognize 
individuals, organizations, and corporations that do exemplary work in 
promoting involved, responsible, and committed fatherhood. The Golden 
Dads Campaign awards every day dads in the zoos, parks, malls, and 
museums of several American cities each year around Father's Day to 
celebrate the positive contributions dads are making to their 
children's lives.

                               CONCLUSION

    Social science research over the past 25 years has strongly 
suggested that kids do best when they have involved, responsible, and 
committed fathers in their lives. People from across the political and 
ideological spectrum have come together on this issue, largely because 
of the weight of the evidence from the research. NFI's bi-partisan Task 
Forces on Responsible Fatherhood serve as evidence of the unity that 
exists on this issue.
    Additionally, a review of the abundant literature on marriage 
suggests that children who grow up with married parents are better off 
and have the best chance at success.
    If we want what is best for our children, then we have to ensure 
that more children are growing up with married mothers and fathers. As 
Wade Horn would say, ``real live, in-the-home, love-the-mother, married 
fathers.''
    Since the well-being of children is at stake, and a litany of 
social ills correlate with the breakdown of married fatherhood, the 
government has a role to play in helping families achieve exactly what 
they would want for their own children. No parent wants his or her 
daughter to be abandoned by the future father of her children. No 
parent wants his or her son to abandon the future mother of his 
children. Therefore, it is important that the government passes 
legislation that promotes married fatherhood as the ideal. Legislation 
should also do all it can to support children who grow up in father-
absent homes so that they can make better decisions about how they are 
going to raise the children they will someday bring into the world.
    Legislation should focus on supporting public awareness campaigns 
about the importance of involved, responsible, and committed 
fatherhood. It should help organizations establish fatherhood resource 
centers to provide skill-building materials to all kinds of fathers at 
their points of need. Legislation should provide funding for community-
based fatherhood programs that work at the grassroots to engage all 
kinds of fathers and connect them to their children. Senators Bayh and 
Santorum's Responsible Fatherhood Act, bill S. 604, is a bipartisan 
piece of legislation that is exemplary in its addressing of responsible 
fatherhood issues.
    Legislation is not the answer, but it is a start. Our children 
deserve a nation, and that includes a government, that is deeply 
concerned about their future. And our Nation simply cannot be neutral 
about the way our children grow up. This is a public health issue that 
the government, the business community, and the faith community must 
all work together to address. We have to ensure that the hole in every 
child's soul in the shape of their father is filled with the love, 
nurturance, and support of their dad.
    I will close by reading an e-mail that came in through our website. 
It is from a 16-year-old girl, whose e-mail address was ``always--
flirting'':
    ``I just wanted to say thanks. What you all are doing is great. 
Fathers should be involved in their children's lives but sadly many 
aren't. I'm 16 years old and my father acts like he wants nothing to do 
with me or my brother, and it hurts sometimes, but I get over it. So 
yeah, I just wanted to say thanks and that I'm glad someone out there 
cares about the kids, even if their fathers don't.''
    Thank you very much for the opportunity to testify before you 
today, and I would be pleased to answer any questions you might have 
concerning my testimony.

                                ENDNOTES

    1. Horn, Wade F., and Tom Sylvester. Father Facts, 4th Edition 
(Gaithersburg, MD: National Fatherhood Initiative, 2001).
    2. Ibid.
    3. Ibid.
    4. U.S. Department of Commerce, Bureau of the Census, ``Statistical 
Abstract of the United States, 1993,'' (Washington, D.C.: Government 
Printing Office, 1993).
    5. U.S. Census Bureau. Vital Statistics of the United States. 
Statistical Abstract of the United States 1999. Tables 155, 159. 
Washington, D.C.: GPO, 2000.
    6. National Commission on Children, ``Just the Facts: A Summary of 
Recent Information on America's Children and Their Families,'' 
(Washington, D.C.: U.S. Government Printing Office, 1993).
    7. United States House of Representatives, Committee on Ways and 
Means, ``1991 Green Book,'' (Washington, D.C.: Government Printing 
Office, 1991).
    8. Ventura, Stephanie J., and Christine A. Bachrach. Nonmarital 
Childbearing in the United States: 1940-1999. Table 2. National Vital 
Statistics Reports. Vol. 48. No. 16. Hyattsville, Maryland: National 
Center for Health Statistics.
    9. America's Children: Key National Indicators of Well-Being, 2001. 
Table ECON1.A. Washington, D.C. Federal Interagency Forum on Child and 
Family Statistics, 2001.
    10. Committee on Ways and Means, U.S. House of Representatives. 
2000 Green Book. Washington, D.C.: U.S. Government Printing Office, 
2000.
    11. America's Children: Key National Indicators of Well-Being. 
Table SPECIAL1. Washington, D.C. Federal Interagency Forum on Child and 
Family Statistics, 1997.
    12. Davidson, Nicholas. ``Life Without Father,'' Policy Review 
(1990).
    13. Cornell, Dewey, et al., ``Characteristics of Adolescents 
Charged with Homicide,'' Behavioral Sciences and the Law 5 (1987): 11-
23.
    14. M. Eileen Matlock, et al., ``Family Correlates of Social Skills 
Deficits in Incarcerated and Nonincarcerated Adolescents, Adolescence 
29 (1994): 119-130.
    15. Substance Abuse and Mental Health Services Administration. The 
Relationship Between Family Structure and Adolescent Substance Use. 
Rockville, MD: National Clearinghouse for Alcohol and Drug Information, 
1996.
    16. McLanahan, Sara and Gary Sandefur. Growing Up with a Single 
Parent: What Hurts, What Helps. Cambridge. Harvard University Press, 
1994.
    17. U.S. Department of Health and Human Services. National Center 
for Health Statistics. Survey on Child Health. Washington, D.C.: GPO, 
1993.
    18. Teachman, Jay, et al., Sibling Resemblance in Behavioral and 
Cognitive Outcomes: The Role of Father Presence. Journal of Marriage 
and the Family 60 (November 1998): 835-848.
    19. O'Connor, T., L. Davies, J. Dunn, J. Golding, ALSPAC Study 
Team. Differential Distribution of Children's Accidents, Injuries and 
Illnesses across Family Type. Pediatrics 106 (November 2000): e68.
    20. Matthews, T.J., Sally C. Curtin, and Marian F. MacDorman. 
Infant Mortality Statistics from the 1998 Period Linked Birth/Infant 
Death Data Set. National Vital Statistics Reports, Vol. 48, No. 12, 
Hyattsville, MD: National Center for Health Statistics, 2000.
    21. Smith, Lee. ``The New Wave of Illegitimacy.'' Fortune 18 (April 
1994): 81-94.
    22. Pedersen, F.A., et al., ``Parent-Infant and Husband-Wife 
Interactions Observed at Five Months.'' The Father-Infant Relationship. 
Ed. F. Pedersen. New York, 1980. 65-91.
    23. Radin, N. ``Primary-Caregiving Fathers in Intact Families.'' In 
A.E. Gottfried & A.W. Gottfried (Eds.), Redefining Families: 
Implications for Children's Development. New York: Plenum Press, 1994: 
55-97.
    24. Pruett, K.D. The Nurturing Father. New York: Warner Books, 
1987.
    25. Field, Tiffany, et al., ``Adolescents' Intimacy With Parents 
and Friends.'' Adolescence 30.117 (Spring 1995): 133-140.
    26. Barnes, G.M. ``Adolescent Alcohol Abuse and Other Problem 
Behaviors: Their Relationships and Common Parental Influences.'' 
Journal of Youth and Adolescence 13 (1984): 239-348.
    27. Nord, Christine Windquist. Students Do Better When Their 
Fathers Are Involved at School (NCES 98-121). Washington, D.C.: U.S. 
Department of Education, National Center for Education Statistics, 
1998.
    28. Furstenberg, Jr., Frank F. and Christine Windquist Nord. 
``Parenting Apart: Patterns of Child Rearing After Marital 
Disruption,'' Journal of Marriage and the Family, (November 1985): 896.
    29. Furstenberg, Frank and Andrew Cherlin. Divided Families: What 
Happens to Children When Parents Part (Cambridge, MA: Harvard 
University Press, 1991).
    30. Lerner, Robert. Family Structure, Father Closeness, and 
Delinquency (Gaithersburg, MD: National Fatherhood Initiative, 2004).
    31. Black, M.M., H. Dubowitz, and R.H. Starr. ``African American 
Fathers in Low Income, Urban Families: Development, Behavior, and Home 
Environment of Their Three-Year-Old Children.'' Child Development 70 
(1999): 967-978.

    Senator Sessions. Governor Keating, we are glad to have you 
and I look forward to hearing from you now.
    Mr. Keating. Thank you, Mr. Chairman and Senator Allard. I 
appreciate the opportunity to be here. I have a formal 
statement I would just like to make a part of the record. I 
have some very brief off-the-statement comments to make as----
    Senator Sessions. We will make your statement a part of the 
record.
    Mr. Keating [continuing].----as substitutes for ancillaries 
or postscripts to those that have been made and will be made.
    Oklahoma became the first State in the Union to create and 
to implement a marriage initiative. We also were the first 
State in the Union to commit public funds, in addition to 
private funds, to this purpose and we remain so to this day 
under both political parties. The governor that followed me was 
a Democrat. He is equally committed to this initiative as I 
was.
    But I came at this, Mr. Chairman, strictly as an economic 
development matter. When I became Governor, I was troubled by 
the fact that my State, which is 28th in population, was 45th 
in per capita income. I mean, what made this State poor? How 
come people that were so enterprising and so good--witness the 
reaction to the Oklahoma City bombing, the fact that 302 
buildings were damaged or destroyed and there was no act of 
looting--how could people like this be so poor?
    So I commissioned through the State Chamber of Commerce the 
Oklahoma State University and Oklahoma University economics 
departments to do an in-depth study of the reason for the 
State's poverty. They came back and had a series of things that 
probably come as no surprise to many of us. They said, well, 
you tax too many things and you don't have right-to-work and 
your workers' comp system is too expensive and your civil 
justice system is basically in the--under the control of the 
trial bar. You have too much welfare. Your infrastructure is 
not adequate and your children don't work hard enough.
    So with a Democrat legislature in both Houses, over the 
course of the next number of years, we became the first State 
in 42 years to pass right-to-work, reduce welfare costs, and 
cut taxes dramatically. As a matter of fact, the largest 
expenditure of public funds ever to build a transportation 
infrastructure reduced welfare by 80 percent, and required that 
every child take 3 years of math and 4 years of English and 4 
years of science and 4 years of history and geography and the 
like.
    But these economists did something that I have never seen 
economists do. They turned the page and said, you have too much 
divorce and you have too much in the way of out-of-wedlock 
birth. Well, for me, as a Catholic Governor in an 
overwhelmingly Southern Baptist State, to begin preaching on 
the subject of too much divorce obviously was something that I 
was somewhat cautious or sensitive about doing. But I spoke in 
my second inaugural message and also to a large group of 
Southern Baptist pastors and I said, how come we can be so good 
and yet have so much divorce, which results, according to the 
study of the economics departments of these two universities, 
in large doses of poverty?
    So the first thing we did was with no mandate from the 
State, and quite truthfully with no State funds, we asked the 
faith community to come together and have courses before 
marriage to encourage people, as is done in my faith, in pre-
Cana conferences, to prepare for marriage and understand that 
marriage is a lifetime contract, to make sure, as has been said 
by Dr. Horn and the other panelists, that you are prepared for 
marriage and that this is something that obviously is important 
for you and your prospective family.
    So some 1,300 churches and synagogues in the State signed 
up to provide a course before marriage. One of my Southern 
Baptist pastor friends said, ``You know, at first, I wondered 
what was this guy, this secular figure, preaching to me about 
the need to have a course before marriage.'' And he said, ``The 
first couple that came to see me to ask for a date for a 
wedding, I thought, well, I will just see if Keating has a 
point. And I asked this young man and young woman, well, you 
understand that this is a lifetime contract, do you not, to 
which the young man said, ``Well, we were going to give it a 5-
year try.''
    [Laughter.]
    And this pastor said, ``Well, did you buy a car on time?'' 
And this young man said, ``Yes, I did.'' He said, ``What is 
your time on the car payments?'' He said, ``Well, 3 years.'' He 
said, ``what do you think the bank would have done if you told 
it that you were going to try to make those payments for a 
year?'' He said, ``Well, they wouldn't loan me the money.'' And 
he said, ``Well, I am not going to marry you, either.''
    So the State as a faith community, and about 70 percent of 
our people go to church twice a month or more, committed at the 
outset to do this.
    Then we had a series of conferences on marriage, brought in 
professionals. As a matter of fact, Wade Horn was one of the 
early people that came to help us. We decided we needed to 
focus on teachers, public health nurses. We needed a broad-
based education system not only in addition to the pastors and 
priests and rabbis and imams of the churches and synagogues and 
mosques, but also we needed to have health care professionals 
and teachers talk about the importance of marriage as a 
contract, the importance of being able to argue, to resolve 
problems, and to truly be prepared for the marriage state.
    So far, we have some 1,100, 1,200 people who have gone 
through or who have become ``train the trainers'' for these 
courses. It is a 12-hour course. It is a matter which has been 
funded through TANF funds over the course of the last probably 
5 years. We have spent about $7.5 million in TANF funds for 
this purpose. Obviously, there is a lot of private sector 
contribution and nonprofit support, as well.
    But the State, the public community, that is the 
legislature, men and women of both parties, the governor, 
obviously two men of both parties, have committed that if, in 
fact, this is a way to make us more prosperous, this is not a 
secular statement, it is not--I mean, a sectarian statement, it 
is a secular statement, if this is one of those things that we 
need to do to make us more successful and more prosperous, 
better educated, obviously longer lived and healthier, we are 
going to do it, and underway in Oklahoma today is just such an 
initiative.
    I think it is too early to say what the results will be, 
but I cannot imagine that there would not be some positive 
result when you have the number of people and the number of 
committed people to have a course before marriage and to commit 
themselves for a lifetime relationship.
    Senator Sessions. Thank you, Governor Keating. It is a very 
succinct and great story. It is a great accomplishment.
    [The prepared statement of Mr. Keating follows:]

              Prepared Statement of Governor Frank Keating

    Mr. Chairman and members of the subcommittee, thank you for 
inviting me to talk to you today. My name is Frank Keating and I am 
President and CEO of the American Council of Life Insurers. I have been 
asked to talk today about the Oklahoma Marriage Initiative (OMI), which 
I launched in 1999 when I was Governor of Oklahoma. While this 
Initiative began under my Republican Administration, Governor Brad 
Henry, a Democrat, was elected in 2002, and the OMI continues to thrive 
with his support.
    I will talk today about why we decided to launch the Initiative, 
what it accomplished when I was Governor, and what has happened since 
Governor and Mrs. Henry joined in this important work. I will also 
suggest that there are some general lessons from the Oklahoma 
experience that may be useful to other States and communities committed 
to the same goals of strengthening families and child well being.

            HOW DID THE OKLAHOMA MARRIAGE INITIATIVE BEGIN?

    In my 1999 Inaugural address, I announced that Oklahoma's high rate 
of divorce was an economic and social policy problem, and I put forth 
bold goals to reduce divorce and out-of-wedlock birth rates. (In the 
last State ranking produced by the CDC in 1995, Oklahoma had the second 
highest divorce rate by State of residence, trailing only Arkansas.) As 
a first step, I convened a day-long Governor and First Lady's 
Conference on Marriage on March 22, 1999, where 200 leaders from many 
different sectors and regions of the State came together to hear from 
the nation's experts on marriage and to brainstorm ideas about what the 
State could do to counteract current negative trends. This event, and 
the subsequent ideas and support generated over the next weeks and 
months, launched what is now known as the Oklahoma Marriage Initiative.

               WHAT IS THE OKLAHOMA MARRIAGE INITIATIVE?

    The Oklahoma Marriage Initiative (OMI) is a broad based, 
comprehensive attempt to mobilize public and private sectors in a 
statewide effort to strengthen marriage and reduce divorce in order to 
improve child well-being and benefit adults. Even though Oklahoma has a 
long way to go to achieve critical mass in the delivery of services, no 
other State has launched as ambitious a plan or invested as many 
resources on this issue. As a result, the OMI has received a great deal 
of attention in the national and international press. In policy 
circles, Oklahoma has become a national model for innovation across 
broad systems and diverse groups in furtherance of the goal of 
strengthening marriages.
    Due in part to the broad-based interest and support of the OMI, 
from the public and from a diverse group of stakeholders, and because 
of a shared belief that government must do something more to strengthen 
families, several other States are now following close behind. At the 
time of this testimony, there are seven States that have significant 
activities underway to strengthen marriage and two-parent families--
Arizona, Florida, Louisiana, Michigan, Oklahoma, Utah, and Virginia. 
Other Governor's have now held statewide Conferences on Marriage, and 
in around 36 States new government funded educational programs are 
being offered on at least a pilot basis. These programs are largely 
designed to prepare couples for marriage and to help them achieve 
healthier, long lasting marriages.\1\

                  WHY DID WE DECIDE TO LAUNCH THE OMI?

    In 1998, during my second term in office, I commissioned economists 
at the University of Oklahoma and Oklahoma State University to study 
the reasons for Oklahoma's low per capita income and low rates of 
economic growth. The 1999 report that followed specifically cited 
Oklahoma's high divorce rates and teenage birth rates among the factors 
associated with its poor economic performance. As noted in an op-ed 
piece at the time ``Oklahoma's high divorce rate and low per-capita 
income are interrelated. They hold hands. They push and pull each 
other. There's no faster way for a married woman with children to 
become poor than to suddenly become a single mother.'' Jerry Regier, 
who was Oklahoma Cabinet Secretary of Health and Human Services in my 
administration (who now serves as Governor Jeb Bush's Secretary for 
Children and Families) had also made me aware of the growing body of 
social science research that linked high rates of single parenthood to 
child poverty and other negative indicators of child well being.
    The research basis for taking government action to strengthen 
marriage was strong, but I was well aware that there was little 
precedent for doing so, and my decision was going to be controversial. 
Marriage had always been considered a private issue, and little 
attention had been paid to government's role in this important 
institution. That is why I thought it was so important to bring 
together leaders from different sectors and political persuasions from 
across the State to our first conference to hear from the experts about 
the compelling research in this area. At this first conference, I 
talked about the sensitivity of the issue and acknowledged that, like 
the country as a whole, many of the assembled leaders were themselves 
divorced or had experienced divorce in their family. My wife, Cathy, 
also spoke that day, acknowledging that we have had our own struggles 
at times, and have experienced divorce in our extended family. Together 
we assured our fellow Oklahomans that our intent was not to point the 
finger of blame at anyone but to ask them to join us in a collective 
effort to decide how to reduce divorce and strengthen families in the 
next generations.
    There are additional reasons to justify proposing government 
action. In Oklahoma, we believe that by investing in efforts to 
strengthen marriage and reduce divorce we will eventually reduce the 
level of government intrusion in family life. Judge Helen Brown of 
Detroit has pointed out that, ``the best way to keep government out of 
your (family) life, is to stay married.'' It is when couples divorce, 
she says, that court officials are really intrusive, ``telling you when 
you can see your child, how much money you should send each month, how 
and when you can communicate and how to divide the assets of your 
marriage.'' \2\
    My Secretary of Human Services Howard Hendrick, who was retained by 
the new Governor, currently oversees the OMI, provided congressional 
testimony about the Initiative before the Senate Finance Committee, 
where he pointed out the high costs of all human service programs 
(artificial supports) that are needed to help single parents when 
fathers and mothers do not marry or when marriages break up--such as 
child support enforcement, welfare, food stamps, Medicaid etc. Hendrick 
testified that welfare reform in Oklahoma, as elsewhere, has been very 
successful in reducing the need for welfare assistance, but he said we 
must also find ways to strengthen the natural supports provided by 
healthy two-parent married families, both to improve child well-being 
and to ultimately lessen the need for government assistance.\3\

            HOW DID WE DECIDE WHAT TO DO AND HOW TO FUND IT?

    As I said in my State of the State Address in 1999, ``There's 
something wrong with good people in a good society when it is easier to 
get a marriage license in Oklahoma than it is to get a fishing license 
and it is easier to get out of a marriage with children than it is to 
get out of a Tupperware contract.''
    But while it was easy to identify the problem, it was another 
matter entirely to decide on any one solution. There were no blue 
prints out there and, quite frankly, we didn't know what to do beyond 
our commitment to doing something. We decided against setting up a 
Commission that would study the idea and report back in a few years, as 
our priority was to use our broad-based support to begin implementing 
services. Instead we set about consulting widely with marriage experts 
in Oklahoma and across the nation, looking for promising ideas and 
programs that could be replicated in some form and on a greater scale. 
We established a large, broad based steering committee, and through a 
competitive bid, hired a public consulting firm, Public Strategies to 
manage the planning process and develop a service delivery system.
    As a result of our efforts, we discovered that over the past 20 
years researchers have learned a great deal about what factors 
contribute to the success or failure of marriages. Some of this 
knowledge has been translated into a variety of educational programs 
designed to teach individuals and couples the information, skills and 
attitudes needed to make wise relationship choices, and to build and 
sustain healthy marriages. These programs for the most part were not 
well known when we began, and they were not widely available. Moreover 
they were generally provided to middle class engaged or married 
couples. It was not clear whether or not these services could be 
offered on a large scale and/or to a more diverse population. 
Nevertheless, we were impressed with the promise of the field and a few 
outstanding programs, and it was our State's decision that providing 
these marriage education services should be the principal objective of 
the Oklahoma Marriage Initiative.
    After an extensive review of applicable programs, the OMI selected 
the Prevention and Relationship Enhancement Program (PREP), based in 
Denver, because it was the program with the strongest research basis, 
the most promising evaluation results, and the curriculum had been used 
widely with military couples. The PREP program consists of 12 hours of 
group instruction and interaction, typically delivered in 2-hour 
periods over 6 weeks, but the format is easily modified to fit with 
specific participant needs and the sponsor's setting. The founders of 
PREP also had many years of experience in training professional and 
paraprofessional workshop leaders to deliver the program, which was to 
be the basic design of the Oklahoma model.
    After selecting a core curriculum, the immediate challenge was how 
to build the capacity to offer the PREP workshops on an ongoing basis 
in every county in the State. Public Strategies worked for many months 
with Jerry Regier, Howard Hendrick and DHS senior staff, and many 
individuals in the non-governmental sector to design the Marriage and 
Relationship Service Delivery System. The system was designed to train 
three categories of individuals: staff of publicly funded agencies who 
already had experience providing educational or therapeutic services to 
low income individuals and families; pastors, ministers, chaplains and 
lay leaders from the faith community; and health, mental health and 
other community leaders who might be in the position to deliver 
workshops to couples.
    While the early planning efforts of the OMI were funded with 
private foundation dollars and a modest amount of State discretionary 
monies, clearly a statewide service delivery system would require 
significant funding. Since three of the four goals of the 1996 TANF law 
related to marriage, I asked the Department of Human Services Board to 
set aside $10 million in TANF funds for this effort and they agreed. 
From the beginning, this commitment of resources made the OMI more than 
just another policy idea. It gave legs to ideas and demonstrated a real 
commitment to developing these services.

                 WHAT HAS THE OMI ACCOMPLISHED TO DATE?

    I do not have ample time to describe in detail all the things that 
are going on in the OMI or the wide range of the benefits our State has 
received from this Initiative, but I will simply highlight here the 
most significant achievements in the areas of research, service 
delivery, and community involvement.

            RESEARCH--THE OKLAHOMA STATEWIDE BASELINE SURVEY

    The OMI has made a commitment to ongoing research through a 
partnership agreement with the Oklahoma State University Bureau for 
Social Research and the creation of a Research Advisory Group comprised 
of State and nationally known marriage scholars, practitioners and 
policy experts. These researchers are charged with providing ongoing 
guidance to the research efforts that guide program design and 
implementation.
    In 2001, this research team designed and implemented a 
comprehensive statewide baseline survey to learn about Oklahomans' 
attitudes, behaviors and opinions related to marriage, divorce and 
marital quality. Additionally, the survey over-sampled Medicaid clients 
to ensure that the results were representative of the low-income 
population. The initial report was published in July 2002 \4\. (Utah 
and Florida have since conducted their own State surveys modeled on the 
Oklahoma survey).
    Among the key findings are:
    Oklahomans marry an average of 2.5 years younger than the national 
median age at first marriage.
    Thirty-two percent of all Oklahoman adults have ever divorced 
compared to 21 percent nationally.
    Those who have been divorced give as the two top reasons for their 
divorces a ``lack of commitment'' and ``too much conflict and 
arguing''.
    Over \2/3\ of Oklahomans think divorce is a very serious national 
problem. Eighty-two percent of Oklahomans said that a statewide 
initiative to promote marriage and reduce divorce would be a good or 
very good idea.
    Sixty-six percent would consider using relationships education to 
strengthen their relationships. Interest in relationship education is 
especially high among the young (77 percent) and low-income persons (72 
percent).
    Plans are to repeat the survey in upcoming years to assess whether 
there have been any changes in Oklahomans' attitude, knowledge and 
behavior related to marriage and divorce, but the data is already used 
to influence program design. The survey findings presented by the 
research team have helped the OMI target new priorities and activities, 
while also confirming many of the previously adopted program 
approaches. For example, since learning that Oklahomans marry so young 
and that young marriages are much more vulnerable to divorce, the OMI 
is implementing a new curriculum for high school students, created 
through a partnership between the developers of PREP and a youth-
oriented marriage education curriculum. The OMI also partnered with the 
State's family and consumer sciences teachers in 2003, and as a result, 
Connections+PREP is currently being offered as an elective course in 
Oklahoma high schools.

                        SERVICE DELIVERY SYSTEM

    There are now trained PREP workshop leaders available to deliver 
community-based workshops in most every county in the State. In Tulsa 
and Oklahoma City, there are sufficient numbers of trained leaders to 
begin to offer workshops on a continuous basis (``standing capacity''). 
As of April 2004:
    OMI has trained 1072 individuals as PREP workshop leaders. 
(Individuals receive training at no cost in exchange for a commitment 
to conduct four workshops at no charge to participants). Those trained 
include staff of three publicly funded agencies with whom the OMI has 
cooperative agreements, namely--the Department of Health Child Guidance 
counselors; University Cooperative Extension educators; and 
professional staff affiliated with the Oklahoma Association of Youth 
Services, which has 41 community-based agencies that provide services 
to youth and their families. In addition, hundreds of workshop leaders 
have been trained from and to serve the faith community, military, 
Native American tribes, mental health providers, Department of 
Corrections, educational and academic sectors, and many other areas.
    An additional 262 Family and Consumer Sciences teachers in 250 high 
schools have been trained to provide classes in the Connections-PREP 
curriculum. Approximately 10,000 high school students will complete the 
curriculum this year.
    A total of 1,413 PREP workshops have been conducted to date, with 
approximately 18,721 individuals having completed the workshop. 
Participants represent a wide range of backgrounds and situations and 
include married and unmarried couples, single welfare mothers, parents 
of juvenile first-time offenders, and women residents of domestic 
violence shelters.
    Approximately 35 percent of all participants are estimated to be 
low income. The proportion of low-income participants continues to rise 
as the OMI has become more focused on recruiting providers who serve 
this population. Recent data from workshop participants suggest that of 
those who reported income, 50 percent reside in low-income households 
as defined by the DHS poverty guidelines of household income at or 
below $36,800.
    The leadership of the Oklahoma Coalition Against Domestic Violence 
and Sexual Assault has worked with the OMI since its early stages of 
development to ensure that PREP leaders are provided training and 
information regarding domestic violence issues. All workshop 
participants are also given information about referral sources for 
domestic violence services, counselors, and substance abuse treatment.
    Additionally, the OMI has achieved some success in training 
workshop leaders from African American, Latino and Native American 
communities to deliver the workshops in numerous areas and settings. 
The OMI has done much work to date in translating workshop forms, 
materials and training information into Spanish to serve the State's 
growing Latino population.
    Several programs designed for special populations have also been 
developed as part of the service delivery system. For example, prison 
chaplains have been trained to offer PREP workshops on a voluntary 
basis to re-entry prisoners and their spouses/partners; parents who are 
adopting children with special needs are participating in PREP 
workshops as part of a post-adoption services program; parents and 
their teenagers are participating in PREP workshops as part of the 
juvenile first offenders program; child welfare families are 
participating in PREP services as part of their family service plans; 
and refugee resettlement workers are offering culturally appropriate 
services through two community-based organizations.

                   INVOLVEMENT OF THE FAITH COMMUNITY

    Since the large majority of first marriages occur in a church 
setting, and 67 percent of Oklahomans claim affiliation with a church, 
it was clearly important and a logical step early in the development 
process for me to invite the faith leaders to actively join this 
Initiative. In 2000, leaders of almost every denomination and faith 
throughout Oklahoma joined the First Lady and me at the State Capitol 
to pledge that they would work towards preparing couples for the 
complexities of marriage. These leaders signed a marriage covenant, 
committing themselves to encouraging more premarital education and 
counseling, enacting waiting periods before agreeing to marry, and 
developing a program of marriage mentors within their congregations. To 
date nearly 1,300 faith leaders have signed this covenant. Two hundred 
forty-six current PREP workshop leaders associate themselves with the 
faith sector and are delivering workshops within a congregation or 
faith organization. Additionally, mentor couples have been trained to 
work in conjunction with these marriage education workshops to provide 
congregations with a comprehensive program of family strengthening 
services and opportunities.

                LESSONS FOR OTHER STATES AND COMMUNITIES

    Secretary Hendrick tells me that the Initiative is constantly 
adapting and making improvements to meet the needs of new service 
populations and to correspond with the latest research. In the next 
year, now that services are becoming more available, planning has begun 
about ways to increase public outreach and communications, focusing on 
letting Oklahomans know about the value and availability of the PREP 
workshops. Work is also being done to develop an additional marriage 
education service for low-income parents who are becoming parents.
    Like most prevention/early intervention programs, it will be many 
years before we will know the outcomes of the OMI and whether the 
Initiative has been successful in helping more people have better 
marriages and fewer divorces. But I think we can still reflect on some 
of the general lessons that we have learned thus far about how to 
implement marriage initiatives, whether statewide or at a city or 
community level. I'm sure those more closely involved than I could list 
many such lessons.\5\ I will now focus on four overarching lessons that 
stand out to me.
    <bullet> Attract committed high-level leadership. With a new and 
sensitive subject it is especially important to obtain the strong 
commitment and support of top governmental leadership whether at the 
State, city or community level. In Oklahoma, my interest as Governor 
helped to overcome much initial skepticism and resistance and opened 
many doors. The resolve of Governor Henry to continue the OMI from one 
administration to another, and his commitment to support Oklahoma's 
initiative publicly has been the measure of true leadership and a 
testimony to the broad range of impact and support this Initiative has 
garnered.
    The steadfast commitment of Secretary Jerry Regier in the early 
stages, and then the exemplary leadership of Secretary Howard Hendrick 
as the OMI has developed have made progress possible in innumerable 
ways. And most importantly, strong leadership at these levels has made 
it much easier to build the critical leadership needed throughout State 
agencies and in other sectors when one seeks to make a difference for 
families and children.
    <bullet> Build a strong, broad and inclusive base of support. Any 
marriage initiative must devote the time necessary to having a period 
of information sessions and consultations with individuals in many 
sectors to help overcome any initial resistance and skepticism about a 
marriage agenda. Make sure to invite representatives from the domestic 
violence community to participate in meaningful discussions, and to 
engage groups who may feel especially nervous about what marriage 
promotion means. In Oklahoma we found that this effort was, though time 
consuming in the early stages, ultimately very rewarding as gradually 
more and more people have come forward to offer their assistance and 
support for these services. Nationally, there has developed an 
immensely productive and respectful discussion among liberal and 
conservative policy experts and researchers about marriage and family, 
and I am proud that Oklahoma has played a role in this evolving 
discussion.
    <bullet> Build the design and implementation of any marriage 
initiative on the best theory and research available. When beginning a 
demonstration program where there is still so much to learn, use what 
you do know from research as your foundation. Let ``lessons learned'' 
and research findings guide your next steps to the extent that they 
can. Because we based our program and strategies in research, we had 
the credibility we needed to help gain support for the services.
    <bullet> Invest significant monies in planning and in developing 
services if you want to have any hope of having an effect. You cannot 
change social service systems by passing laws with no appropriations or 
making declarations about the value of marriage. In Oklahoma we were 
fortunate to be able to use TANF funds for the development of these 
services, but other departments and agencies also have a stake in 
promoting healthy marriage--Health, Education, Justice, and the Armed 
Services. Each of these agencies should be encouraged to think of 
funding vehicles they may have to support marriage strengthening 
activities as well. It is important, also, to include the business 
sector as divorces and family relationship struggles can be very costly 
to businesses in terms of lost productivity.
    <bullet> Involving the faith-based sector as a vital partner. The 
faith community is often well aware that it has a special 
responsibility to do more to strengthen marriage, yet the tradition of 
separation of church and State makes many in the faith sector nervous 
of working too closely with government and vice-versa. Further, it is 
our experience that much of the faith community is in desperate need of 
training and resources to equip them to support couples and marriages. 
I believe our approach in partnering with the Oklahoma faith community 
could be a useful model to other States. In effect the OMI serves as an 
intermediary in service delivery, allowing the government the 
opportunity to work in parallel and along side the faith sector towards 
the same goal. In practice, the OMI is able to encourage faith leaders 
to make more efforts to strengthen their marriage ministries and is 
helping build their capacity to do so without any direct financial 
relationship.
    I am immensely excited by and proud of everything the OMI has 
accomplished thus far. There are literally thousands of Oklahomans who 
over the past few years have been involved in meetings, discussions, 
trainings or participated in workshops and learning about the 
components of healthy marriages. These activities are clearly having a 
ripple effect and will continue to do so. As this Initiative moves 
forward, I believe we have a good chance of turning things around in 
Oklahoma. Over time we will replace a culture of divorce with a culture 
that supports strong and healthy marriages, and children will be the 
greatest beneficiaries.

                                Endnotes

    1. Ooms, T., Bouchet. S. Parke, M., (April 2004) Beyond Marriage 
Licenses: Efforts in States to Strengthen Marriage and Two-Parent 
Families. Washington, DC. Center for Law and Social Policy.
    2. Regier, J. (2001, May 22) Testimony before the subcommittee on 
Human Resource, Ways and Means Committee hearing on Welfare and 
Marriage Issues.
    3. Hendrick, H.(2003, March 12) Testimony before the Senate Finance 
Committee hearing on Welfare Reform: Building on Success.
    4. Johnson, C., Stanley, S.M., Glenn, N.G., Amato, P., Nock, S.L., 
Markman, H.J. & Dion, R, (2002). Marriage in Oklahoma 2001 Baseline 
Statewide Survey on Marriage and Divorce. Oklahoma City: Oklahoma 
Marriage Initiative. Available online at www.okmarriage.org.
    5. See for example, Ooms, T. and Myrick, M.( 2002) What If a 
Governor Decided to Address the ``M-word''? The Use of Research in the 
Design and Implementation of the Oklahoma Marriage Initiative, Paper 
presented at the APAM Research Annual Conference in Dallas, November 7 
2022. Available from <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b464a59526b5b5e49474248585f594a5f4e4c424e580548444605">[email&#160;protected]</a>

    Senator Sessions. Dr. Weed?
    Mr. Weed. Thank you, Mr. Chairman and members of the 
committee. I am pleased to be here today. I would like to share 
with you the results of a recent national study conducted by my 
colleagues and I at the Institute for Research and Evaluation. 
I will summarize from the article being published in the peer-
reviewed Family Relations journal.
    I would like to point out that this research was not about 
the pros and cons of marriage or divorce. We have accepted the 
well-established evidence regarding the negative impact of 
family disintegration on children, adults, and the broader 
society. We have moved in this research to a broader policy 
level question that requires a broad macro analysis of trends 
at the county, State, and national level. And so our research 
is really not about any one community or any one approach to 
helping strengthen marriage or reduce divorce. It was really a 
broad look that would help in terms of policy decisions.
    We had two questions that we wanted to resolve. First, 
whether community marriage initiatives actually reduce divorce 
rates across a broad spectrum of States and counties. Now, in 
the research field, the common scenario is, well, there goes 
another beautiful theory murdered by a brutal gang of facts. We 
wanted to answer the program impact question, but we also 
wanted to determine if we could develop an objective and 
rigorous methodology to test that question.
    So we tackled this by looking at a specific community 
marriage initiative called Community Marriage Policies under 
the umbrella of the Marriage Savers program, developed by Mike 
McManus. The premise was that a large majority of marriages, 
about 86 percent, occur in the faith community setting and that 
religious leaders could be more involved in strengthening 
marriage through better education and preparation in their 
congregations.
    By January of 2004, the clergy of 183 cities and towns in 
40 States had adopted a Community Marriage Policy with the goal 
of reducing divorce rates among those married in area churches. 
You will see in my written testimony a description of that 
program, at least in summary form.
    We had some challenges in this evaluation. The first was, 
to our surprise, the Federal Government discontinued collecting 
divorce data at the county level in the mid-1990s and stopped 
paying States to do so. As a result, we had to contact most 
States and individual counties directly in order to create a 
new database for U.S. counties from 1989 to the present.
    Second, information about program implementation was not 
available from all CMP counties, but we were sure from the data 
that we were able to get that there was a broad range of 
quality in terms of implementation, which meant that our data 
summarizes and averages across strong, well-implemented 
policies as well as those that are pretty weak and almost 
nonsignificant.
    And finally, national divorce rates are already declining 
in most U.S. counties. We found from this new data set we 
created almost a 15 percent decline in the divorce rates since 
1990. So we had to do our analysis in the context of that 
ongoing decline.
    The test involved a comparison between counties having 
Community Marriage Policies with matched counties in the same 
State who do not have such policies. And in order to do that, 
we had to examine all 3,141 U.S. counties and select comparison 
counties within the same State whose divorce rate and level was 
declining at virtually the same rate as our target counties. If 
you look at Figure 1 in your handout, you will see that our 
matching methodology was quite successful. We were able to 
match 122 counties with our target counties that had 
essentially the same rate of decline and the same level of 
divorce rate.
    In addition, we controlled in the analysis for other 
factors that are directly related to aggregate divorce rates--
percent urban, percent Catholic, median age, median income, 
percent female, and the marriage rate. We also looked at 
cohabitation rates as a factor that might have influenced the 
results of this analysis.
    Our hypothesis was that the decline after the CMP was 
signed would have accelerated more in counties which adopted a 
Community Marriage Policy than in the comparison counties 
without the intervention. This hypothesis was supported by the 
data, and if you look at Figure 2, you will see that the 
decline in the divorce rate accelerated in those targeted CMP 
counties at a greater rate than our matched counties.
    We concluded from this that CMP counties were experiencing 
a greater decline in the divorce rate than the comparison 
counties and the significant difference in divorce rate change 
over time between CMP and comparison counties persisted after 
accounting for changes in marriage rates, cohabitation rates, 
and a variety of the key demographic predictors that I 
mentioned earlier.
    To put it in more common and user-friendly terms, if you 
looked at Table 1 in my handout, what you will see there is a 
decline in our target counties of 17.5 percent of the divorce 
rate compared to a 9 percent decline in the match counties. So 
the rate of decline was almost double in the targeted program 
intervention counties.
    One of the things that is striking about this is that the 
deck is really stacked against finding a positive result in 
this kind of an analysis, especially on such a broad scale. It 
is not the usual thing that you find. I evaluate lots of 
different kinds of programs and the most common news that I 
take back to the client is, well, I wish we had better news. 
This didn't work, and maybe we can figure out why and perhaps 
you can improve it.
    In this case, we found significant results and we analyzed 
it in dozens of different ways to see if those results were 
somehow a fluke of a particular analytical approach that we had 
used. But in fact, the analyses that we tried, dozens of them, 
came up with the same pattern of results. So we gained more 
confidence, and I think the important thing about these 
findings is not so much that they are large, which they are 
not. I mean, this is a modest result. But what is surprising is 
that there is any result at all under these circumstances.
    So there is promise here. We think that there is good 
reason to look carefully at this and programs like it and find 
ways to support couples who would like to strengthen marriage 
and reduce divorce.
    In summary, I would say that at the policy level, we would 
do well to invest in and further investigate this and similar 
approaches which have the potential of affecting divorce rates 
on a large scale through community marriage initiatives. Local 
communities with reasonable effort, good coordination, and good 
programs can make a difference in the divorce rate on a broad 
scale. Our society will be the benefactor. Thank you very much.
    Senator Sessions. Thank you, Dr. Weed. That is good news, 
indeed, and I do think it is an important question.
    [The prepared statement of Mr. Weed follows:]

                   Prepared Statement of Stan E. Weed

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to share with you the results of a recent national study 
conducted by my colleagues and I at the Institute for Research and 
Evaluation. I will summarize from the article being published in the 
peer reviewed Family Relations journal. (Assessing the Impact of 
Community Marriage Policies on U.S. County Divorce Rates; Paul James 
Birch, Stan E. Weed, and Joseph A. Olsen) May I point out that this 
research is not about the pros and cons of marriage and divorce. We 
have accepted the well established evidence regarding the negative 
impact of family disintegration on children, adults, and the broader 
society (Doherty, et al., 2002). We have moved to a broader policy 
level question that requires a broad, macro analysis of trends at the 
county, State and national level. We wanted to determine (1) whether 
community marriage initiatives actually reduce divorce rates across a 
broad spectrum of States and counties, and (2) whether we could develop 
an objective and rigorous methodology to test that question.
    Numerous private, professional, religious, and government agencies 
have tackled the problem of family disintegration, and with more vigor 
in recent years. Coalitions of such agencies, referred to as Community 
Marriage Initiatives, have emerged as one of the major thrusts (see 
Parke & Ooms, 2002). Our research focused on one of the earliest of 
these community based efforts, launched in 1986 by founder Mike McManus 
with a group of concerned faith community leaders in Modesto, 
California. The premise was that a large majority of marriages occur in 
church settings (86 percent according to Hart, 2003), and that 
religious leaders could be more involved in strengthening marriage 
through better education and preparation in their congregations. By 
January, 2004, the clergy of 183 cities and towns in 40 States had 
adopted a Community Marriage Policy (CMP) with the goal of reducing 
divorce rates among those married in area churches.

                              THE PROGRAM

    Most Community Marriage Policies involve local clergy developing a 
community marriage policy in which they pledge, publicly and in 
writing, to take five steps to revitalize marriage:
    Require rigorous marriage preparation of at least 4 months during 
which couples take a premarital inventory and talk through the 
relational issues it surfaces with trained mentor couples, who also 
teach couple communication skills.
    Renew existing marriages with an annual enrichment retreat.
    Restore troubled marriages by training couples whose marriages once 
nearly failed, to mentor couples currently in crisis.
    Reconcile the separated with a course conducted with a same gender 
support partner.
    Revive step families by creating Step Family Support Groups for 
parents in remarriages with children.
    As implied in the above components, couples in healthy marriages 
are enlisted to be a mentor couple to help others at critical stages of 
marriage. To date, about 3,000 mentor couples have been personally 
trained by the program founders. Numerous others have become involved 
through local congregational efforts.

                         EVALUATION CHALLENGES

    We faced several challenges when addressing the questions of 
program impact. First, and surprisingly, the Federal Government 
discontinued collecting divorce data at the county level in the mid 
1990s and stopped paying States to do so. As a result, we had to 
contact most States and individual counties directly in order to create 
a new data base for U.S. counties from 1989 to the present. In a few 
cases, the county data was not available or not reliable, which meant 
that some CMP counties had to be excluded from the analysis. For 
example, some States record filed divorces rather than finalized 
divorces. Second, information about program implementation was not 
available from all CMP counties. From the data we could acquire it was 
clear that the level of program implementation varied widely. Some 
counties did little beyond the original signing, others followed the 
signing with a serious and lasting effort. This means that what ever 
results we found would be made up of an average of both strong and weak 
policies. Furthermore, since national divorce rates are already 
declining in most U.S. counties, additional research had to be done to 
assess the effect of community Marriage Policies in the context of that 
overall decline.

                    THE RESEARCH QUESTIONS & RESULTS

    The test involved a comparison between counties having Community 
Marriage Policies with matched counties in the same State who do not 
have such policies. The Institute wanted to identify counties whose 
pre-CMP slope was most similar to that of CMP counties. To do so, it 
was necessary to look at data from all 3,141 U.S. counties and select 
comparison counties in each State whose divorce rate was at the same 
level and declining at virtually the same rate as the CMP counties 
prior to CMP signing. The matching procedure relied on standardized 
squared Euclidean distance measures (using early divorce data) between 
CMP counties and all potential comparison counties. Population density 
was used as a second matching variable to further establish 
comparability between CMP and comparison counties. We were able to 
produce a set of counties which provided a good comparison (See figure 
1). The divorce rate decline of comparison counties in the pre-CMP 
years, on average, was .095 divorce points per year (vs. .084 in CMP 
counties). In addition, we controlled in the analysis for other factors 
that are directly related to aggregate divorce rates: percent urban, 
percent catholic, median age, median income, percent female, and 
marriage rate. We also looked at cohabitation rates as a factor.
    Our hypothesis was that the decline after the CMP was signed would 
have accelerated more in counties which adopted a Community Marriage 
Policy than in the comparison counties without the intervention. This 
hypothesis was supported by the data. In CMP counties the divorce rate 
fell .084 before the CMP and .144 afterward. But in the matched 
counties, the slope of the divorce rate decline actually fell from .095 
per year to .06 per year. This is a statistically significant 
difference (b=^.095, p=.007, df=1852). (See figure 2) Different 
analytical models produced minor differences in these results, but the 
pattern was consistent regardless of the model we used.
    We concluded from this that the CMP counties were experiencing a 
greater decline in the divorce rate than the comparison counties. The 
significant difference in divorce rate change over time between CMP and 
comparison counties persists after accounting for marriage rates, 
cohabitation rates, and a variety of key demographic measures.
    In more familiar terms, counties with a Community Marriage Policy 
had an 8.6 percent decline in their divorce rates over 4 years, while 
the comparison counties registered a 5.6 percent decline. Over a 7 year 
period, CMP communities had a 17.5 percent decline in the divorce rate 
vs. 9.4 percent in comparison counties. Thus, Community Marriage Policy 
counties have a decline in the divorce rate that is nearly double that 
of control communities (See table 1). The levels of impact would likely 
be greater if more communities had higher levels of saturation and 
implementation. That is, if more churches and synagogues signed on and 
more mentor couples were trained.
    The Institute estimates that 31,000 to 50,000 fewer divorces 
occurred in 114 cities/counties with a Community Marriage Policy. Since 
clergy and community leaders have now created 183 Community Marriage 
Policies, the actual number is likely higher.

                        ALTERNATIVE EXPLANATIONS

    We examined other possible explanations for this data, none of 
which discredited the basic conclusion that CMP counties showed a 
greater decline in the divorce rate than the matched comparison 
counties. For example, we looked at factors which often predict divorce 
rates to some degree, such as the percentage of the population which is 
Catholic (who tend to experience lower divorce rates), percent urban, 
percent poverty, percent who cohabit, etc. Controlling for these 
factors did not change the results. We also examined whether the 
marriage rates were different in CMP counties compared to matched 
counties within the same State. No evidence could be found that the 
observed differences in divorce were attributable to differentially 
changing marriage rates.
    We looked at the data in a multitude of ways, using different 
analytical models and controlling for different demographic predictors 
of divorce: the results persisted. The bottom line is that a Community 
Marriage Policy signing and the related activities associated with it 
bring down the divorce rate and creates a stronger culture for 
marriage. These results are significant, not because of their magnitude 
(which was modest) but because there are any results at all. In 
reality, the deck is stacked against finding a positive program effect 
in this setting. The effort depends on local volunteers with a high 
turnover. Local pastors also change frequently. Impact on county level 
data would require a fairly large proportion of congregations in that 
county signing on, and program implementation varies widely in its 
quality. Training of mentor couples did not begin in earnest until 
1998. In 1999 when the 100th CMP was signed, Marriage Savers introduced 
its Manual to Create a Marriage Savers Congregation, an indication that 
the program was still evolving and is relatively new. Recorded divorce 
rates lag considerably behind the intervention, making divorce rate 
changes harder to detect in a relatively new program. And, CMPs were 
adopted mostly at the city level but the data were only available at 
the county level, embedding the effect in a larger population than that 
which would be affected by the policy. Finding a significant program 
effect under these conditions would be surprising. We would expect that 
with a more complete and consistent level of implementation, better 
results would be achieved.
    Can we believe these results? Are there alternative explanations 
for the observed pattern?
    We have done several things that add rigor to the research and 
increase our confidence in the findings:
    1. Used multiple policies (122) signed at different times, reducing 
the likelihood of some chance event around the time of the policy 
signing.
    2. Chose comparison group of 122 counties matched on 5 years of the 
pre-existing decline. This helps us determine whether changes in the 
CMP counties are all that unique, and whether other factors are at work 
in these counties that could be affecting the divorce rate independent 
of the program.
    3. Developed a nationally representative model of divorce rates to 
see what factors, observed at the aggregate level, predict divorce 
rates and we then controlled for differences on these factors.
    4. Used sophisticated statistical analysis techniques (A mixed 
effects general linear model with multiple levels) to determine whether 
the slope change in the divorce rates before and after the policy would 
be different in the CMP counties than the comparison counties.
    5. Tested the results with different analysis models to determine 
if the results were ``persistent''. (It is one thing to try many 
different methods until you find the result you want. It is quite 
another to run many analyses after finding significant results to see 
if your conclusions hold up. We have done the latter).

                               CONCLUSION

    The slope of the decline in the divorce rate is steeper than in the 
comparison counties. The difference in the divorce rate change over 
time between CMP and comparison counties persists after accounting for 
marriage rates, cohabitation rates, and a variety of demographic 
measures which explain the variation between county divorce rates.

                              IMPLICATIONS

    The overall effect is modest but statistically significant and 
promising. On average, the policy counties did better than the matched 
comparison counties. The simple explanation of these results is that 
Community Marriage Policies lead to reductions in divorce rates. This 
conclusion is further strengthened by the fact that numerous 
communities have adopted the Policy at different points in time (from 
1986 through 2000), and in geographically dispersed areas of the 
country. At the policy level, we would do well to invest in and further 
investigate this and similar approaches which have the potential of 
affecting divorce rates on a large scale through community marriage 
initiatives. Local communities with reasonable effort, good 
coordination, and good programs can make a difference in divorce rates. 
Our society will be the benefactor.
    Future research of this type should:
    <bullet> Use a larger sample size (more policies, and more years of 
data following the intervention).
    <bullet> Provide for a careful tracking of program implementation.
    <bullet> Analyze program components to determine which of them has 
the greater effect.
    <bullet> Examine other Community Marriage Initiative programs.
    <bullet> Extend and further validate of the Institutes national 
marriage/divorce data set.

                               CITATIONS

    Doherty, W.J., Galston, W.A., Glenn, N. D., Gottman, J., Markey, 
B., Markman, H.J., Nock, S., Popenoe, D., Rodriguez, G.C., Sawhill, 
I.V., Stanley, S.M., Waite, L.J., Wallerstein, J. (2002). Why marriage 
matters: Twenty one conclusions from the social sciences. Institute for 
American Values. New York.
    Hart, P. (2003). Human Rights Campaign Survey. P.D. Hart & 
Associates. July 9-11, 2003. Washington, D.C.
    Parke, M. & Ooms, T. (2002). More than a dating service? State 
activities designed to strengthen and promote marriage. Center for Law 
and Social Policy. Washington, D.C.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Sessions. I have been involved in a number of 
different programs, from drugs to other things, and you do 
studies and, like you say, frequently, you are surprised that 
the numbers don't come out like you would anticipate. But these 
numbers are noteworthy, almost a 1.8 times greater decline in 
divorce, is that the way I read that, after 7 years----
    Mr. Weed. That is correct.
    Senator Sessions [continuing].----almost twice as great a 
decline in divorce over 7 years with communities that have 
Community Marriage Policies.
    Mr. Weed. Yes.
    Senator Sessions. And I guess we can assume that those 
Community Marriage Policies certainly don't reach everybody in 
the community.
    Mr. Weed. That is right.
    Senator Sessions. So you are only touching on----
    Mr. Weed. In some cases, we are fortunate if 30 or 40 
percent of the county is touched by this policy. In many cases, 
it is much lower than that. Some of the policies were well-
conceived and well-implemented and have endured over time. 
Others were much lower on the scale of implementation. But we 
lumped all of that together and still found positive results.
    So what it suggests to me is that there is promise here and 
I think that with adequate support and diligent tracking, we 
would find a greater effect than what we have reported here. 
This is, I suspect, a conservative estimate.
    Senator Sessions. Very good. Dr. Whitehead, you have raised 
a number of points in your remarks, but one I thought was 
particularly valuable for the men around, that men really do 
better--it may be more important for men in marriage than 
women.
    Ms. Whitehead. Men get a great deal from marriage, and 
across a spectrum of measures. They enjoy better physical 
health. Men suffer big drops in their physical well-being when 
they divorce, for example, much more than women. They have the 
advantage of having the supervision and support, emotional and 
physical, of their wives. And as Roland Warren suggested, being 
married does enhance a father's involvement with his children 
and really, in some ways, contributes to optimal fathering 
behavior. That just begins to chip away at some of the 
advantages for men.
    This, I think, is significant, because what we see in our 
society is that parenthood is asymmetrical in the sense that 
the mother-child bond is strong and survives many bumps along 
the way, whereas fathers, particularly when they are not living 
in the household married to the mothers of their children, 
begin to fade out of the picture. So marriage is a particularly 
important institution in attaching men to families, and men 
themselves personally benefit from this economically and 
physically and emotionally, as well.
    One of the dark scenarios that people paint for the future 
is that if we continue to have extremely high rates of divorce 
and nonmarriage, we will have a lot of isolated elderly men 
with nobody really to care for them in their declining years. 
So I think that is an important feature of marriage, certainly.
    Senator Sessions. I agree. Dr. Weed, has anyone done any 
study on the marriage penalty tax we have? I know a person that 
told me they divorced in January and she said, ``You know, had 
we divorced in December, we could have filed separate returns 
and it would have saved us $2,400.'' And I am thinking, we have 
created a system in which there is a bonus to divorce. We are 
paying a bonus. I know it is not clearly visible out there, and 
we have eliminated it now and I think we will continue that tax 
elimination, but could that have had a factor? Do any of you 
want to comment as to whether that would have had any impact or 
not on marriage?
    Mr. Weed. I have not seen data on that, Mr. Chairman. Maybe 
one of the other panel members could share something.
    Senator Sessions. I think some of the young people know 
about it and have discussed it, but it was a real fact and the 
numbers were startling. When two people, a man and woman 
working together, both working with a modest income--nurse, 
police officer--it was over $2,000 more they paid to Uncle Sam, 
Frank, than if they didn't marry. So it is a big deal. We have 
eliminated most of that today and I think that is significant.
    Dr. Whitehead, until about the time you wrote your famous 
article, ``Dan Quayle Was Right,'' there was a genuine dispute 
about marriage and its utility, wouldn't you say? Have the 
numbers--I mean, has everybody now gotten on board with the 
conclusion you have reached?
    Ms. Whitehead. Well, that is sort of a mild understatement, 
that there was disagreement. I mean, that was 10 years ago. In 
1993, I wrote that article. There was just a--I think the 
Atlantic Monthly received more letters, most of them angry, 
some threatening to cut off subscriptions, in response to that 
article than any that they had received in the last 50 years.
    So the response was enormous and I found, then, in the 
aftermath of the article that there was just great dispute, 
particularly coming from academic institutions, academicians, 
arguing the point that children overall do better in two-parent 
families, which was the thesis of the article. And in the 
subsequent 10 years, partly because there has been resurgent 
interest in family formation and family structure effects 
within this academic world, the research has led to, I think, a 
widespread consensus on this point, that you rarely hear 
argument of the kind that you had 10 years ago on the 
importance of fathers to children and the importance of married 
parent families to children.
    So to me, that represents some hope that with research and 
good evidence and argumentation, that some of these patterns 
can be turned around.
    Senator Sessions. I think that is very good news, because 
just a decade ago, we did not have a consensus that marriage 
was better for family relations, and we do have a growing 
consensus today. Mr. Warren, does that give you a sense of 
encouragement that the culture can reverse a slide we have been 
on?
    Mr. Warren. Oh, absolutely. I think it, I mean, it took us 
a while to get here and certainly it may take us a while to get 
back, but there are some hopeful trends, even in father 
absence. I think when NFI first started this work, the 
statistics were about 4 out of every 10 kids growing up in 
homes without dads. We started to see a leveling off in 1995, 
1996, to one out of three.
    But as we are fond of saying, we don't have a fatherless 
kid to spare, so there is still a lot of work that needs to be 
done around this issue. That is the wonderful thing about the 
human condition, is that we can see that we are heading in a 
direction that is not right or not in the best interests 
certainly of our children and make a decision to turn and move 
in a different direction.
    Senator Sessions. Well, we get good information. We 
eliminated the tax penalty, which was significant. We involve 
church leaders who marry people. Eighty-six percent of the 
people, Mr. Weed, are married in some religious setting?
    Mr. Weed. That is right.
    Senator Sessions. That is remarkable. Engage them, as 
Governor Keating did. How did that work? What kind of response 
did you get? You mentioned it generally, but how do you feel 
about it?
    Mr. Keating. If I may, to postscript what Dr. Whitehead 
said, at least in my environment, and I would suspect it is 
probably fairly similar in Colorado and Alabama, the reaction 
wasn't so much marriage isn't important or why do we think that 
fathers ought to be in the families or mothers ought to be in 
the families. It was, why are you preaching? I mean, why should 
the government be involved in telling us that we should have 
strong families or strong marriages?
    Well, the easy answer, which was accepted on a bipartisan 
basis, was we are all over you anyway. I mean, the fact of the 
matter is, if this marriage doesn't work out, then you have a 
judge who you don't even know who will decide who gets the kids 
and where your life savings goes and will go in minute detail 
into every bit of your affairs and decide even where the 
lingerie goes. I mean, it is somebody that you don't even know.
    The determination of child custody, the determination of 
asset distribution, I mean, we require marriage licenses. We 
require divorce decrees. So the government is very much in the 
middle of the marriage relationship, both at the start and at 
the end, and it made good sense to us to try to say, okay, if 
we are in this thing and if we are spending a lot of money, 
hundreds of millions of dollars a year, for example, in Federal 
and State funds in trying to put back Humpty Dumpty on the wall 
after relationships crash and dysfunction either created that 
crash or dysfunction followed that crash, then doesn't it make 
sense to spend some of this money, a tiny fraction of this 
money, to try to save these relationships in advance and save 
these relationships once they are established?
    The pretty well consensus answer, bipartisan consensus 
answer is, yes. The present situation is miserable. We were 
number two in divorce rate in the United States and anything is 
better than that.
    Senator Sessions. Senator Allard?
    Senator Allard. Mr. Chairman, thank you. I would like to 
thank all the panel members for their testimony and discussion. 
I think you all did a great job. Mr. Warren, I know that your 
effort on the National Fatherhood Initiative is greatly admired 
by many of us. I appreciate Governor Keating. The last time we 
met, I think might have been in Colorado. I think you were 
there and hope you get back more frequently.
    I just have a general question I would like to have all of 
you address. What is the status of a healthy family today as 
compared to, say, 50 years ago, half a century ago? Can you 
give us some evaluation on that and perhaps why you think there 
is a difference one way or the other, or maybe there isn't a 
difference. I would just like to hear some comment. Maybe we 
can start with you, Dr. Whitehead.
    Ms. Whitehead. Well, one thing that I can say that should 
be obvious is that a married couple, families today, are not as 
numerous as they were 50 years ago. There has been a decline in 
the percentage of children who grow up in married parent 
families. The majority still do, but compared to 50 years ago, 
there has been quite a drop. So people who are married are not, 
I think, as well supported, or they don't find as many similar 
families within their communities as they once did.
    I would also say that if anything, the status of being 
married today is probably more important to a couple, a 
family's stability and capacity to successfully rear children 
for two reasons. One I mentioned, which is the increasingly 
long period of youthful dependency. I am the mother of three 
children and I was still helping support my single children 
well into their 20s.
    Senator Allard. We have all experienced that to some 
degree.
    [Laughter.]
    Ms. Whitehead. Happily so, but it takes longer to get an 
education. People are marrying at later ages. So there is this 
period in between completion of formal schooling and trying to 
get traction on the job ladder where parents continue, I think, 
to try to help their children to the best they can, and 
obviously for reasons we have talked about, married parent 
families have greater capacity to do that. So again, lots of 
parents do it very well against difficult odds. So that is one 
thing.
    And then there is, I think, the fact that we live in a 
society now that is economically dynamic. People don't stay in 
a single job for a lifetime anymore. Bonds and ties are shallow 
because we move a lot. We are a big country with a diverse 
society. And so it is extremely important for individual, and 
particularly children's sense of emotional security and sense 
of kinship ties to have a stable family and to feel that they 
have an emotional center to their life.
    So people talk about family as being kind of an anchor in 
this swirling island of--an anchor in this swirling sea of 
dynamic economy and diverse society. So I think it gives them a 
sense of inner strength to have that kind of support from their 
parents.
    Senator Allard. Before I give Mr. Warren an opportunity to 
say something, I would like to follow up on something that you 
said, that we have fewer marriages today as we did 50 years 
ago. That was saying that perhaps maybe it is not as healthy as 
it was 50 years ago. I understand that, right. And of those 
that we have, are they healthier than they were 50 years ago? 
Do you see what I am driving at?
    Ms. Whitehead. There are many stresses on marriage today. 
There is some research, survey research of it and it suggests 
that people are less happy in their marriages today than 50 
years ago, even though you would think with the high rate of 
divorce that really miserable marriages would get weeded out.
    So I think that speaks to the stresses that people who are 
married encounter, the difficulty of holding together a strong 
family and a difficult economy amid a lot of social change, and 
then some of the social factors that are inimical to strong 
family ties which makes it more difficult to raise children, 
including the kind of media culture that parents face and that 
we hear about all the time, and that is across the board.
    But I think there are across-the-board stresses on families 
that may make it harder to stay married and possibly account 
for some of the reason behind the persistently high divorce 
rate.
    Senator Allard. Mr. Warren, do you have any comments?
    Mr. Warren. I think Dr. Whitehead covered a lot, but I 
would just say, certainly on the fatherhood landscape, I mean, 
we have gone from Ozzie and Harriet to Ozzie Osbourne as the 
model for fatherhood. Certainly, there were clearly issues with 
even the Ozzie and Harriet model, but my sense is that the 
landscape has not been good.
    When you look particularly at communities like the one I 
grew up in and low-income communities, it is particularly 
troubling, the absence of fathers, because I think if you want 
to turn the corner on ensuring that more kids have the best 
chance at success and if you want to even support women, 
frankly, in their roles of being full partners in the 
workplace, then you are really going to need strategies where 
men are full partners at home, encouraged and supported in that 
construct. So I think it is troubling, but I am hopeful.
    I don't know if I have an overall barometer for sort of the 
health of the family, but I do think, as a father of two sons, 
it is a more difficult climate. I think that many of the guard 
rails that were in the culture are no longer there in the way 
that they were before. In fact, instead of the guard rails kind 
of working for you, in many cases, there are some forces out 
there that are trying to pull down the guard rails that you as 
a parent are trying to put up to protect your kids and help 
your kids make healthy choices. I think that from that 
perspective, to the degree those things continue to happen, it 
is problematic.
    Senator Allard. The challenges are a little different, I 
think. Fifty years ago, you got in trouble for chewing gum in 
class. Today, it is drugs of some sort or something like that 
that you are dealing with.
    Mr. Warren. Yes.
    Senator Sessions. Different challenges.
    Mr. Warren. Absolutely problematic. And I certainly spend a 
lot of my time in the business community and there used to be a 
saying that, ``How does it play in Peoria?'' from a consumer 
marketing construct. The strategy there was, Peoria was this 
community that wasn't affected by the East Coast and the West 
Coast in terms of if you were going to test a product, you 
really had sort of a pure environment, pure from a marketing 
standpoint, an environment where you could test it and really 
get good data.
    But with the Internet, the media, and various other forces 
that are out there, there is no place that you go that your 
kids are not going to be affected by some of the more negative 
things out there that could hurt us. And that is, from my 
perspective, a primary role of fathers, to stand in the gap.
    Senator Allard. Family gets more important, doesn't it?
    Mr. Warren. Absolutely.
    Senator Allard. Governor Keating, do you have any thoughts?
    Mr. Keating. All I know is when I first met Jeff Sessions 
23 years ago, he had a cute young thing for a wife, I had a 
cute young thing for a wife. We are still happily married, and 
I don't know what made it possible, but I guess we lucked out 
and found two special, two very spectacular women.
    To the extent that families and mentors and friends can 
preach this subject, we need to do that. But let me tell you, 
in my inaugural message when I first raised these issues, I 
said something to the effect, tell me the wisdom, tell me the 
sense of a system where it is easier to get a marriage license 
than it is to get a hunting license? You have to take a course 
to get a hunting license. Or tell me the sense of a system 
where it is easier to get out of a marriage relationship, 
marriage contract with children, it is easier to get out of 
that than it is to get out of a Tupperware contract.
    We basically have taken the view that marriage is a throw-
away--default divorce was a terrible blunder, and I was a part 
of that. I was a legislator in Oklahoma in the early 1970s. We 
all figured, well, you know, we ought to just get away from bad 
situations. As it turned out, the first argument means reject 
her or reject him, and that simply is not the way to develop a 
stable life, a stable family, and a stable society.
    So to debate these issues today at the Federal level and 
the State level, to get the best research, to join the debate, 
men and women, Republicans, Democrats, Independents, whatever, 
everybody in every social status, every social class, I think 
for the safety and security of the country is very important.
    Senator Allard. Thank you for coming. I sort of have to 
join with you and Senator Sessions. I feel blessed by a 
wonderful wife. We have stayed hooked ever since, oh, since we 
first took our vows.
    Dr. Weed?
    Mr. Weed. Two thoughts, Senator Allard. One is really to 
reinforce Roland's point about the changing landscape in terms 
of what our kids face and deal with. He didn't mention, but I 
am sure has thought of the effects of the Internet, for 
example, and the things that are available to kids now were 
unheard of when I was growing up. It is just an amazing amount 
of bombardment that kids and families are exposed to.
    So to safeguard that, the family is the best safeguard 
against it. A lot of my research is in the area of teen 
pregnancy prevention and kids, girls from single-parent homes 
are five times more likely to have an out-of-wedlock teen birth 
than kids in a two-couple family. These things are all related. 
As the culture begins to grasp the realities of that, I am 
hoping that we can pull it back together.
    The other thing that I would comment on is that prior to my 
research emphasis in my career, I did a lot of counseling and 
marital counseling work. I guess I came to the conclusion, 
perhaps overly simplistically, that the most important and 
fundamental factor that kept families together was a commitment 
to the idea and the institution of marriage.
    I remember one lady in particular who said that she was now 
contemplating her fourth marriage. It turned out she did not do 
it. She stayed married to her third husband. Her decision, her 
conclusion after all of this wrestling around was ``if I had 
worked as hard at my first one as I did at the third one, I 
would still be married to the first one.''
    So the idea of marriage as an institution and placing it 
with high value and giving it status and recognition and 
support and encouragement and preparation and creating a 
greater sense of commitment to that as an institution, I think 
would go a long ways toward moving us in the right direction.
    Senator Allard. And actually, your community initiative 
that you talked about in your testimony, in effect, that is 
what you were doing to those communities where you had the 
problem. You were elevating or emphasizing the importance of 
marriage more, which wasn't happening in other communities. I 
think that is----
    Mr. Weed. That is correct.
    Senator Allard [continuing].----the thing that made the 
difference. Don't you think that was----
    Mr. Weed. That is correct.
    Senator Allard. And people focus in on that, and so they 
are more willing to kind of work out their differences and work 
together as a team.
    Mr. Weed. I think that is true. I think the dynamic of it 
is that when a couple comes in and the person who is going to 
marry them says to them, this is a serious commitment and how 
ready are you and here are some steps that I think you should 
take in preparation for that, all of a sudden they say, gee, 
this is a bigger deal than I thought. I had better take it more 
seriously. So I think that does happen, as you have described 
it.
    Senator Allard. Mr. Chairman, I have some more questions 
but I know my time has run out so----
    Senator Sessions. We have got such a great panel.
    Governor Keating, I will ask you this and see what you 
think about it. I remember a great lawyer in Mobile. He wrote 
the Bar bulletin editorial and he railed against no-fault 
divorce. People laughed at him. We all thought that was old 
fashioned. He is a brilliant man. It is J. Ed Thornton.
    Do you think the changing of divorce so radically from a 
fault-based system to a totally no-fault system was more 
significant than just that legal change, that it led the 
culture in some fashion? And if you would like to, you might 
comment on the same-sex marriage issue. Would that have a 
cultural significance beyond just the legal matter at stake?
    Mr. Keating. I happen to believe that marriage is a state 
between a man and a woman, but that said, the default divorce 
or no-fault system basically said that this was a lesser 
important contract than many other contracts. You know as an 
attorney, and Senator Sessions and I were U.S. Attorneys 
together back in the early 1980s, but if you have a bilateral 
contract, there are obligations between two people. In the 
default divorce or no-fault divorce environment, basically, it 
is mutual incompatibility, but it means one person's 
incompatibility. I just don't like you anymore, for any reason. 
I am walking away.
    I think many of us reflect, and in my State, we weren't 
able to make any changes there because there still is that 
feeling, well, if they can't get along, they shouldn't be 
married. But many of us were of the view, and I am very firmly 
of the view, that if we think that the marriage contract is the 
most important contract two individuals can enter into in the 
United States, then it ought to be more difficult to get in and 
it ought to be more difficult to get out.
    In other words, you ought to have sense and preparation to 
get into it. Certainly, as in the case of premarital contracts 
for individuals who lose a spouse, those are only solid when 
both people have a full awareness of what this asset mix is. 
Well, people need to have a full awareness of what this marital 
relationship means.
    But to get out, there ought to be fault. We had in my State 
a list, you know, violence, drug abuse, abandonment, those 
kinds of things that you had to show before you could walk 
away--one of those things--before you could walk away from the 
marriage. In the trendy 1970s, we felt that that was certainly 
old fashioned and we were going to get rid of it. As I said, I 
was a part of that and I think it was a terrible mistake, 
because I think that accelerated people's view that the 
marriage contract was not as important as a Tupperware contract 
to society's great chagrin.
    Senator Sessions. Ms. Whitehead, would you like to comment 
on what that signaled?
    Ms. Whitehead. Well, I do agree that there was cultural 
momentum behind the no-fault divorce revolution. The only other 
point I would like to make is that once--one of the lessons of 
the no-fault divorce revolution, I think, is that once these 
changes become institutionalized, it is hard to change. It is 
hard to reverse them. Although there are some interesting ideas 
about divorce law reform--a longer waiting period, some 
introduction of fault, particularly where dependent children 
are involved--it is a hard sell in the State legislatures.
    So it is just another lesson, and I agree with--I wrote a 
book on the divorce culture and I think that there are 
measurable effects of divorce and then there are cultural 
effects of divorce. I agree with Governor Keating that one of 
the major cultural effects was to change our idea about the 
norm of permanence in marriage so that marriage became an 
easily disposable contract, and that changed a lot of things 
even generationally, so that kids today have a different 
conception of marriage and the ease with which one gets into it 
and gets out of it as well as a fear of divorce that makes them 
reluctant to marry that our generation simply did not have.
    Senator Sessions. Dr. Weed, would you like to comment on 
no-fault divorce?
    Mr. Weed. Well, from a research perspective, we tried to 
account for that statistically rather than analytically. That 
is, we made sure that when we matched our counties up for 
comparison purposes, they came from within the same State so 
that the same legal system would be operating. So we can't 
explain the effects of it. All we can say is we accounted for 
it and it doesn't change our results.
    Senator Sessions. It doesn't affect your results and you 
are not expressing an opinion as to whether or not there was a 
cultural signal that marriage was no longer permanent when we 
removed----
    Mr. Weed. Oh, as an opinion, yes, I would express that. I 
just don't have the data to support it.
    Senator Sessions [continuing]. With regard to the 
educational initiatives that could strengthen marriage, I mean, 
I was traveling last week with a lady that works for me, 
Valerie Day. She is an African American. She and her husband 
are vitally interested in marriage and they counsel at their 
church, premarital counseling and when families have trouble. I 
said, why you? She said, well, they say that people think we 
have a good marriage and we have credibility and we just do a 
lot of it.
    She has talked about the same problems--money, sex, power, 
lack of communication. I guess she said money, lack of 
communication, sexual relations falling apart as a result of 
problems with the first two, is her experience. Can premarital 
counseling and education lessen those stresses and help people 
cope with the inevitable difficulties that occur? Dr. Weed, you 
have counseled yourself. I will ask you.
    Mr. Weed. The answer is, yes, it can help, but I think it 
is also important to point out that it is not only prior to 
marriage that people need support and help in marriage. There 
are troubled marriages that need help. There are reconstituted 
families that need help, step-families, step-parent situations.
    So I think that when we think about policy-level 
strategies, we ought to think about not only the preparation 
period, but also, as we might describe it, the life cycle of 
marriage and the stages and phases that it goes through. We can 
do a better job not only in preparation, but in support of 
married couples and families throughout that life cycle.
    Senator Sessions. Dr. Whitehead?
    Ms. Whitehead. One particularly important point to support 
married couples after they have been married is with the birth 
of the first child, because that does change the marital 
relationship. The mom usually falls in love with the baby and 
the father very often feels neglected or he has to assume a new 
role. Because the expectation is that the family is overjoyed, 
as they are with the birth of a child, it is hard to 
acknowledge that it also changes the spousal relationship.
    So some of the good--and a good idea about marriage 
education and marriage skills training has to do with 
intervening at some of these key crisis moments in the 
marriage, and that is one of them. I would suggest, having been 
through it myself, that another might be when the children 
leave home.
    Senator Sessions. Any other comments? Governor?
    Mr. Keating. When our daughters turned 15, then I needed 
counseling.
    [Laughter.]
    No, I would say this, Mr. Chairman. I think that as a 
consumer of marriage counseling services, I think it is very 
important to say to the society at large, it is not an 
embarrassment to admit that in the course of a long marriage or 
not-so-long marriage you need help. Cathy and I have had 
counseling and it has strengthened our marriage. It has made 
us, I think, understand what each of us generally need, but 
each of us had made mistakes and it was important to correct 
behavior so that we could have a stronger marriage and be 
better parents, because obviously if the parents are clashing 
frequently, the children are bloodied.
    But I think as Governor, I made it abundantly clear that 
marriage counseling is good and people ought to not have so 
much pride as to say, well, I don't need some other person to 
tell me what I am doing wrong or how I could improve. We ought 
to be willing to listen to other people.
    Senator Sessions. Wayne?
    Senator Allard. I do not know whether I have the expertise 
on this, but I will try this question. Maybe this is a matter 
of perception for members of the panel, but if you were to 
compare judicial marriage here in America as compared to other 
countries, is our marriage uniquely American, or what we are 
experiencing here in this country, are we seeing the same 
trends worldwide? And if not, I'd like to have some comments 
why. Would any of you like to comment?
    Ms. Whitehead. Well, we do know that these trends are not 
unique to American society, that in other advanced European 
nations, we see some of the same patterns, increases in 
cohabitation, high levels of divorce. Until recently, maybe 
even still today, we do have an exceptionally high rate of 
unwed teen parenthood. And in general, the weakening of 
marriage as a form of lasting partnership. Similar trends in 
England, in certainly the Scandinavian countries, though there 
are different reasons perhaps there, and so yes, these are 
global trends, and perhaps others would--I have a few ideas 
about why that is so, but----
    Senator Allard. Would you like to share them?
    Ms. Whitehead [continuing]. One reason is cultural. It has 
to do with, I think, a greater--a loss of some of those key 
institutions of social life in the family, greater 
individualism. That is a very good thing in many domains of 
life, but perhaps when it comes to the family domain, it can 
have negative effects.
    The pressures of surviving in a difficult and turbulent 
economy would be another factor. But also, one of the 
exceptionally--one of the differences between our society and 
many of the--Canada and some of the Western European nations is 
that we are a more religious society, and some scholars believe 
that that is an advantage in sustaining or giving us at least a 
chance at renewing our family life. So, though we are 
increasingly secular, but still, compared to the other nations 
and societies, more religious.
    Senator Allard. Mr. Chairman, I was struck by the comment 
about the lessening importance of marriage, less emphasis on 
the institution. We saw over here with Dr. Weed's study where 
they emphasized the importance of things that all seem to kind 
of strengthen the institution. That is a very important 
concept.
    I think that is one of the more significant things I have 
gotten out of this hearing. I think that is a very important 
concept. I think we need to continue to stress the importance 
of marriage. I like to think of it as a building block. It is 
fundamental to our country, and if you have a functioning 
family, there is less need for government and that does have an 
appeal. So I think it is something that we need to continue to 
emphasize.
    Thank you for letting me join here on the committee. I want 
to thank the panel members.
    Senator Sessions. Thank you so much. This has been an 
extraordinarily valuable hearing, I believe. It deals with an 
important subject, and I came away with the feeling more than I 
have in many years that we actually can make a difference. We 
do not have to preside over the total collapse of the American 
family.
    I remember riding in the subway about 6 years ago with the 
great Senator and professor Daniel Patrick Moynihan, and he 
said, in the history of the world, we have never seen anything 
like the collapse of family that we are seeing today, and he 
was concerned about it.
    But we don't have to yield to these trends. I believe that 
if we talk about it openly, if we talk about the advantage of 
marriage that appears to be pretty indisputable, we talk about 
the advantage for children in marital relationships, as the 
Fatherhood Initiative is dedicated to, if we look at our 
economic tax policies, if we look at our welfare policies--as 
Mr. Horn is trying for the first time to really put some 
marriage component into welfare reform instead of just having 
it purely economic, but have a cultural-social connection 
there--and if we engage in education and counseling programs 
through churches and through government and through 
encouragement of that kind and we just basically stand up and 
affirm the institution, I don't think this trend is inevitable.
    I think America can preserve marriage. And for those who 
don't want to marry, they are perfectly free not to do so. But 
choices do have consequences and the numbers that we have seen 
today indicate that, by and large, people do well and better 
when they live in a stable family environment.
    Is there anything else that you feel like you would like to 
add? I would just note that the record will remain open for 2 
weeks for questions and submissions that you might like to 
offer. Mr. Warren, I would like to place in the record the 
publications you have brought, particularly that one on 
government activities, what can be done.
    Mr. Warren. Thank you.
    Senator Sessions. If there is nothing else, we will stand 
adjourned.

    [Editor's Note: Due to the high cost of printing previously 
published materials submitted by witnesses can be found in the 
committee file.]

    [Additional material follows.]

                          ADDITIONAL MATERIAL

               Prepared Statement of Stop Family Violence

                WELFARE REFORM AND MARRIAGE INITIATIVES
                            MARRIAGE DIARIES

    Pending legislation that would reauthorize the Temporary Assistance 
to Needy Families (TANF) Program includes a proposal by President Bush 
to spend $1.5 billion on government marriage promotion programs. This 
proposal is a waste of taxpayer money that will increase the risk of 
domestic violence, fail to stop the rise in poverty, and do nothing for 
the institution of marriage. Women are 40 percent more likely to be 
poor than men. And women on welfare need education, job training and 
child care more than ever to be able to compete in the marketplace. To 
squander $1.5 billion on unproven programs urging marriage upon poor 
women, particularly in this economy, is fiscally foolish and morally 
reprehensible.
    Tennessee--``If it were not for shelter, food stamps, and other 
assistance it would have been impossible for us to survive. I had no 
car when I left my parents' for the second time. I had nothing but what 
I could carry for my child and myself. That was 14 years ago. I now 
have a home, a van, and some better things in life. Without the help 
that the State offers women like me, what would the children have?''
    Of particular concern are the increased risks of domestic violence 
associated with such a program. The reality is that as many as 60 
percent of women welfare recipients are survivors of domestic violence. 
These women need economic security so they can escape abuse, not 
government pressure to remain with their abusers. The Administration 
claims that it would never pressure someone to marry, or remain with, 
her abuser. But there are no provisions in the House marriage promotion 
proposals to ensure that officials will screen out couples in abusive 
relationships. It is therefore vital that if marriage promotion 
provisions are ultimately passed, the protections included in the 
Senate bill be retained and or strengthened and be included in any 
final welfare reauthorization bill. Trying to escape an abusive 
relationship can be one of the hardest things for a woman to do, 
particularly when a women is financially dependent on her abuser. Women 
need to hear about how to leave the relationship, not get lectures on 
how to work through typical marital strife or cash incentives that risk 
further danger.
    Connecticut--``Public assistance was the only money that I had 
during the relationship to put food in my children's mouths . . . 
afterward, it was the only way I was able to regain custody of my 
children and put my life back together. I went to school and finished 
my education and now am a professional, working a full-time job.''
    Government marriage promotion sends the message that the way out of 
poverty for women is dependence on someone else to act as a 
breadwinner, rather than economic self-sufficiency. They divert welfare 
funds from basic economic supports; coercively intrude on private 
decisions; place domestic violence victims at increased risk; waste 
public funds on ineffective policies and inappropriately limit State 
flexibility.
    Massachusetts--``There is never any reason for a woman to remain in 
an abusive relationship. The best thing that a woman in poverty or an 
abusive situation can do is to get out of it by becoming self-
sufficient. With the help of the government . . . we can empower abused 
women to make a life for themselves without the `help' of an abusive 
partner.''
    These Marriage Diaries have been collected by the organization Stop 
Family Violence, and they provide real examples of how critical it is 
not to coerce women into marriage as a means to move them out of 
poverty, but rather to provide them with education, job training, child 
care, domestic violence-related services, and health care--programs 
that will help move them out of violent relationships, as well as out 
of poverty. Unproven marriage promotion programs divert precious funds 
away from what we know works.
    Inside, you'll find narratives submitted by women from Alabama, 
Connecticut, Iowa, Kansas, Massachusetts, New Mexico, New York, North 
Carolina, Tennessee, Vermont, Virginia, Washington, and Wyoming. These 
powerful stories (a small sample of the hundreds received from around 
the United States) show the importance of public assistance--including 
education, training, counseling, child-care, food stamps and health 
care--in helping women escape domestic violence and become self 
sufficient. For more information on marriage promotion, as well as 
diaries from other States, please contact Irene Weiser at Stop Family 
Violence at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97fee0d7e4e3f8e7f1f6fafefbeee1fef8fbf2f9f4f2b9f8e5f0">[email&#160;protected]</a> or visit 
www.stopfamilyviolence.org.

                                ALABAMA

    As a strong supporter of many things our government has done to 
maintain our liberty as Americans, I strongly disagree with the program 
that encourages low-income mothers to get married. I have worked for 
2\1/2\ years for organizations that support and advocate for victims of 
domestic violence. I have seen victims controlled emotionally and 
physically, to the point where they don't feel life has purpose. I have 
seen women murdered by their intimate partners because he wanted 
control over them.
    Since research has shown a strong correlation between poverty and 
domestic violence, I believe that encouraging marriage for low-income 
mothers could be very dangerous--even deadly. Although I do believe 
strongly in the sanctity of marriage for couples in healthy 
relationships, promoting this program allows a perpetrator to maintain 
control over his victim. Therefore, I plead that this program be 
dismissed or reevaluated to ensure that more people do not become 
victims of the crime we know as domestic violence.
    I am a counselor, and I have worked primarily in the community as a 
Vocational Adjustment Counselor. In that role, I have helped people 
with disabilities to enter or re-enter the education system or the 
workforce. I have worked with many women who [have] become disabled 
(mentally and/or physically) as a direct result of domestic violence. 
These women absolutely had nowhere else to turn financially during 
their time of escape and healing but public funds. I was glad to be 
part of the process as they continued to heal and entered the education 
system or the workforce, many for the first time as they had worked 
without pay in their homes for years. The most detrimental, cruel, and 
ignorant thing I could have told these women, as their counselor, was 
to return to the abusive situations that contributed to their 
disabling, sometimes near-fatal outcomes. It's simply irrational and 
has nothing to do with family values. Forcing marriage, as some kind of 
superficial political bandaid fix is not good for women; it's not good 
for children; it's not good for violent perpetrators who are never held 
accountable or taught a better way. It's not good for my community. I 
know because I work hard in my community trying to make it a better 
place.

                              CONNECTICUT

    I was involved in a relationship with a man from another country, 
who in a very short time became very abusive. I suffered broken ribs, 
nose, wrist, cheekbone, and fingers. Public assistance was the only 
money that I had during the relationship to be able to put food in my 
children's mouths. . . . [Afterward it was] the only way I was able to 
regain custody of my children and put my life back together. I went to 
school and finished my education and now am a professional, working a 
full-time job. My children are honor roll students and contribute 
regularly to the community to help those that were once in our 
situation. This man did want me to marry him--the man who did things 
like burn me, whip me with an electrical cord, smack me over the back 
with a crow bar, sexually assaulted me with a screw driver--all of this 
while I was pregnant. What would have happened if I had married him.) 
Well, maybe the next time he played Russian roulette with me I would 
not have been so lucky and my children would have been bringing flowers 
to me at a cemetery on every holiday.

                                  IOWA

    Growing up, I knew that the relationship between my mother and 
father wasn't good. He was physically and emotionally abusive to her, 
and I remember hearing their yelling and him hitting her at night. I 
remember one morning, I woke up and found her in the bathtub, bruised, 
and covered in vomit--he had beaten her unconscious and she threw up 
all over herself. I was 5 years old. He sexually abused my sister and 
I, and even 20 years later we are both still dealing with the 
consequences of HIS actions. Mom tried to get help from family on both 
sides, but they all told her that she needed to keep her mouth shut, 
[and] be a ``better wife.'' When I was 6 years old they finally got 
divorced, and the three of us were on our own. Dad was only ordered to 
pay $150 per month in child support, which was not nearly enough to 
cover our needs. My mom was humiliated the day she had to go in and 
apply for welfare, and cried the first time she used food stamps in the 
grocery store. That government assistance helped provide childcare and 
meet our basic needs so that mom could go to work. Welfare gave us 
enough of a cushion that she could take that leap to self-sufficiency. 
Over the next year, Mom worked three jobs (simultaneously) and was able 
to get off of welfare. She was lucky that she already had a college 
education--jobs would have been a lot scarcer without that.
    Women and children cannot be expected to stay in situations where 
they are hurt and exploited. Promoting more marriage is NOT the answer! 
In doing this, you are telling women that their government (which is 
supposed to protect them) would rather see them beaten and their 
children raped than help them achieve a better life. Please continue to 
help these women and children, as government assistance helped my 
family all those years ago.

                                 KANSAS

    In my first marriage I had no access to money to leave. My husband 
controlled the finances. He counted my change from the grocery store. I 
got three different jobs in 2 years. He called one and told them I 
quit. He beat me up so bad that I was fired from the second one for 
missing work. I finally got out with the third one.
    My second marriage was abusive as well. I believed in working for a 
good relationship. My husband and I attended church regularly. When he 
started beating me I thought the minister could help. The minister told 
me he was a good guy and I should give him some time to change. I did, 
but the abuse continued. I tried to leave him several times. Once I got 
away for 4 months. I was living on my own and started attending a 
different church. My husband started attending the new church as well, 
even though I had a restraining order against him. The minister there 
was impressed with my husband's work ethic and contribution to the 
church. He encouraged me to give him another chance. He said he would 
provide counseling. In the counseling the minister told my husband he 
was wrong, that his actions were a sin. But he counseled us together 
and never spoke to me separately. He never asked me if things were 
still going well. They weren't. He was becoming more and more 
unpredictable. I wanted to move away, to leave him, but I had no money. 
I worked a good job and made over $30,000 a year, but my husband 
refused to pay any of our bills and continued to run them up. I was 
only able to escape when a friend offered me a place to stay in another 
town and enough money to move. I also was able to get a new job in the 
new town. Without those things I would have been forced to continue 
being a good wife, being raped, and being beaten.

                                 <LOZ>

    I was married to a verbally abusive man [who] also an alcoholic, 
which explains a lot of what happened, and is still happening. Verbal 
abuse does not show any physical bruises, but there are definitely 
bruises of another sort. I divorced this man over 6 years ago, but our 
four children are still suffering. After I left him with our four 
children (whom he had heavily influenced against me), I was in a low 
paying job, renting a two-bedroom house, not receiving any child 
support, and on welfare. At that time, welfare was the only way l could 
support my four children. My ex-husband called me awful names in front 
of our children and in the front yard of my home when he would come 
pick them up for his visitation. This continued until I obtained a 
better paying job and could move away from him. I was able to get off 
welfare at that point. But the verbal abuse continued, by phone and 
email. After he called me a b*** on the phone to our daughter, I 
charged him with harassment. He pled guilty and was ordered to go 
through anger management, but it was nothing more than a slap on the 
wrist since it was not enforced. He filed for a change of custody after 
our children had been with me for almost 5 years. He lied to the court 
about his work history, and was successful in coercing our children 
into hating me. Now, he has another failed marriage, been through 
alcohol treatment for only 5 days, still drinking, and my children have 
finally seen him for what he really is. I have been remarried for 5 
years and am in a successful job.
    I did not want to be on welfare because I knew that was not what 
would sustain my children or me. I had an education before all this 
began so I just needed to put it to use after I could get out of the 
chains of the verbally abusive relationship. I remarried because I 
found someone who was loving, patient, and not abusive. He has helped 
me to overcome some of the abuse. But he has been very patient in this 
process, since I still have a lot of the abuse to work through. As I 
said before, verbal abuse does not show physical signs, but there are 
definitely scars that remain far longer. Many women have come from 
abusive relationships but did not have the education I did, these women 
need opportunities to gain [an] education [in order] to allow them to 
better themselves and become self supportive for their children as 
well. There must be a way for women to gain success from within 
themselves. Forcing them to marry when they are not ready or to try to 
remedy another situation is not the answer. My success came from me, 
not from the government or any government program. Do I still have the 
verbal abuse to contend with from my ex? YES. This will always be there 
until HE learns how to help himself. No government program will stop 
him from being abusive. What have my children gained from this? From 
their dad, hate. From their mom (me), unconditional love and support. 
They now realize I have been there all along for them. But they still 
have scars, just like me.

                             MASSACHUSETTS

    I have not personally been a victim of domestic violence, but I 
work at a social service agency that offers, among other things, a 
domestic violence program and mental health counseling. A cardinal rule 
that we abide by here is to not offer marriage or couples therapy to 
couples with a history of domestic violence. There is never any reason 
for a woman to remain in an abusive relationship. The best thing that a 
woman in poverty or an abusive situation can do is to get out of it by 
becoming self-sufficient. With the help of the government and agencies 
like mine, we can empower abused women to make a life for themselves 
without the ``help'' of an abusive partner. The proposed budget for 
this plan would be much better spent on education, child-care and 
career counseling.

                                 <LOZ>

    I'm a therapist who currently works in a battered women's shelter; 
prior to this I did family stabilization (short-term, intensive home-
based work with at-risk youth and their families). While the vast 
majority of my clients have been poor, single-parent families, the idea 
that marriage will come to their rescue and to imply in any way that 
the lack of a legal commitment is the root of the problem is 
pathetically naive and absurd. These women do not need a legal 
commitment to a man who is also poor, who is often abusive, and often 
abusing substances. First of all, good luck even finding the father(s) 
of the women's children. These are women whose lives are often at risk 
because these men have been at worst dangerous and violent, at best 
irresponsible and non-committal. How about starting with teaching boys 
to be responsible, caring, sensitive, committed partners and teaching 
girls to be empowered, in control of their own lives, teaching them 
they have choices? How about starting with quality, honest, sex 
education that includes information about birth control and HIV 
protection? How about expanding outreach and mental health services in 
schools and communities so that the trauma epidemic can be addressed 
and young people can heal and get in the driver's seat in their lives? 
What century does Bush think he's living in?

                                 <LOZ>

    I am a social worker in Massachusetts and have been working 
primarily with low-income Latino women for 14 years. I know from 
listening to [the life stories of] many women that domestic violence is 
rampant in our society. Keeping women in an abusive relationship 
victimizes children, and is not the answer to poverty in our society. 
Taking financial resources away from mothers only further ensures that 
the next generation will continue to live in poverty. Supporting 
marriages will not solve the problem of poverty. This is my firm belief 
after spending my entire working career listening to the life stories 
of women of color living in poverty.

                                 <LOZ>

    ``In 1980 I divorced my first husband because he was a violent 
alcoholic. Back then, there was a program called the W.I.N. Program, I 
believe it stood for Women In Need. This program was handled through 
the local welfare office in Southbridge, Massachusetts. The program 
allowed me to attend a secretarial program at the MacKinnon Training 
Center, it reimbursed me for my mileage, provided day care for my 3-
year-old son. It also helped restore my self-esteem and self-worth. 
Before completion of the course, I finished all the necessary 
curriculum and was hired on a temporary basis at a hospital as a ward 
clerk to fill in for someone out on maternity leave. I took the 
position to obtain the experience and to have something on my resume. 
However at the end of the 8 weeks she decided not to return and the job 
was offered to me. I stayed at the job for 5 years, during which time I 
passed the National Unit Secretary Exam. I then went to work for my 
local school department in the Business Office, starting out as a 
clerk, I worked there for 16 years and left as the Secretary of the 
Assistant to the Superintendent, transferring to the Police Department 
as Records Clerk. By the way, I have been remarried for the past 17 
years. I do know that should anything happen to my husband, I can and 
will be able to take care of my daughter and myself.
    So instead of looking to marry off people on welfare, you should be 
looking to make them productive human beings with a sense of pride and 
purpose. Those people will then pass on to their children the same 
sense of pride and purpose making this country a more productive place. 
I strongly agree that there needs to be welfare reform. However, I take 
GREAT OFFENSE to the Cupid Project as another male way of insulting and 
degrading the women of America. Our Constitution states, ``All men are 
created equal . . . .'' Let us all live by that and provide single/
divorced parents, male or female, with the assistance and education to 
support their families instead of just marrying them off and making 
them a MAN'S responsibility.

                               NEW MEXICO

    I am Kayla Michael. Ten years ago, my mother and older brother 
forced me to marry the man that had impregnated me. He was 30 and I was 
19. It was a ``shotgun wedding'' at the courthouse. During the year of 
living with that man, I was mentally, emotionally, and physically 
abused in the worst way. I was locked in the house with my baby son (no 
food). When I heard about the women's shelter on the radio, I packed 
one grocery bag full of baby things, broke out of the window, and went 
there.
    [I spent] 3 months in the women's shelter, a few months homeless, 
[and] 2 years in the homeless housing projects. During that time, I 
entered and graduated UNM. [I] got a job as a social worker. [I] am 
still a social worker, working with victims of domestic violence. When 
you have kids and you're poor, as welfare mothers are, you don't find a 
nice man to marry. The welfare mothers that marry, marry abusive men. 
Abusive men seek us out, we're vulnerable.
    I have never received child support and have never been able to 
afford a lawyer at all. A better idea (instead of making us get 
married) would be to provide us legal assistance to obtain child 
support from the fathers of our children. (And to file for divorce for 
us.)
    Thank you,
    Kayla Michael

                                NEW YORK

    ``Hi, my story will be a little different. I was a child recipient 
of food stamps. I am 41 years old and my parents divorced in 1972 when 
it was very difficult to get a divorce. My mother showed great courage 
in doing so. My father, like so many, never paid child support after he 
left. He then moved out-of-state and court orders did not go past State 
lines at that time. My mother had married right out of high school and 
never had a full time job. She worked for minimum wage in a factory. 
She then put herself through nursing school while raising the remaining 
two of five children, with myself [being] the youngest. I started doing 
``chores'' in the neighborhood at age 11 and full-time summer 
babysitting at 12. I paid for all my clothes and anything else I 
needed. We also got free lunch at school. Without those programs, 
survival would have been at the barest level. Had the government 
``encouraged'' my mother or rather ``forced'' my mother to stay married 
by elimination of programs, my life would have been totally different. 
As I said, I am the youngest female of five children. Because I watched 
my mother walk away, I am the only one out of five to not be in 
unhealthy relationships. My sisters followed my mother and were married 
and [became] mother[s] by 21. My brothers have both had multiple 
marriages, children, stepchildren etc. I saw a different way of life. 
Growing up with a single mother is not easy, but you band together and 
it was certainly better than the constant fear. My father was a high 
functioning alcoholic and abusive. We had a beautiful home, went to 
church, had the right friends and to the outside world, looked great. 
The inside was a nightmare. I learned from that and watched my mother 
take control of her life. I did the same. I am the only one out of five 
with a bachelor's degree. I worked my way through school. I was 
determined to never be dependent on a man. That it would always be my 
choice to stay with someone. The trickle down effect, in that I sought 
help, educated myself and now am happily married in a healthy 
relationship raising two wonderful kids. I broke the cycle. My children 
and grandchildren will never know the realities of that kind of life, 
because my mother was able to leave with the help of free lunch and 
food stamps. Forcing people into ``survival marriage'' is opening the 
gateways to hell that so many have worked so hard to shut.
    Susan Morgan-Rosicka, New York

                                 <LOZ>

    ``The times that I was on welfare were when I was married. I tried 
marriage twice and was on welfare for 3 years with the first marriage 
and for a few months in the second marriage. Now that I am single I 
have not been on welfare for over 14 years. When I was able to get off 
welfare it was because I became educated. I am now an R.N. I don't 
think I will ever be on welfare again. I needed welfare because the two 
husbands I had, wanted children and then didn't support them. I didn't 
want children. The first marriage was dangerous. I was physically and 
mentally abused and he threatened to take away my girls if I left the 
marriage. It took years and some risky steps to achieve a divorce. I 
have been the soul supporter of my family, neither ex-husband paid 
child support. If anyone thinks a husband is the answer to support the 
children, they need to look at the specific situation much closer.''

                             NORTH CAROLINA

    ``I am a disabled vet, a single mother, and an unmarried survivor 
of an abusive relationship. I was married to an abusive man for 9 
years. I would have done almost anything (at that time) to make my 
marriage work for the sake of my child. Indeed, I actually did, 
including marriage counseling in which my husband lied to the therapist 
about the abuse in every session. My last straw incident was October 
12, 1996, being smacked in the face in a vehicle he was driving after 
he attempted to break my arm (again while driving the truck) in front 
of our daughter.
    The only reason I was able to change my life, Thank you God, is 
that two friends who had been in abusive relationships and are married 
to each other (heterosexual) made me come to their house when I called 
after the incident, showed me both of their files about their 
respective abusive ex-spouses, and all the help that was available to 
them and to me to get out of the abuse. Because of their direction to 
programs: domestic violence shelter and the empowerment classes, child 
support enforcement through DSS, and the protective order and ex-parte 
order in the State of North Carolina, I was able to extricate myself 
from this horrible and dangerous marriage.
    Because of those programs, and my friends, I gained the support and 
courage I needed to go back to school and get my masters degree in 
family therapy, gain an immeasurable understanding that if I did not 
make my health (emotionally and physically) the utmost priority, I 
would chose another abuser and stay in that pattern. As a result of my 
education, I was able to transcend my abusive past, work for 3 years on 
the domestic violence council, and am now screening for family 
violence, providing personal safety plans, and linking victims (male 
and female) to programs to get healthier.''

                               TENNESSEE

    My name is Kathy McCann and I am a survivor. I was sexually abused 
as a child, which is one of the reasons [why] I married my first 
husband. I wanted to leave my abusive home and he seemed to be the man 
of my dreams. He turned out to be a nightmare. I was not allowed to see 
my family. I was not allowed to drive. I could not work because he 
would not let me, the one time I got a job he forced me to quit because 
I made more money than he did. After 3 years of beatings and being 
sexually abused by him, I left. I was lucky or unlucky to have a place 
to go. My parents let me stay with them. I tried to go back to school 
to get an education. After 3 years of being told I was stupid, I had 
something to prove to myself. My parents agreed to watch my two small 
children and help me get through college. That did not happen because 
my father began beating my oldest son. I had no choice but to be 
homeless once again. If it were not for shelters, food stamps, and 
other assistance it would have been impossible for us to survive. I had 
no car when I left my parents for the second time. I had nothing but 
what I could carry for my child and myself. That was 14 years ago. I 
now have a home, a van, and some of the better things in life. Yet, my 
first husband still does not pay child support that has been ordered 
through the courts. He still is not helping raise his children. Without 
the help [that] the State offers women like me, what would the children 
have? He is no dad, and never will be. I have been trying to get this 
support for the children, but every time we track him down and get the 
order for the company to pay the support, he quits his job, leaving me 
to raise the children. His abuse will never end, and it is a shame that 
my children suffer. I am thankful for all the help I get from the State 
and without it I do not know where we would be today.

                                VERMONT

    Marriage is not the answer. Believe me I know. I married just 
because I was pregnant and I would never have left if it wasn't for 
public assistance. I was so afraid I would never have made it on my own 
if I didn't have the help and support programs out there for single 
mothers with children. Marriage, especially, with abusive 
relationships, only gives more power to the ``man.'' He thinks he has 
the control and essentially he does.

                                 <LOZ>

    Twelve years ago I dropped out of college to marry a man I thought 
I loved. I thought, since I was expecting our first child, that I was 
``doing the right thing.'' I ended up in a marriage to a man I really 
didn't know. My husband was controlling and abusive. So here I am, 
trapped with one son and another one on the way, always living in fear. 
I had to stay in my marriage because I couldn't work anywhere. I had no 
skills. Then in the summer of 1996 my husband decided he didn't want to 
be married or be a father anymore and threw us out onto the street. So 
pregnant and with a 4-year-old son, I ended up in a shelter for abused 
women. I stayed in that shelter for 7 weeks. During those 7 weeks I had 
to get back on my feet. I signed up for public assistance and began 
looking for an apartment. I found nothing. Even the shelter had to 
shorten my stay due to [a] shortage of beds, and the need for abused 
women to be in shelter. So once again I found myself on the streets. 
Finally my grandmother, in Vermont, heard of my ordeal and said she 
would take us in. So from Illinois to Vermont, I moved half way across 
the country for a chance to make a life for my children and myself. In 
Vermont I found my way. Not by getting married, but by hard work. 
Because of the educational, child care, and social welfare programs 
instituted in the State of Vermont, by Governor Howard Dean, I was able 
to graduate from the Vermont Adult Diploma Program and the Office 
Administrative Assistant course at my local Technical Center. I was 
able to find employment with my skills through the Job Training 
Partnership Act at my local town office. And while I was getting an 
education my children were able to go to daycare, paid for by the State 
of Vermont. I was able to access many social programs and supports like 
counseling (paid for by the generous allotments for Medicaid) and 
parenting classes in order to enrich my life and the life of my young 
children. Marriage didn't save me, community support and my own hard 
work saved me. I have worked many jobs since then as an Executive 
Administrative Assistant. I live in a beautiful low-income townhouse, I 
drive a fairly new mini-van, and I am still a SINGLE working mother. 
This year I'll be 31. I am not looking for a husband but for ways to 
consolidate my college loans. And this summer I'll be starting courses 
at the Community College of Vermont. A man with a bank account or a job 
to support me DID NOT get me here. I GOT ME HERE!

                                VIRGINIA

    I was a victim of domestic abuse for 8 years. Marrying my abuser 
was the worst decision of my life. After our marriage, he was able to 
control me to an even greater degree. He controlled our finances, so 
that I felt I was unable to leave him, because [if I did] I would be on 
the street. Although I worked, he insisted on seeing my pay stub, and 
had me account for every penny I spent. All of my pay had to go into 
our joint account. I was unable to hide any money in order to make a 
getaway. Of course, he had already done all that he could to destroy my 
support network, so I felt that I didn't have anyone close enough to 
ask for help. Getting married was exactly the opposite of protection--
it was a horrifying prison.

                                 <LOZ>

    ``I was married to an abusive man. Marriage did not help keep me 
out of poverty. My (now ex) husband wanted to control all of the money, 
including the money I earned [money] from working, and [saved] the 
money my parents had set aside for me to attend college. He refused to 
pay our rent on time even though he made twice as much as I did. He was 
always making threats on my life and was physically and emotionally 
abusive as well. I finally realized that I might lose my life if I 
continued to stay in this marriage, so I escaped with our son in 1999. 
My infant son and me had to stay in a shelter for battered women for a 
few days because I was afraid of what my husband would do to us when he 
found out that we had escaped and I had taken out a protective order on 
him. When I petitioned the court to get legal custody of our son, my 
husband said that he didn't want to pay child support and that nothing 
would make him happier than to see me spend my last dime in the courts.
    He was able to get legal aid to represent him while I had to empty 
my savings account, take out a bank loan, max out my credit cards, and 
drain my college account in order to pay for my attorney's fees. Thank 
God the judge saw through all of my ex-husband's and his family's lies 
and gave me sole custody of my son and supervised visitation to my ex-
husband. I have since had to declare bankruptcy, which has a very 
negative impact on one's credit rating, as a result of all of the 
thousands of dollars I've had to shell out in attorney's fees. My ex-
husband continues to use the court system to harass and control me. I 
have been forced to appear in court at least 75 times in the past 5 
years because my ex-husband continues to ask the court for custody, 
even though custody was decided years ago. I had to go on public 
assistance for a period of time and even lost my apartment after I was 
forced to declare bankruptcy.
    I now have two children and my ex-husband continues to abuse the 
judicial system and harass me by bringing me to court almost every 
month. Trying to get women to marry abusive men is not going to solve 
anything--it just creates more problems.''
    Signed, Angela D. Sargent

                               WASHINGTON

    ``I broke up with the father of my child because he was using my 
AFDC grant to buy marijuana. After 9 months, I started to hear from 
friends how he had been sleeping with various female[s] and 
`experimenting' with drugs more potent than marijuana. He never hit me, 
but the mental abuse I was subjected to had convinced me that I was 
lower than dirt, and that I was incapable of becoming anything more 
than his doormat. Since leaving him in 1986, I have gone on to complete 
an Associates of Applied Science, regained my self-esteem, and I now 
earn a respectable living as an Administrative Assistant. Our child was 
not subjected to his abuse and so I have hope that she too will live a 
productive life. Marriage does NOT solve all problems!''

                                 <LOZ>

    I was married to my abuser for nearly 20 years. He was a successful 
businessman and a corporate vice president. We moved often, so my 
support system was always changing, which worked in his favor. For most 
of those years, I attempted to get him actively involved in couples 
counseling. He went for a few visits, until he felt secure that he had 
adequately charmed the therapist; he's very intelligent and very 
charming, when he wants to be. At some point, he would always say, 
``I've done all the changing that I want to do; you're the one who's 
sick!'' At one point, he was the Vice President of the State Mental 
Health Association in the State where we were living, and he was 
addicted to cocaine, and abusing me mentally and physically every 
weekend when he came home from his travels! It was not until he beat up 
our 16-year-old daughter, that I got the nerve to leave. The financial 
uncertainties were always the reasons that kept me from leaving; I knew 
that he would do everything he could to make sure that I lived in 
poverty. He took me to court every chance he could to whittle away at 
my funds. Because I could never afford the retainer to get an attorney 
to represent me, he was successful at reducing me to poverty. If it 
weren't for public assistance, I wouldn't be here today. My children 
are now grown and gone, and I'm currently working as an advocate for 
domestic violence victims in Washington State.

                                 <LOZ>

    ``Twenty years in an abusive marriage. Four children. Twenty years 
of walking on egg shells. Sixteen years of welfare because he wouldn't 
work. Raising children in poverty. Volunteering everywhere and anywhere 
just to further my education. [But] finally, freedom. He hurt our 
daughter and was arrested. Single mother now, but 4 more years of 
welfare. Formal education and volunteerism. Finally a job, a very good 
job. Off of welfare and on a roll. Freedom from fear, hunger, poverty.
    I know I would never have been able to travel the path that I have, 
with him still in my life. He dragged me down, told me I was stupid, 
told me I was ugly, told me that my family was ashamed of me, pitied 
me. HE was the one, for 20 long years, that used everything in his 
power to make me feel that I was only worthy of scorn. I now work in 
the same organization that helped me gain my freedom, the domestic 
violence program in my county. Everyday I see women who reflect my 
past, who are mired in the same slime that held me down for so long. I 
also see many of these women break free of their abusers, and I watch 
as they begin to grow strong in their own rights. The struggles they 
have to contend with are difficult, but not impossible. For so many of 
them, it is an uphill battle, but at least the dead weight of their 
former abuser is one less impediment.
    Do not force us back into the dark ages, but light the path to 
freedom with health care, affordable childcare, education, counseling, 
and mentorship.

                                 <LOZ>

    I became pregnant at age 18. I married the father even though he 
was extremely physically abusive to me throughout my pregnancy and 
after my baby was born. I married this man not out of love but because 
I felt I had no other choice. This man couldn't keep a job for more 
than 1-2 days. He was an abusive drug addict. We lived on what was 
known as AFDC. This was barely enough to survive on. My husband sold 
drugs to make ends meet. On one particular night, about 2 months after 
my son was born, my husband beat me severely [all] because I did not 
want to have sex with him. He broke my ribs and left me black and blue. 
I made a plan and left a few weeks later. I never went back. I got off 
welfare. I obtained a full time job. [I] put myself through college and 
now help other battered women. I gave my son a chance to grow up in a 
healthy, loving home free from abuse. I definitely feel that marriage 
should not be promoted as an answer to women's poverty or to keep women 
from receiving welfare benefits. The only answer is job training and 
[obtaining a] college education [in order] to [achieve] self-
sufficiency. Toni

                                WYOMING

    Because I was in an abusive [and] controlling relationship, I am 
getting divorced. Because of my decision to leave my husband and better 
my kids lives, and me I had to move out of my nice home and into a 
significantly smaller house. I have had to spend every last penny to 
hire an attorney, and he fights [with] me on everything I've asked for 
in the divorce, even after I've told him to take the kids and 
everything else and leave me with nothing. Because he is still living 
with me (the police can't force him out and the kids want to see him), 
I cannot receive any assistance until he does leave. I have called the 
police on several occasions. We [have] tried couples counseling but 
during every session he accused me of sleeping around and I've found 
myself defending myself not only to him but to my counselor. Throughout 
this horrific process of getting divorced I have come up against every 
obstacle, including being ostracized by my church, family and friends, 
coworkers, and community members. They ask me things like ``why did I 
get married so young?'' and ``why can't I love him for who he is?'' 
Throughout my journey I have learned that there is a much larger burden 
for the victim to carry than anybody knows. Because we aren't 
technically divorced and Wyoming doesn't have benefits for mere 
separation, I struggle monthly to pay rent, daycare, and bills. He 
gives me $500 at the beginning of the month, [but] only if I ask and 
beg him for this money. My kids and I don't have the luxury of cable or 
the Internet. Because of him, my credit is ruined. I am working to get 
that [back] on track and it is getting better. Because I have to work, 
my kids must learn to be strong and get on the bus after school or be 
consoled by daycare providers when they are sick because I can't pick 
them up from school or stay home with them. If I have the opportunity 
to cash out any sick leave so I can have extra money, I will. My 
estranged husband wants me to fail so I don't have any choice but to 
drop the divorce, and the system is backing him up. There are two 
ironies to my story. First, my husband and I are both educated and have 
graduate degrees. Second, I work at a safe house and am a domestic 
violence victim's advocate. If leaving a violent man is so hard for me, 
imagine how hard it is for anyone else.

                                 <LOZ>

    There were so many more events of abuse. It suffices to say that 
most of this marriage I was on welfare so that my children could live. 
I was married to a man who kept me isolated and was abusive. I could 
not have raised my children without the help I got from these agencies. 
Many times he attempted to sabotage by being an a** in the welfare 
office. After he had quit the job he had kept the longest (2 years). I 
took my last beating. I was working five jobs at the time and most of 
the time he didn't like it that I worked, but I refused not to work. 
This is a very condensed version of my story, but to say that I was 
financially successful because I was married is ``horse hockey.'' 
Welfare helped me, but he had such low self esteem that he could not 
get out of his abusive, unemployed, slouched state. So my children 
would be overjoyed when they came home and the fridge was full. The new 
food stamps came that day. I usually always worked, but there was 
always some public assistance or another. Marriage did not make my life 
better. My mate was not a provider for his family. I had to work twice 
as hard to provide because I had to give my children some sort of role 
model.
    Finally, when I found out that I did have a brain and I could 
learn, I got an education. I am a social worker now. I have a good 
life, a great husband, great children, [and] wonderful grandchildren; 
three [of which,] belong to my [first] son who I reunited with after I 
finally left [my] abuser.

                Welfare Reform and Marriage Initiatives

                             LEGAL MOMENTUM

    Legal Momentum (formerly NOW Legal Defense and Education Fund) 
appreciates the opportunity to submit this testimony on the issue of 
TANF Reauthorization and building stronger families. We adhere to our 
long held belief that anti-poverty efforts must focus on initiatives 
that will empower individuals to become economically self-sufficient 
and permanently free them from poverty.
    Legal Momentum is a leading national not-for-profit civil rights 
organization with a 31-year history of advocating for women's rights 
and promoting gender equality. Among Legal Momentum's major goals is 
securing economic justice for all. Throughout our history, we have used 
the power of the law to advocate for the rights of poor women. We have 
appeared before the Supreme Court of the United States in both gender 
discrimination and welfare cases, and have advocated for protection of 
reproductive and employment rights, increased access to child care, and 
reduction of domestic violence and sexual assault.
    Our testimony today focuses on why, from a policy perspective, 
government involvement in personal issues of family formation would not 
reduce poverty, but would create a dangerous precedent for the 
individual liberty of all Americans. Emphasis on marriage and family 
formation sidesteps the underlying causes of poverty, particularly the 
poverty of women and children--such as lack of job training and 
education, ongoing sex and race discrimination, violence and lack of 
child care. At a time of huge budget deficits and high unemployment it 
is irresponsible to spend over a billion dollars on untested, unproven 
marriage promotion programs. Further, government involvement in highly 
personal decisions such as marriage is a departure from our most basic 
principles; a threat not just to poor women, but to all citizens who 
believe that liberty entails making fundamental personal decisions 
without governmental interference. In addition, because of the 
prevalence of violence among women forced to turn to public assistance, 
promotion of marriage can raise particular and severe dangers. Finally, 
the amount of money currently being spent on marriage promotion by the 
Department of Health and Human Services is enormous, over $100 million. 
The programs currently being funded have not been reviewed or tested to 
see if they are useful or successful. Common sense dictates treading 
cautiously in this area and waiting for the results of the programs 
already funded before throwing another $1.6 billion at promotion of 
marriage among the poor.
    Poll after poll shows that most Americans are against the 
government's involvement in individual decisions regarding marriage and 
oppose use of scarce public dollars to promote marriage. This is not 
surprising as Americans value their personal privacy and their right to 
make personal decisions free of government intrusion, and most adults 
who have experience with intimate relationships are rightfully 
skeptical that the government can or should try to influence them. 
Opposing use of scarce public dollars for this purpose is not the same 
as being ``anti-marriage,'' but rather recognizes that there are some 
issues that should not involve government. In addition, it is important 
for those in Congress to remember that there are currently more non-
marital families than married families in America. These include 
single, separated, divorced, widowed, cohabiting, gay and lesbian, and 
extended families, among others. Members of Congress are elected by 
members of these families as well as by those in traditional nuclear 
families and should care about supporting the well-being of all 
families, regardless of how they are constituted.

I. Federal and State Marriage Proposals

    Both Federal and State initiatives with respect to marriage are 
alarming in their invasion of personal privacy and, at the same time, 
raise serious questions about the effective use of scarce government 
funds, the competence of government to administer programs dealing with 
intimate decisions such as marriage, and the very real possibility that 
marriage promotion programs will be administered in a way that 
discriminates against women. (A Federally funded marriage promotion 
program in Allentown, Pennsylvania did just that, offering employment 
skills training to the men but not the women in that program.) We are 
particularly concerned that scarce public funds will be diverted away 
from desperately needed economic supports, child care and job training 
into questionable programs unlikely to have any positive effect in 
reducing poverty.
    Federal Initiatives: Current law allows but does not require States 
to use Temporary Assistance to Needy Families (TANF) funds for marriage 
promotion and for initiatives aimed at decreasing out of wedlock 
births. Proposals to reauthorize the TANF program (the House passed 
H.R. 4 and the Senate Finance Committee bill, PRIDE) include 
significant funding for marriage promotion initiatives. Although there 
is no new TANF funding for economic support in either bill, they both 
authorize $100 million a year in specifically dedicated Federal TANF 
funding for a Marriage Promotion competitive grant program. States 
would be required to match the $100 million and would be allowed to use 
their basic Federal TANF allocation to do so, thus potentially 
diverting an additional $100 million of TANF funds from economic 
support to marriage promotion. Both bills also authorize an additional 
$100 million a year for new TANF demonstration project funding to ``be 
expended primarily'' on ``Healthy Marriage Promotion Activities.'' 
Finally, both bills create a fatherhood program funded at $20 million 
(in H.R. 4) a year ``to promote and support involved, committed, and 
responsible fatherhood, and to encourage and support healthy 
marriages.''
    Both bills also add new requirements that in order to participate 
in TANF, States must have a program to ``encourage the formation and 
maintenance of healthy two-parent married families'' and must set 
``specific, numerical, and measurable performance objectives'' for 
promoting such families. This language suggests that in order to 
qualify for any TANF funding, States might have to set numerical goals 
for increasing the State marriage rate and reducing the State divorce 
rate.
    The Department of Health and Human Services (HHS) is already 
spending a great deal of money on marriage promotion--over $77 million 
in contracts and over $25 million in grants. Grant money has been taken 
from appropriations for the Child Support Enforcement Program ($2.4 
million),\2\ from the Refugee Resettlement Program ($9 million),\3\ 
from Child Welfare Programs ($14 million),\4\ from the (Native 
American) Social And Economic Development Strategies Program (SEDS) 
($40 million),\5\ from the Assets For Independence Demonstration 
Program ($16 million),\6\ and from the Developmental Disabilities 
Program ($3 million).\7\
---------------------------------------------------------------------------
    \2\ See HHS 5/9/03 press release ``ACF Approves Child Support 
Demonstrations in Michigan and Idaho,'' available at http://
www.acf.dhhs.gov/acf news.html); and HHS 7/4/03 press release ``ACF 
Approves Child Support Demonstration In Virginia,'' available at http:/
/www.acf.dhhs.gov/acfnews.html).
    \3\ 67 Fed. Reg. 45131-45136 (July 8, 2002); 68 Fed. Reg. 34617-
34726 (June 10, 2003); 68 Fed. Reg. 43142-47 (July 21, 2003).
    \4\ 68 Fed. Reg. 34609-34614 (June 10, 2003).
    \5\ 67 Fed. Reg. 59736-59746 (Sept. 23, 2002); 69 Fed. Reg. 8266-
8288 (Feb. 23, 2004).
    \6\ http://www.acf.hhs.gov/programs/ocs/fy2003ocsfunding/
section2a.html.
    \7\ 68 Fed. Reg. 41816-41828.
---------------------------------------------------------------------------
    It is difficult to see why Congress should even consider hundreds 
of millions of dollars in new funding for marriage promotion before the 
results of the Administration's evaluation projects are in. It is 
surely putting the cart before the horse to start a major new social 
program when the program's potential effects are largely unknown and 
demonstration projects to identify and evaluate the effects are just 
getting off the ground. Last year, the Administration awarded contracts 
to several prominent national organizations to conduct large marriage 
promotion test projects with rigorous evaluation methodologies: 
Mathematica Policy Research, ($19 million over 9 years for the Building 
Strong Families demonstration and random-assignment evaluation project; 
MDRC (and other secondary contractors) $38.5 million over 9 years for 
the Supporting Healthy Marriages demonstration and random-assignment 
evaluation project); and RTI International and the Urban Institute 
($20.4 million over 7 years for evaluation of community wide 
initiatives to promote healthy marriage).\8\ Until the results of these 
projects are known, Congress should not even consider marriage 
promotion funding.
---------------------------------------------------------------------------
    \8\ See October 3, 2003 ACF press release ``ACF Announces Four New 
Projects to Study Healthy Marriage,'' available at http://
www.acf.dhhs.gov jnews/press/2003/release 101003.htm; Ooms, Bouchet, & 
Parke, ``Beyond Marriage Licenses: Efforts in States to Strengthen 
Marriage and Two-Parent Families. A State by State Snapshot'', Center 
for Law and Social Policy (April 2004).
---------------------------------------------------------------------------
    Even ignoring that the test results are not yet in, it is still 
difficult to see why Congress should consider additional marriage 
promotion funding when there seems to be no need for it. As detailed in 
the attached Legal Momentum memorandum on ``HHS Marriage Promotion 
Activities'', the Administration has already committed tens of millions 
of dollars in existing funding to marriage promotion, and takes the 
position that there is no limit on the funding that it can make 
available for marriage promotion under its child support demonstration 
project authority.
    HHS has also issued a ``Compendium'' of approaches for achieving 
``marriage promotion'' goals, which is a likely indicator of the 
recommendations it would make to States for spending marriage promotion 
funds were such spending to be required. This Compendium suggests that 
States consider completely unproven and coercive methods, such as 
paying a $2,000 cash bonus to poor couples who marry and reducing 
welfare payments to poor couples who choose not to marry. 
(``Strengthening Healthy Marriages: A Compendium of Approaches,'' U.S. 
Department of Health and Human Services (August 2002), available at 
http://www.acf.hhs.gov/programs/region2/index.htm.) The Compendium 
includes marriage promotion organizations that clearly should not 
receive large grants of tax dollars. Some of these organizations 
recommend reducing the divorce rate by restricting the right to 
divorce. Some teach that the husband should be the leader/breadwinner, 
and the wife the follower/homemaker. Several are for-profit commercial 
ventures which claim that they can help couples avoid divorce for a 
substantial fee. It is irresponsible for legislators to enact a program 
that threatens to divert government money intended to help the poor to 
fund the untested programs of such organizations.
    Even witnesses at the Senate Finance Committee hearings on marriage 
promotion who spoke in favor of marriage conceded that we don't yet 
know what works. Ron Haskins, Senior Fellow at the Brookings Institute 
stated that ``we know so little about marriage-promotion programs, 
especially with poor and low-income families.'' Theodora Ooms of the 
Center on Law and Social Policy stated, ``Given the lack of research on 
marriage related interventions, policy makers should proceed cautiously 
. . .'' Even the Chairman of this committee, Senator Charles Grassley 
of Iowa stated, ``Do marriage programs effectively reduce dependence 
and foster a family's well-being? We don't know. There is still a great 
deal of uncertainty around the effectiveness of marriage promotion 
programs.''
    With such a high degree of uncertainty around what works with 
respect to marriage promotion, with millions and millions of dollars 
already being spent on marriage promotion programs, why spend billions 
more of taxpayer dollars on these programs before the results are in on 
which may give direction to a whether such initiatives are successful 
and what types of programs work?
    State Initiatives: As noted above, since 1996, States have been 
free to use TANF dollars to support marriage and two-parent families, 
although most States have not done so. States have instituted programs 
that range from a simple waste of public dollars to outright 
discrimination against struggling single parent families. These 
examples demonstrate the risks in pushing States to do more to promote 
marriage. For example:
    <bullet> In Oklahoma, former Governor Frank Keating earmarked 10 
percent of the State's TANF surplus funds to fund the $10 million 
Oklahoma Marriage initiative, which includes pre- and post-marital 
counseling to Oklahoma families, a marriage resource center, a marriage 
mentor program, and the creation of a Marriage Scholars-in-
Residence.\9\ The initiative also contains a specific ``religious 
track'' under which the State's religious leaders sign a marriage 
covenant, thereby committing themselves to encourage pre-marital 
counseling for couples in their house of worship. A few months after 
Keating made his proposal, the State hired a pair of ``marriage 
ambassadors'' with a $250,000 a year salary to give ``relationship 
rallies'' on school campuses as well as meeting with ministers and set 
up a research project. Last September the State spent $16,000 flying in 
pro-marriage speakers from around the country for a 2-day conference. 
It also developed a workshop called Prevention and Relationship 
Enhancement Program (PREP) that is offered in schools and community 
centers.\10\ Three years after Oklahoma implemented its marriage 
promotion programs, the State's divorce rate has remained unchanged.) 
\11\
---------------------------------------------------------------------------
    \9\ Supra Note 156.
    \10\ Tyre, Peg. ``Oklahoma is fighting its sky-high divorce rate 
with controversial, state-funded ``marriage ambassadors.'' Newsweek, 
Feb. 18, 2002, U.S. Edition.
    \11\ Ross, Bobby Jr. ``Divorce rate stays steady, study shows'' The 
Daily Oklahoman (2/10/2002). Citing that for every 100 marriage 
licenses issued in 2001, the State granted 76 divorce petitions.
---------------------------------------------------------------------------
    <bullet> West Virginia's State TANF plan adds a $100 marriage 
incentive to a family's benefits if there is a legal marriage in a 
household where both individuals receive welfare assistance payments. 
Since West Virginia's monthly TANF benefit for a family of three is 
$328, this $100 per month bonus makes a significant difference in 
economic support and gives children in poor married families a 
significant economic advantage over children whose poor single mothers 
have been unable or unwilling to marry.
    Programs such as those described above divert funds from direct 
support of poor families or provision of services needed to support 
employment. Programs like that in West Virginia discriminate directly 
against poor single parent families. Endorsing or increasing funding 
for such programs is bad public policy.

II. Welfare Reform Reauthorization Should Not Focus on Marriage

    Welfare reform reauthorization should focus on ending poverty. In 
order to accomplish that goal, we must focus on the barriers to 
economic self-sufficiency rather than marriage by investing in 
education, training and work supports to help families and individuals 
get to a point where they can survive and prosper, whether married or 
not.
    A. The American Public Overwhelmingly Rejects governmental 
Involvement in Personal Decisions to Marry. According to the PEW Forum 
on Religion & Public Life opinion poll, there is broad opposition to 
government programs aimed at encouraging marriage. Nearly eight in ten 
Americans (79 percent) want the government to stay out of this area, 
while just 18 percent endorse such pro-marriage programs. While those 
with a high level of religious commitment are more likely to favor 
these programs, fully two-thirds (66 percent) in that category do not 
want the government to get involved.\12\ In addition, Americans also 
strongly reject any proposal that would divert welfare resources for 
the poor into marriage promotion programs. A recent poll conducted on 
behalf of the National Campaign for Jobs and Income Support shows that 
a mere 5 percent of those surveyed select marriage promotion as the 
number-one welfare priority for Congress, while fully 62 percent cite 
work support for people moving from welfare to good jobs as the top 
priority.\13\ Similarly, a poll conducted for the Ms. Foundation found 
that less than 3 percent of Americans believe the principal goal of the 
welfare system should be to promote marriage and discourage out-of-
wedlock birth.\14\ By contrast, giving people the skills needed to 
achieve self-sufficiency received the most support. Most recently, a 
survey conducted for the Annie E. Casey Foundation also found that 
proposals to promote marriage through welfare programs do not meet with 
even superficial public support. A solid 64 percent of those surveyed 
reject proposals to provide financial bonuses to mothers on welfare who 
marry the father of their children, and over 70 percent believe pushing 
people to get married is the wrong priority for Congress.\15\
---------------------------------------------------------------------------
    \12\ The PEW Research Center for the People & the Press and the PEW 
Forum on Religion & Public Life, ``American Struggle with Religion's 
Role at Home and Abroad,'' News Release, March 20, 2002. at 3.
    \13\ Peter D. Hart Research Associates. ``TANF/Welfare Survey 
Findings.'' National Campaign for Jobs and Income Support Memo, April 
12, 2002, at 1.
    \14\ Ms. Foundation for Women. ``Americans Say Welfare Should 
Provide Self-Sufficiency Skills, Move People Out of Poverty--Not 
Promote Marriage.'' (February 6, 2002) at 1.
    \15\ Peter D. Hart Research Associates, Inc. ``Memorandum to 
Advocates for Low-Income Families.''
---------------------------------------------------------------------------
    B. Reauthorization Should Not Coerce Low-Income Women into Giving 
Up Their Fundamental Rights to Privacy. The Supreme Court has long 
recognized an individual's right to privacy regarding decisions to 
marry and reproduce as ``one of the basic civil rights of man, 
fundamental to our very existence and survival.'' \16\ Significantly, 
this constitutional right equally protects the choice not to marry.\17\ 
Reproductive privacy, initially honored as a right of marital 
privacy,\18\ has been firmly established as a protected right of the 
individual, irrespective of marital status.\19\ According to the 
Supreme Court, ``if the right of privacy means anything, it is the 
right of the individual, married or single, to be free from unwarranted 
governmental intrusion into matters so fundamentally affecting a person 
as the decision whether to bear or beget a child.\20\ Furthermore, the 
U.S. Supreme Court has specifically rejected the use of the welfare 
system to try to influence the marriage decisions of a child's parents. 
In National Welfare Rights Organization v. Cahill, 411 U.S. 619 (1973), 
a New Jersey welfare provision that limited benefits to families where 
there were two adults ``ceremonially married to each other'' was struck 
down as a violation of the Constitution's Equal Protection Clause. The 
Court held that penalizing children by restricting welfare benefits to 
them because of the marital decisions of their parents ``is illogical 
and unjust.''
---------------------------------------------------------------------------
    \16\ Skinner v. Oklahoma ex rel. Williamson, 316 U.S. 535, 541 
(1942).
    \17\ Loving v. Virginia, 388 U.S. 1, 12 (1967).
    \18\ Griswold v. Connecticut, 381 U.S. 479, 495 (1965).
    \19\ Eisenstadt v. Baird 405 U.S. 438, 453-54 (1972).
    \20\ Id. at 453.
---------------------------------------------------------------------------
    government programs promoting marriage may invade this right to 
privacy and may encourage the kind of differential treatment of 
children in non-marital families that the Supreme Court condemned in 
NWRO v. Cahill. They certainly pose concerns regarding voluntariness 
and coercion. It is critical that if Congress insists on funding these 
programs with tax dollars, that they neither require nor encourage 
incentives for States to coerce low-income women into trading away 
their fundamental rights to marry or not to marry. As such, Federal 
mandates on States to set numerical goals are not appropriate. 
Obviously, voluntariness is key to a non-coercive program, and strong 
protections regarding non-coercion should be included, although it is 
hard to conceive of provisions that would genuinely protect 
voluntariness in a program that supplies a lifeline to desperate 
families in need of help in supporting their children. Along the same 
lines, States must not be permitted to discriminate based on marital 
status or family formation. To that end, TANF reauthorization should 
include language that prohibits States from treating equally needy 
families differently based on marital status or family formation. This 
will correct discriminatory policies and practices against married 
families, without swinging the pendulum to permit discrimination 
against single or cohabiting families.
    C. The Staggering Prevalence of Domestic Violence Among Women on 
Welfare Presents an Insurmountable Challenge to ``Healthy Marriage'' 
Promotion within TANF. When considering marriage promotion within the 
context of TANF, Congress must face the reality that violence is one of 
the main causes of women's poverty. Domestic violence makes women poor 
and keeps them poor. Violence is not an exception to the rule for poor 
women; it is an overwhelming reality. Study after study demonstrates 
that a large proportion of the welfare caseload (consistently between 
15 percent and 25 percent) consists of current victims of serious 
domestic violence.\21\ Between half and two thirds of the women on 
welfare have suffered domestic violence or abuse at some time in their 
adult lives.\22\ Moreover, by an overwhelming margin, these women's 
abusers are most often the fathers of their children.
---------------------------------------------------------------------------
    \21\ See Jody Raphael & Richard M. Tolman, Taylor Inst. and the 
Univ. of Mich. Research Dev. Ctr. on Poverty, Risk and Mental Health, 
Trapped by Poverty, Trapped by Abuse: New Evidence Documenting the 
Relationship Between Domestic Violence and Welfare, 12 (1997).
    \22\ See Mary Ann Allard, et al., McCormack Inst., In Harm's Way? 
Domestic Violence, AFDC Receipt and Welfare Reform in Mass., 12, 14 
(1997) (64.9 percent of 734 women); Ellen L. Bassuck, et al., The 
Characteristics and Needs of Sheltered Homeless and Low-Income Housed 
Mothers, 276 JAMA 640 at 12, 20 (1996) (61.0 percent of 220 women); 
William Curcio, Passaic County Study of AFDC Recipients in a Welfare-
to-Work Program: A Preliminary Analysis, 12, 14 (1997) (57.3 percent of 
846 women).
---------------------------------------------------------------------------
    For these women and their children, marriage is not the solution to 
economic insecurity. For them marriage could mean death or serious 
injury; it will almost undoubtedly mean economic dependence on an 
abuser. In the population as a whole, many battered women are 
economically dependent on their abusers; 33-46 percent of women 
surveyed in five studies said their partner prevented them from working 
entirely.\23\ Those who are permitted to work fare little better. 
Ninety-six percent reported that they had experienced problems at work 
due to domestic violence, with over 70 percent having been harassed at 
work, 50 percent having lost at least 3 days of work a month as a 
result of the abuse, and 25 percent having lost at least one job due to 
the domestic violence.\24\ Thus, battered women are overwhelmingly 
either economically dependent on the abuser or are economically 
unstable due to the abuse.
---------------------------------------------------------------------------
    \23\ See United States General Accounting Office, Report to 
Congressional Committees, Domestic Violence: Prevalence and 
Implications for Employment Among Welfare Recipients, 7 (1998).
    \24\ See Joan Zorza, Woman Battering: High Costs and the State of 
the Law, 25 Clearinghouse Rev. 421 (1991).
---------------------------------------------------------------------------
    Those who would promote marriage in every circumstance sometimes 
claim that marriage decreases domestic violence. This idea ignores many 
realities of domestic violence. Most importantly, married victims are 
less likely to report the abuse. In addition, separation and divorce 
frequently incite batterers to increase the frequency and level of 
violence.\25\
---------------------------------------------------------------------------
    \25\ See Einat Peled, Parenting by Men Who Abuse Women: Issues and 
Dilemmas, Brit. J. Soc. Work, Feb. 2000, at 28.
---------------------------------------------------------------------------
    The experience of Oklahoma, clearly the leader in spending public 
dollars for marriage promotion, is instructive. In a survey of Oklahoma 
families, referred to in testimony by the Director of Public Welfare in 
that State when testifying before Congress, it was discovered that 
almost half (44 percent) of the State's divorced women cited domestic 
violence as a reason for their divorce.\26\ More than half (57 percent) 
of Oklahoma's divorced welfare mothers, the prime target of government 
marriage promotion efforts, cited domestic violence as a reason for 
their divorce.\27\ Oklahoma is by no means unique. Around the country, 
in survey after survey, low income women report high double digit 
domestic violence rates.
---------------------------------------------------------------------------
    \26\ ``Marriage in Oklahoma, 2001 Baseline Survey on Marriage and 
Divorce,'' at 16, available at http://www.okmarriage.org/pdf/survey 
report.pdf.
    \27\ Private communication to NOW Legal Defense & Education Fund 
from Oklahoma official; copy available upon request.
---------------------------------------------------------------------------
    Should the government encourage women to get married or stay 
married to men who abuse them? Certainly, proponents of government 
marriage promotion do not intend this. But common sense suggests that 
this will be the inevitable result of a government ``get married and do 
not divorce'' message, especially when success is measured by 
superficial statistics such as the divorce rate.
    Congress itself has repeatedly recognized that domestic violence is 
a serious national problem and has made efforts to minimize the severe 
risk to women and children from that violence, most recently by 
reauthorizing the Violence Against Women Act in 2000. But marriage 
promotion for TANF recipients ignores the reality of domestic violence. 
It ignores its pervasiveness: assertions that proponents intend to 
promote only ``healthy marriages'' lose credibility in the face of the 
reality that as many as two-thirds of TANF recipients report incidents 
of domestic violence. Surveys of low-income women in several cities 
show that two of the four main reasons for not marrying are fear of 
domestic violence and fear of a power imbalance.\28\ Requiring marriage 
promotion programs to consult with domestic and sexual violence experts 
and child advocates on the development and implementation of policies, 
procedures, and training necessary to appropriately address domestic 
and sexual violence and child abuse issues, as specified in PRIDE, will 
provide some security. But even these safeguards will not make marriage 
promotion within TANF safe. Furthermore, the House passed version of 
H.R. 4 lacks even the most rudimentary protections for domestic 
violence victims; domestic violence is not mentioned in the legislation 
and, therefore, use of marriage promotion dollars to keep women in 
abusive marriages or to help persuade them to marry their abuser is a 
very real threat. Finally, our review of current grant applications to 
HHS for marriage promotion funds indicates that very few programs 
include any consideration of domestic violence issues in their 
applications.
---------------------------------------------------------------------------
    \28\ Kathyrn Edin, Joint Center for Poverty Research Working 
Papers, What Do Low-Income Single Mothers Say About Marriage?, Aug. 9, 
2001, available at http://www.jcpr.org/wpfiles/edin	WP	ediforweb1-
31.pdf.
---------------------------------------------------------------------------
    Those who say that marriage promotion will only be done in 
relationships where there is no violence are clueless about the dynamic 
of domestic violence and the very clear truth that most women who are 
victims of violence are ashamed and afraid and extremely unlikely to 
offer to reveal the violence in their lives to others. Many victims 
fear the potential consequences of acknowledging the abuse: the stigma 
of being a domestic violence victim; the very real possibility of 
losing their children to child welfare agencies; the possibility that 
disclosure of violence will escalate the abuse. Marriage promotion 
programs, no matter how ``sensitive'' to domestic violence on paper, 
cannot change the fact that those promoting marriage will probably not 
know about violence in the relationship they are trying to make legally 
permanent. Thus, programs that push poor women into marriage with the 
fathers of their children may inadvertently legitimize abusive 
situations; similarly, programs that discourage divorce may increase 
the already deep shame and social pressure to remain with the abuser 
that women who are married and are being abused often feel. A 
governmental message to poor women who are violence victims that there 
is something wrong with being unmarried will make it even more 
difficult for women who are trying to leave an abusive relationship to 
do so. The complexity of domestic violence and the danger to women who 
stay in or formalize abusive relationships make any government-
sponsored marriage promotion program extremely problematic.
    TANF currently includes a Family Violence Option (FVO) allowing 
States to confidentially screen for domestic violence, refer to 
services, and modify or waive program requirements that would be unsafe 
or unfair to victims of domestic violence. Although nearly all States 
have adopted some version of the FVO, not all States have done so. With 
such an overwhelming correlation between violence and poverty, it is 
both troubling and illogical that Congress would consider mandating 
marriage promotion and providing significant financial incentives for 
States to fund marriage promotion while not requiring States to address 
domestic violence through the FVO. At a minimum, Congress should 
require all States to screen for domestic violence and refer 
individuals to services and should invest TANF dollars in case worker 
training, a study of best practices with respect to addressing domestic 
violence in TANF, and dissemination of those best practices to all 
States to help them address this very real barrier to economic 
security.
    D. Marriage Does Not Address the Root Causes of Women's Poverty and 
Is Not a Reliable Long-Term Solution to Women's Poverty. Common sense 
tells us that two incomes are better than one and thus more likely to 
move people off of welfare. But a closer look at the facts shows that 
marriage is not the simple solution to poverty that it is made out to 
be.
    First, forming a two-parent family does not guarantee economic 
security. Forty percent of all families living in poverty are two-
parent families. Thus, two-parent families are not immune to poverty or 
the economic stresses single parent families face.
    Second, due to death and divorce, marriage does not ensure women's 
economic security. Approximately 40 percent of marriages end in divorce 
\29\ and 12 percent end due to the husband's death.\30\ Among women 
currently on welfare, about 40 percent are married or were married at 
one time: 18.4 percent are married; 12.3 percent are separated; 8.3 
percent are divorced; and about 1 percent are widows. A significant 
number of divorces and separations are due to domestic violence. In 
these cases it is futile to claim that marriage would provide security, 
economic or otherwise. Indeed, there is no simple causal relationship 
between single motherhood and poverty.
---------------------------------------------------------------------------
    \29\ The National Marriage Project, Annual Report: the State of Our 
Unions: the Social Health of Marriage in America, 2000 (June 2000), 
available at http://marriage.rutgers.edu/NMPAR2000.pdf.
    \30\ United States Census Bureau, Current Population Reports, 
Series No. P20-514, Marriage Status and Living Arrangements: March 1998 
(Update) (2000), available at http://www.census.gov/prod/99pubs/p20-
514u.pdf.
---------------------------------------------------------------------------
    The reasons that women, more than men, experience an economic 
downfall outside of marriage include: primary care giving 
responsibility for children which--without attendant employment 
protections and due to lack of quality, affordable, accessible child 
care--makes unemployment or underemployment inevitable; discrimination 
in the labor market; and domestic violence. Without addressing the 
factors that keep women from being economically self-sufficient, 
marriage and family formation advocates are merely proposing to shift 
women's ``dependence'' from the welfare system to marriage. That 
certainly does not promote individual responsibility, nor is it a 
policy solution for genuine, reliable, economic security.
    On the other hand, a policy that invests in education, training and 
work supports empowers women to achieve true economic security. In 
2000, only 1.2 percent of single mothers with a college degree who 
worked full-time year round lived in poverty. Less than 8 percent of 
single mothers with some college working full-time lived in 
poverty.\31\ This is by far the best poverty reduction statistic; a 
clear indication of what strategy will work best in lifting families 
out of poverty.
---------------------------------------------------------------------------
    \31\ Neil G. Bennett, et al., National Center for Children in 
Poverty, Young Children in Poverty: A Statistical Update, June 17, 
1999, available at http://cpmcnet.columbia.eduj dept/nccp/
99uptext.html.
---------------------------------------------------------------------------
    In fact, the approach to marriage advocated by H.R. 4 and PRIDE has 
it backwards. Economic security is more likely to lead to successful 
marriage than is marriage likely to lead to economic security. The 
outcomes of the Minnesota Family Investment Program (MFIP) support this 
conclusion. MFIP reached welfare-eligible single and two-parent 
families and focused on participation in employment services for long-
term welfare recipients combined with financial incentives to encourage 
and support work. These work supports include child care, medical care, 
and rewarding work by helping the family to develop enough earning 
power to survive financially without cash assistance before cutting off 
their benefits. A study comparing--the economic progress of those in 
the standard AFDC welfare program with MFIP participants found that 
only 14 percent of AFDC recipients compared with 25 percent of families 
in the MFIP program were out of poverty within 2\1/4\ years and the 
MFIP families had on average $1400 more in annual income. After 36 
months MFIP participants were 40 percent more likely to be married than 
participants in the standard AFDC program, and nearly 50 percent less 
likely to be divorced after 5 years. The MFIP program shows that 
allowing families to combine welfare and work, and providing work 
supports to help individuals become economically secure, are approaches 
that will strengthen marriage and reduce divorce.\32\
---------------------------------------------------------------------------
    \32\ Manpower Demonstration Research Corp. (MDRC), chap. 6, 
available at http://www.mdre.org/Reports2000,MFIP/MFIP--Vol--l-
Adult.pdf.
---------------------------------------------------------------------------
    Investments in education, training and work supports can both 
empower women to achieve economic security (thereby economically 
empowering couples as well) and strengthen marriages. If Congress takes 
this approach it can enable individuals to achieve their own goals, 
without invading their privacy or endangering their families.

Conclusion

    The solution to poverty is not to interfere with basic privacy 
rights of poor women but rather to focus on economic self-sufficiency. 
Decisions regarding marriage and childbearing are among the most 
private decisions an individual can make. Congress must not use women's 
economic vulnerability as an excuse for attempting to control their 
decisions regarding marriage and childbearing. Fighting poverty and 
promoting family well-being will depend on positive governmental 
support for proven policies that support low income parents in their 
struggle to obtain and retain good jobs, while at the same time 
providing the best possible care for their children. That in turn is 
the best way to insure healthy and stable families. (The authors would 
like to thank Shawn Chang for his invaluable assistance in completing 
this testimony.)

                   Recent Marriage Promotion Studies

                             LEGAL MOMENTUM

    The Bush Administration and its allies are touting two new marriage 
promotion studies as proof that domestic violence is not a concern and 
that marriage promotion works. These claims are false.
    The Administration's initiative would add marriage promotion to the 
Temporary Assistance to Needy Families (TANF) program. Study after 
study demonstrates that a large proportion of the welfare caseload 
(between 15 percent and 20 percent) are current or recent victims of 
serious domestic violence,\1\ and that between half to two-thirds of 
the women on welfare have suffered domestic violence or abuse at some 
time in their adult lives.\2\
---------------------------------------------------------------------------
    \1\ See Jody Raphael & Richard M. Tolman, Taylor Inst. and the 
Univ. of Mich. Research Dev. Ctr. on Poverty, Risk and Mental Health, 
``Trapped by Poverty, Trapped by Abuse: New Evidence Documenting the 
Relationship Between Domestic Violence and Welfare,'' 12 (1997).
    \2\ See Mary Ann Allard et al., McCormack Inst., ``In Harms Way? 
Domestic Violence, AFDC Receipt and Welfare Reform in Mass.,'' 12, 14 
(1997) (64.9 percent of 734 women); Ellen L Bassuck et al., ``The 
Characteristics and Needs of Sheltered Homeless and Low-Income Housed 
Mothers,'' 276 JAMA 640 at 12, 20 (1996) (61.0 percent of 220 women); 
William Curcio, ``Passaic County Study of AFDC Recipients in a Welfare-
to-Work Program: A Preliminary Analysis,'' 12, 14 (1997) (57.3 percent 
of 846 women).
---------------------------------------------------------------------------
    A new Heritage Foundation study concedes these high domestic 
violence rates but argues that they are irrelevant because the marriage 
promotion initiative won't target welfare recipients but rather will 
target so-called ``fragile families''--unmarried parents of newborns--
for whom, Heritage asserts, domestic violence rates are much lower than 
for welfare recipients.\3\ But there is absolutely nothing in the 
Administration's proposal that restricts or targets the proposed 
funding to fragile families, the Administration itself has never made 
such a claim, and the Administration has funded many marriage promotion 
programs that target welfare recipients as a group.
---------------------------------------------------------------------------
    \3\ Melissa G. Pardue and Robert Rector, ``Reducing Domestic 
Violence: How the Healthy Marriage Initiative Can Help,'' Heritage 
Foundation Backgrounder No. 1744 (March 30, 2004), http://
www.heritage.org/Research/Family/loader.cfm?url=/commonspot/security/ 
getfile.cfm&PageID=60606.
---------------------------------------------------------------------------
    Heritage also claims that marriage promotion programs have been 
shown to reduce domestic violence, a claim that the Administration 
itself does not make. Heritage does not cite a single study to support 
its claim, offering as the sole evidence a statement from an Oklahoma 
official that not a single instance of domestic abuse ``linked'' to the 
Oklahoma Marriage Initiative has been reported.
    Even assuming this statement to be true, this proves absolutely 
nothing about whether even the Oklahoma program has reduced domestic 
violence--and, as former Oklahoma Governor Frank Keating recently 
explained to the Senate, that program makes unusual efforts to address 
domestic violence, by working closely with the Oklahoma domestic 
violence coalition, training all providers of marriage promotion 
services on domestic violence issues, and providing information about 
domestic violence services to all program participants.\4\ Much less is 
there any evidence about the effects on domestic violence of other 
programs in other places which lack the protections that are in the 
Oklahoma program. What is more, the Administration has not proposed to 
require these protections in its marriage initiative, and is currently 
funding many marriage promotion projects without requiring that they 
include domestic violence protections.
---------------------------------------------------------------------------
    \4\ http://health.senate.gov/testimony/86 tes.html.
---------------------------------------------------------------------------
    Heritage also argues that marriage protects women from domestic 
violence because unmarried mothers report a higher rate of domestic 
violence than married mothers. But it is much more plausible to suppose 
that domestic violence discourages single mothers from marrying their 
abusers than to suppose, as Heritage appears to do, that an abuser will 
cease his abuse if the woman he is abusing marries him. Further, it is 
simply indisputable that many married women are victims of domestic 
violence, as domestic violence is one of the main reasons that roughly 
half of all marriages end in divorce. The Oklahoma marriage program 
that Heritage cites recently conducted a study which found that 
domestic violence was given as a reason for their divorce by 44 percent 
of the State's divorced women and by 57 percent of the divorced women 
who had been welfare recipients.\5\
---------------------------------------------------------------------------
    \5\ Communication from Oklahoma official, copy available upon 
request.
---------------------------------------------------------------------------
    Concerning divorce, the Administration is hailing another new study 
as proof that marriage promotion programs reduce divorce. According to 
Dr. Wade Horn, Assistant Secretary for ACF, who appeared at an April 
5th press conference touting the study, the study refutes critics who 
have said that there is no proof that marriage promotion reduces 
divorce.\6\ This dubious study proves nothing.
---------------------------------------------------------------------------
    \6\ http://marriagesavers.org/Press%2ORelease.htm.
---------------------------------------------------------------------------
    The new study evaluates the impact of the Community Marriage Policy 
(CMP) program that is operated by an organization called Marriage 
Savers, http://marriagesavers.org/.\7\ The study was conducted by the 
Institute for Research and Evaluation of Salt Lake City, whose 
director, Dr. Stan Weed, was one of the study's authors. The Institute 
has no web site, and its capacity for performing evaluative research is 
unknown.
---------------------------------------------------------------------------
    \7\ Stan Weed et al., ``Assessing the Impact of Community Marriage 
Policies on U.S. County Divorce Rate,'' executive summary available at 
http://marriagesavers.org/Executive%20Summary.htm.
---------------------------------------------------------------------------
    The CMP program lobbies clergy to sign pledges that they will not 
marry any couple unless the couple first takes ``rigorous marriage 
preparation of at least 4 months during which couples take a premarital 
inventory and talk through relational issues it surfaces with trained 
mentor couples, who also teach couple communication skills.'' The CMP 
study compared 122 counties in which Marriage Savers reports that some 
clergy have signed such pledges with 122 other counties selected by the 
study's authors. The executive summary reports that ``counties with a 
Community Marriage Policy had an 8.6 percent (average) decline in their 
divorce rates over 4 years, while the comparison counties registered a 
5.6 percent (average) decline.'' Based on this finding, the evaluators 
assert that ``[t]he simple explanation of the results is that Community 
Marriage Policies are successful and lead to reductions in divorce 
rates.''
    Only the study's executive summary has been released and the 
summary contains less than even barebones details. (For example, only 
one of the counties with a CMP program is identified.) Dr. Weed refused 
our request for a copy of the full study.
    Dr. Weed appears to have thin research credentials. We were unable 
to locate any other evaluation studies conducted by Dr. Weed or his 
Institute.
    Moreover, Dr. Weed appears to be a partisan of the CMP program, not 
a neutral evaluator. The Salt Lake Tribune reported on January 12 that 
he and the Marriage Savers director had met with leaders of the Mormon 
Church to urge that the church adopt the CMP program.\8\ Dr. Weed's 
Institute also reported on its 2002 tax return that it had received 
$46,737 from Marriage Savers, raising serious questions about his 
objectivity in evaluating the Marriage Savers CMP program.\9\
---------------------------------------------------------------------------
    \8\ ``Could `Marriage Policy' Cut Utah's Divorce Rate'', The Salt 
Lake Tribune (Jan. 12, 2004), link to article available at http://
nl.newsbank.com/nl-search/we/Archives.
    \9\ Tax return available at http://www.guidestar.org/index.jsp.
---------------------------------------------------------------------------
    Dr. Weed's expertise and objectivity are especially crucial 
questions given that the study methodology was so highly subjective. 
The finding of positive results for CMP rests entirely on a comparison 
of the CMP counties with counties without CMP selected by the 
evaluators. A different set of selections might well have yielded 
contrary results.
    Dr. Horn's endorsement of the CMP study as proof that marriage 
promotion works shows that the Administration still embraces the 
simplistic and dangerous message that marriage is good and divorce is 
bad, a message which is contrary to the Administration's repeated claim 
that it intends to promote not marriage per se but only ``healthy 
marriage.'' If healthy marriage is the goal, a marriage promotion 
program's success must be measured by whether it increases healthy 
marriage, not marriage per se. But even taken at face value, the CMP 
study offers no evidence that the CMP program increases healthy 
marriage. The study focused exclusively on divorce rates. There was no 
effort to measure the prevalence of domestic violence or the quality of 
the marriages in CMP communities, or to assess how the CMP program 
affected domestic violence.
    There are also separation of church and State concerns. These arise 
from the possibility, apparently envisioned by Dr. Horn when he 
appeared at the April 5th press conference promoting the CMP study, 
that CMP is one type of program the Administration would like to fund 
through the marriage promotion allocations it has requested from 
Congress. In fact, Dr. Horn has already provided Federal funding to an 
Idaho marriage promotion program seeking to model the CMP approach. The 
separation of church and State issue is this: the CMP program relies on 
obtaining commitments from churches not to marry couples unless and 
until the couples have completed a 4-month long premarital marriage 
education program. It is entirely appropriate for churches to adopt 
such a policy if they so choose, and for Smart Marriages or similar 
organizations to use their own private funds to encourage churches to 
make this commitment. But a central premise of the separation of church 
and State that is embodied in our Constitution's First Amendment is 
that government must avoid entangling itself in religion. Using public 
funds in an attempt to influence churches as to the conduct of their 
internal affairs violates the values underlying this fundamental First 
Amendment principle.

    [Whereupon, at 3:56 p.m., the subcommittee was adjourned.]

                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
